<html>
<title> - HURRICANE ISAAC: ASSESSING PREPAREDNESS, RESPONSE, AND RECOVERY EFFORTS</title>
<body><pre>[Senate Hearing 112-862]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 112-862

HURRICANE ISAAC: ASSESSING PREPAREDNESS, RESPONSE, AND RECOVERY EFFORTS

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                     SEPTEMBER 25, 2012--GRETNA, LA

                               __________

         Printed for the use of the Committee on Appropriations
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   Available via the World Wide Web: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=senate&committee=appropriations
                               __________

                       U.S. GOVERNMENT PUBLISHING OFFICE 

80-813 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          


                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
PATRICK J. LEAHY, Vermont            THAD COCHRAN, Mississippi, Ranking
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 KAY BAILEY HUTCHISON, Texas
PATTY MURRAY, Washington             LAMAR ALEXANDER, Tennessee
DIANNE FEINSTEIN, California         SUSAN COLLINS, Maine
RICHARD J. DURBIN, Illinois          LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            LINDSEY GRAHAM, South Carolina
MARY L. LANDRIEU, Louisiana          MARK KIRK, Illinois
JACK REED, Rhode Island              DANIEL COATS, Indiana
FRANK R. LAUTENBERG, New Jersey      ROY BLUNT, Missouri
BEN NELSON, Nebraska                 JERRY MORAN, Kansas
MARK PRYOR, Arkansas                 JOHN HOEVEN, North Dakota
JON TESTER, Montana                  RON JOHNSON, Wisconsin
SHERROD BROWN, Ohio

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

          Subcommittee on the Department of Homeland Security

                 MARY L. LANDRIEU, Louisiana, Chairman
FRANK R. LAUTENBERG, New Jersey      DANIEL COATS, Indiana
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            RICHARD C. SHELBY, Alabama
PATTY MURRAY, Washington             LISA MURKOWSKI, Alaska
JON TESTER, Montana                  JERRY MORAN, Kansas

                           Professional Staff

                            Charles Kieffer
                              Chip Walgren
                              Scott Nance
                            Drenan E. Dudley
                      Rebecca M. Davies (Minority)
                        Carol Cribbs (Minority)

                         Administrative Support

                              Nora Martin
                      Courtney Stevens (Minority)





















                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening Statement of Senator Mary L. Landrieu....................     1
    Prepared Statement of........................................     6
Statement of Craig Fugate, Administrator, Federal Emergency 
  Management Agency..............................................     8
    Prepared Statement of........................................    10
Preparations for Isaac...........................................    11
Coordinated Response and Recovery Efforts........................    12
Looking Forward..................................................    13
Statement of Major General John W. Peabody, Commander, 
  Mississippi Valley Division, Army Corps of Engineers...........    14
    Prepared Statement of........................................    16
Hurricane Preparedness Improvements Since Hurricane Katrina......    17
HSDRRS Preparations, Rehearsals, and Execution...................    18
Performance During Hurricane Isaac...............................    19
Post-Isaac Assessment............................................    19
Waterway Debris Removal..........................................    20
Case Management..................................................    21
Regional Offices.................................................    25
Recovery Effort..................................................    26
Statement of John F. Young, Jr., President, Jefferson Parish.....    32
    Prepared Statement of........................................    36
Statement of Billy Nungesser, President, Plaquemines Parish......    38
    Prepared Statement of........................................    40
Plaquemines Parish Levee Construction............................    40
Letter From Billy Nungesser to Senator Mary L. Landrieu..........    40
Statement of Natalie Robottom, President, St. John the Baptist 
  Parish.........................................................    43
    Prepared Statement of........................................    45
Statement of Pat Brister, President, St. Tammany Parish..........    48
    Prepared Statement of........................................    50
Statement of Garret Graves, Chair of the Coastal Protection and 
  Restoration Authority of Louisiana, and Executive Assistant to 
  the Governor for Coastal Activities............................    57
    Prepared Statement of........................................    59
Statement of Oneil P. Malbrough, President, Shaw Coastal, Inc....    65
    Prepared Statement of........................................    67
Additional Committee Questions...................................    75
Questions Submitted to the Federal Emergency Management Agency...    75
Waterway Debris Removal..........................................    75
Case Management..................................................    76
Rental Housing--Tracking Proximity and Placements................    78
Transition of Responsibility to Other Federal Agencies for 
  Recovery.......................................................    79
State Rainy Day Funds............................................    79
Food Assistance..................................................    80
Manufactured Housing.............................................    80
Remaining Hurricanes Katrina and Rita Issues.....................    81
Questions Submitted to the Army Corps of Engineers...............    81
Corps Budget.....................................................    81
Proven Flood Control Success.....................................    81
Corps Benefit-to-Cost Ratio Analysis.............................    82
Benefits/Needs of New Orleans Metropolitan Area Hurricane 
  Protection System..............................................    83
Mitigation.......................................................    85
Plaquemines Levees...............................................    85
Questions Submitted to Jefferson Parish..........................    86
Rainy Day Funds..................................................    86
Local Use of Hazard Mitigation Funding...........................    87
Debris Removal...................................................    90
Responsible Building.............................................    91
Questions Submitted to Plaquemines Parish........................    91
Rainy Day Funds..................................................    91
Local Use of Hazard Mitigation Funding...........................    92
Debris Removal...................................................    93
Responsible Building.............................................    93
Questions Submitted to St. John the Baptist Parish...............    94
Rainy Day Funds..................................................    94
Local Use of Hazard Mitigation Funding...........................    94
Debris Removal...................................................    95
Responsible Building.............................................    95
Questions Submitted to St. Tammany Parish........................    96
Rainy Day Funds..................................................    96
Local Use of Hazard Mitigation Funding...........................    97
Debris Removal...................................................    97
Responsible Building.............................................    98
Questions Submitted to the Coastal Protection and Restoration 
  Authority of Louisiana.........................................    98
State Resources for Flood Protection.............................    98
Obstacles From the Corps on Master Plan..........................    98
Beneficial Use of Dredged Material...............................    98
Questions Submitted to Shaw Coastal, Inc.........................    99
True Costs of Projects...........................................   100
Material Submitted Subsequent to the Hearing.....................   103
Prepared Statement of Hon. Freddy Drennan, Mayor, City of 
  Slidell, Louisiana.............................................   103
Prepared Statement of Greater New Orleans, Inc...................   104
Prepared Statement of New Orleans Sewerage and Water Board.......   124

 
HURRICANE ISAAC: ASSESSING PREPAREDNESS, RESPONSE, AND RECOVERY EFFORTS

                              ----------                              


                      TUESDAY, SEPTEMBER 25, 2012

                               U.S. Senate,
                 Subcommittee on Homeland Security,
                               Committee on Appropriations,
                                                        Gretna, LA.
    The subcommittee met at 10 a.m., at 200 Derbigny Street, in 
Gretna, Louisiana, Hon. Mary L. Landrieu (chairman) presiding.
    Present: Senators Landrieu and Vitter and Representative 
Richmond.


             opening statement of senator mary l. landrieu


    Senator Landrieu. Good morning. Let me welcome everyone to 
our Subcommittee on Homeland Security Appropriations field 
hearing. We will begin in just a moment. I would like to 
recognize Senator Vitter and Congressman Cedric Richmond, who 
is here with us today, and I appreciate them joining me on this 
field hearing. I want to begin by thanking Mayor Ronnie Harris, 
Jefferson Parish President John Young, and the parish council 
for hosting us this morning, this congressional hearing in 
historic Gretna.
    Less than 4 weeks ago on the anniversary of Hurricane 
Katrina, Hurricane Isaac dumped over 18 inches of rain and 
caused a man here to lose his life in a fire that destroyed 
Laruth's restaurant. He was one of six people killed by this 
hurricane, which also pushed a wall of water 11 feet high onto 
Louisiana's shores, knocked out power to 871,000 households, 
and hovered over region frighteningly for almost 60 hours.
    Last year in the United States, there were over 99 
disasters that were so severe they were declared eligible for 
Federal assistance by the President of the United States. That 
is the most disasters ever recorded in a single year since the 
Federal Government began keeping records in 1953. It eclipses 
the previous record of 81 that was set in 2010, and it is more 
than one decade ago, in 2002 when the Federal Emergency 
Management Agency (FEMA) declared just 49.
    In addition to the 99 disasters last year, there were 
another 508 events in the country that did not qualify for 
presidential disaster declaration, but which did prompt 
emergency declarations from State and local officials. That is 
one of the reasons it is so important for the Federal 
Government to maintain a robust disaster fund, and important 
for State and local governments to do the same.
    Louisiana has certainly had its share of disasters, 
including the most destructive natural disaster in the history 
of the United States, Hurricane Katrina, and coupled with 
Hurricane Rita 3 weeks later that hit our State and the gulf 
coast. There is no comparison since records have been kept.
    In addition, Gustav and Ike, the Deep Water Horizon several 
years later, then Tropical Storm Lee, which acted like a 
hurricane, and now Hurricane Isaac that was a category 1, but 
came on land like a category 3.
    We all know disasters will happen every year. We cannot 
prevent them. But with smart planning, responsible budgeting, 
and effective response, we can significantly minimize the loss 
of life and property and prevent widespread economic or 
ecological damage.
    This hearing is part of a comprehensive 7-year effort that 
I have undertaken as chair of this subcommittee, and previously 
as chair of the Disaster Recovery Subcommittee, to evaluate and 
improve our Nation's ability to cost-effectively prepare for, 
respond to, and improve our Nation's ability to respond to 
disasters, natural and man-made, of all types and sizes.
    I chaired a previous hearing in October 2011 that laid the 
groundwork for disaster relief financing reform, which I am 
happy to say was enacted into law in December 2011. That hard 
fought battle helped to ensure that adequate appropriations to 
the FEMA Disaster Relief Fund is now available to Administrator 
Fugate.
    For the first time in over a decade, FEMA received the 
resources it needed through its annual budget to help families 
and communities recover without having to stop projects 
recovering from past disasters in order to fund ongoing 
disasters. That is not happening today as a result of the fight 
and the battle that I led, and I am very proud of that and our 
subcommittee.
    But the Federal role in responding to disasters cannot be 
limited to FEMA alone. Today we have two panels of officials 
from the Federal, State, and local level to explore how local 
government as a whole can better protect, prepare, and respond 
to these evermore frequent events. Today we will focus in 
particular on flood protection investments, or the lack 
thereof, and the process of recovery by families and 
communities through assisting them with assistance, food, 
housing, transportation, debris removal, et cetera.
    We must do more to protect our communities in south 
Louisiana and in other parts of our State and country. We must 
do it as quickly as possible to reduce the loss of life and 
property and reduce the burden on taxpayers who continue 
footing the bill for disaster cost that could have been 
avoided.
    A recent study by the Multihazard Mitigation Council found 
that for every taxpayer $1 invested in mitigation, the Federal 
Government will save $4 on future FEMA assistance. Up until 
2000, the Federal Government provided assistance to repair 
disaster-damaged buildings without targeting any money to 
mitigate against the damage that occurred. I want to underscore 
this point: Until the year 2000, FEMA rebuilt what was there 
before storms, and a penalty was charged if you tried to 
improve the structure. We removed that penalty and are building 
in a much smarter way, rebuilding without penalties to rebuild 
stronger and better.
    So to correct that failed policy, we passed a law 5 years 
ago that has resulted in billions of dollars to State and local 
governments for mitigation measures, like levee repairs, 
drainage improvements, wetland restoration, and home 
elevations, in order to lessen the consequences of future 
events.
    If they are properly planned and executed, these projects 
will actually save taxpayers money in the long term. But let me 
be clear. We simply cannot protect southeast, southwest, or 
south central Louisiana or any part of Louisiana or any part of 
the Nation with mitigation grants alone. We need a more 
consistent, more robust funding mechanism for building our 
levees, securing our pump stations, flood protection, internal 
drainage, and wetlands restoration. We need the Army Corps of 
Engineers (COE) and the State to commit additional resources to 
this effort, and we need a multilayered system of defense that 
incorporates smarter planning and stronger building codes as 
well.
    For the sake of historical context, since 1992 FEMA has 
spent over $131 billion through the Disaster Relief Fund. In 20 
years, FEMA spent $131 billion of Federal funds. Louisiana 
alone out of that $131 billion has received more than $60 
billion. That is including the $14 billion from COE, so it is a 
little bit exaggerated, the $60 billion, but that includes some 
COE funding from the Federal Government to recover from 
hurricanes that struck our State only between the years of 2005 
and 2008. That is $60 billion between 2005 and 2008.
    We can and must find a way to reduce costs to the U.S. 
taxpayers by reducing the loss of life and property in future 
events. Yet shockingly, we only spent $1.6 billion on COE's 
annual construction budget nationwide, a level that is 25 
percent less than what we spent in 2007, and only one-hundredth 
of 1 percent of our gross domestic product (GDP). It is 
shocking.
    Federal funding for transportation infrastructure, on the 
other hand, just to give comparison, like highways and 
airports, which is by no means adequate, however, to support 
the long-term economic growth, has increased as a percentage of 
GDP over the past 15 years, and has nearly doubled since 1998 
from $29 billion a year to $52 billion.
    So I just want to repeat transportation of all sources has 
doubled from $29 billion to $52 billion. The COE budget has 
decreased by 29 percent since 2007 for new construction. In 
stark contrast, the Federal COE budget over that same period 
has gone up by less than $200 million and declined as a 
percentage of GDP.
    Most people in the world would probably expect that our 
Nation's Presidents and Members of the Congress finally 
realized the fatal consequences of underinvesting in flood 
protection after the Federal levee failure overwhelmed the most 
powerful Nation in the world, while the rest of the world 
watched. But leaders apparently still do not get it because 
COE's construction budget as a percentage of GDP has gone down 
every single year since Hurricane Katrina. We should be 
outraged by that fact. I am.
    We owe it to the taxpayers of our Nation and, most 
importantly, to the citizens of Louisiana that are on the wrong 
side of the levee, and the citizens of the gulf coast to 
reverse the Federal Government's trend of shortchanging vital 
flood protection, and incurring exorbitant disaster costs as a 
result.
    Sadly, in this year, fiscal year 2012, COE spent only $6.4 
million for construction in Louisiana, which is just 38 percent 
of its annual construction budget. That is short-sighted, 
dangerous, and irresponsible. Louisiana is desperately in need 
of more levees, pumps, flood control structures, wetlands 
restoration, and we need it now.
    We are all grateful for the Federal Government's $14.5 
billion investment in flood protection post-Hurricane Katrina 
that no doubt prevented tens of millions of dollars in damage 
from happening in this last storm during Hurricane Isaac, and 
helped protect communities inside the system. But people that 
live in those protection zones are not only the ones that are 
here today, and one does not have to look any further than 
Braithwaite on the East Bank of the river or in LaPlace; Indian 
village in Slidell; or Lafitte in Jefferson Parish to realize 
that we still have a long way to go.
    The people who are here today still do not have the flood 
protection they need and deserve. They are rightfully upset, 
and so am I.
    A flood protection effort of this magnitude should have 
started 50 years ago, but now our political agendas, short-
sighted budget gridlock, gridlock in the Congress, a lack of 
knowledge in civic engagement, prevented that effort from 
beginning when it should have. And now we are playing a very 
dangerous and expensive game of catchup.
    Our local governments, some of whom are represented here 
today, know where the protection gaps are within their 
communities. But sadly, we always seem to be working so much on 
recovering from previous disasters--Hurricanes Katrina, Rita, 
Gustav, Ike, now Isaac--we do have the difficult time focusing 
on investing in the future. We have built up resilience at the 
local level through some mitigation efforts, smarter planning, 
and better building codes, but we have a tremendous amount of 
work to do.
    FEMA is only the tip of the spear when it comes to Federal 
Government response for the disasters, and I want to underscore 
tip, not the entire weapon. It is important to remember that 
FEMA plays also a coordinating role, and other Federal agencies 
are equally vital to our recovery, including the Small Business 
Administration, the Department of Housing and Urban 
Development, the Department of Agriculture, the Federal Highway 
Administration, and COE, all of whom responded to Hurricane 
Isaac, all of whom are on the ground here, but many of them 
have very few resources to operate.
    Inevitably there will be more hurricanes and more flooding, 
but we cannot abandon and neglect this vital region. General, 
as you said in your opening testimony, which I read every word 
of both your testimonies this morning, you said, ``Coastal 
Louisiana is home to one of the large port complexes in the 
world. It is the top producer of domestic oil, and it is the 
top fisheries producer in the lower 48 States.''
    That is, in fact, true. And we must find a way to protect 
it, not just for the benefit of the people that live here, but 
the people in the Nation that count on us to live here and 
deliver the goods. And that will require a more serious and 
sustained Federal investment in flood protection through your 
agency, COE, and the emergency management system that better 
anticipates and accommodates whatever is thrown at it.
    That is what we will examine in today's hearing, what is 
going right, what is going wrong, and where we go from here.
    I will introduce our first panel in 1 minute, but first I 
want to spend a short time talking about what I observed 
personally during Hurricane Isaac.
    I was here in Louisiana when the storm hit, as was our 
congressional delegation. I waited anxiously through 30 hours 
of rain with my family in Broadmoor, one of the lowest lying 
neighborhoods in the region, hoping the levees would hold and 
the pumps would work for the first time since 1978, and praying 
for all those in harm's way.
    After the rain finally let up, I visited parish after 
parish, as did my colleagues. We spoke with citizens and local 
officials alike. I traveled by boat and air boat to survey the 
Braithwaite community in upper Plaquemines Parish. My visit 
came less than 30 hours after Jesse Schaeffer and his son, 
Jesse, Jr., heroically saved 120 neighbors during the worst 
part of the storm that saw water rising a foot every 10 minutes 
in the middle of the night in Braithwaite. And I firsthand 
witnessed the heroic efforts of the Plaquemines Parish sheriff 
and his deputies.
    I surveyed other areas of Plaquemines Parish by helicopter 
and witnessed the devastation in Murder Grove and Ironton on my 
way to Grand Isle, where I walked the beaches and the ravished 
levees with Mayor David Carmadelle. I hosted Secretary Janet 
Napolitano on her visit to Louisiana post-Hurricane Isaac, 
where we visited one of the food distribution sites with Parish 
President Brister in St. Tammany, where storm survivors came 
for help from places like Indian Village, Lacombe, South 
Mandeville, Madisonville, and I will be visiting there this 
afternoon.
    I toured Lafitte in a high water vehicle with Jefferson 
Parish President John Young, Councilman Chris Roberts, and 
Mayor Timmy Kerner to visit the citizens of Lafitte, who, just 
like the residents of Crown Point, Grand Isle, and Barataria, 
are storm-weary and worn out after another flood in their 
communities, which is so vital to this Nation's fisheries and 
oil and gas infrastructure.
    And finally, I welcomed President Obama to St. John Parish 
where we surveyed the damage of the hardest hit areas with 
Parish President Natalie Robottom. In neighborhoods such as New 
51, River Forest, and Cambridge subdivisions, which have never 
had flooding like that in 20 years, I held people as they wept 
with 6 or 7 feet of water in their homes.
    I had the opportunity to thank the President for his 
assistance, for what his administration has provided so far. 
But I warned him of the woefully insufficient COE budget, and 
was encouraged by his offer to convene a high level meeting in 
Washington on this subject, which we will do in the next 2 
weeks.
    With that, I would like to introduce our first panel. The 
members, Senator Vitter and Congressman Richmond, will have an 
opportunity for questions to this panel, and they have come 
prepared to ask some tough ones. First, Mr. Fugate, who is the 
Administrator of FEMA, a position he has held for almost 4 
years. After Mr. Fugate, we will hear from General Peabody, who 
is the Commander of COE, Mississippi Division in which Colonel 
Fleming, our Colonel, reports to.


                           prepared statement


    So, Mr. Fugate, we will start with you. You understand the 
purpose of this hearing. If you could bring us up to date, you 
have got 5 minutes. And then we will have questions after 
General Peabody takes his 5 minutes of testimony. Thank you.
    [The statement follows:]
             Prepared Statement of Senator Mary L. Landrieu
    I'd like to begin by thanking Mayor Ronnie Harris, Jefferson Parish 
President John Young, and the parish council for hosting this 
congressional hearing today in historic Gretna, where less than 4 weeks 
ago on the anniversary of Katrina, Hurricane Isaac dumped over 18 
inches of rain and caused a man to lose his life in a tragic fire that 
destroyed Leruth's Restaurant on Franklin Avenue. He was one of six 
people killed by the hurricane, which also pushed a wall of water 11 
feet high onto Louisiana's shores, knocked out power to 871,000 
households, and hovered over the region for 60 hours.
    Last year, in the United States there were over 99 disasters that 
were so severe they were declared eligible for Federal assistance by 
the President. That is the most disasters ever recorded in a single 
year since the Federal Government began keeping records in 1953. It 
eclipses the previous record of 81 that was set in 2010, and it's more 
than twice the number of disasters declared one decade ago in 2002 when 
FEMA declared just 49. In addition to the 99 disasters last year, there 
were another 508 events that didn't qualify for Federal assistance, but 
which did prompt emergency declarations from State and local 
governments who mobilized to respond. That is one of the reasons it is 
so important for the Federal Government to maintain a robust Disaster 
Relief Fund. Louisiana has certainly had its share of disasters, 
including the most destructive natural disaster in United States 
history--Hurricane Katrina--and Hurricanes Rita, Gustav, and Ike, 
Deepwater Horizon, Tropical Storm Lee, and now Isaac. We know disasters 
will happen each and every year. We cannot prevent them, but with smart 
planning, responsible budgeting, and effective response we can 
significantly minimize loss of life and property, and prevent 
widespread economic or ecological damage.
    This hearing is part of a comprehensive 7-year effort that I have 
undertaken as the chair of this committee and previously as chair of 
the Disaster Recovery Subcommittee to evaluate and improve our Nation's 
ability to cost-effectively prepare for, respond to, and recover from 
natural disasters and man-made events of all sizes and types. I chaired 
a previous hearing in October 2011 that laid the groundwork for 
disaster relief financing reform, which was enacted into law in 
December 2011. That hard-fought effort helped ensure adequate 
appropriations to the FEMA Disaster Relief Fund. For the first time in 
over a decade, FEMA received the resources it needed through its annual 
budget to help families and communities recover.
    But the Federal role in responding to disasters cannot be limited 
to FEMA funding alone. Today, we have two panels of officials from the 
Federal, State, and local level to explore how government, as a whole, 
can better protect, prepare, and respond to these ever more frequent 
events. Today we will focus in particular on flood protection 
investments, or lack thereof, and the process of recovery; families and 
communities recover by assisting them with food, housing, 
transportation, debris removal, and other disaster-related needs.
    We must do more to protect our communities in south Louisiana and 
in other parts of our State and country, and we must do it as quickly 
as possible to reduce loss of life and property and reduce the burden 
on taxpayers who continue footing the bill for disaster costs that 
could have been averted. A recent study by the Multihazard Mitigation 
Council found that for every taxpayer dollar invested in mitigation, 
the Federal Government saves $4 on future FEMA assistance. Up until 
2000, the Federal Government provided assistance to repair disaster-
damaged buildings without targeting any money to mitigate the damage 
that occurs. To correct that failed policy, Congress passed a law 5 
years before Katrina in 2000, that has resulted in billions of dollars 
to State and local governments for mitigation measures like levee 
repairs, drainage improvements, wetlands restoration, and home 
elevations, in order to lessen the consequences of future events. If 
they're properly planned and executed, these projects will actually 
save taxpayers money in the long term.
    But let me be clear, we simply cannot protect southeast, southwest, 
or south central Louisiana by relying solely on FEMA's mitigation 
grants. We need a more consistent, more robust funding mechanism, for 
building our levees, securing our pumps, flood protection, internal 
drainage, and wetlands restoration. We need the Corps of Engineers and 
the State to commit additional resources to this effort, and we need a 
multi-layered system of defenses that incorporates smarter planning and 
stronger building codes, as well.
    For the sake of historical context, since 1992 FEMA has spent $131 
billion through the Disaster Relief Fund. Louisiana alone has received 
more than $60 billion from the Federal Government to recover from the 
hurricanes that struck our State in 2005 and 2008. We can, and we must, 
find a way to reduce the cost to U.S. taxpayers by reducing the loss of 
life and property in future events. Yet, shockingly, we only spend $1.6 
billion on Corps of Engineers annual construction nationwide, a level 
that is 25 percent below what we spent in 2007, and only one-hundredth 
of a percent of gross domestic product (GDP). Federal funding for 
transportation infrastructure on the other hand, like highways and 
airports, which is by no means adequate to support long-term economic 
growth, has increased as a percentage of GDP over the past 15 years and 
nearly doubled since 1998 from $29.4 billion to $52 billion in 2012. In 
stark contrast however, Federal funding for Corps construction over 
that same period of time has gone up by less than $200 million and 
declined as a percentage of GDP. Most people in the world would 
probably expect that our Nation's Presidents and Members of Congress 
finally realized the fatal consequences of underinvesting in flood 
protection after Federal levee failures overwhelmed the most powerful 
nation in the world while the rest of the world watched. But our 
leaders apparently still don't get it, because the Corps of Engineers 
construction budget as a percentage of GDP has gone down every single 
year since Katrina struck, and we should be outraged by that fact. I 
am! We owe it to the taxpayers of our Nation, and to the citizens of 
Louisiana and the gulf coast, to reverse the Federal Government's trend 
of shortchanging vital flood protection and incurring exorbitant 
disaster costs as a result. Sadly, in fiscal year 2012, the Corps only 
spent $6.4 million for construction in Louisiana, which is just .38 
percent of its annual construction budget. That's short-sighted, 
dangerous, and irresponsible. Louisiana needs levees, pumps, flood 
control structures, and wetlands restoration, and we need it now.
    We're all thankful for the Federal Government's $14.5 billion 
investment in flood protection post-Katrina that no doubt prevented 
tens of millions of dollars in damage during Hurricane Isaac and helped 
protect communities inside the system, but the people that live in 
those protection zones are not the only ones who are here today. And 
one doesn't have to look any further than Braithwaite on the East Bank 
of Plaquemines Parish, the River Forest subdivision in LaPlace, Indian 
Village in Slidell, or Lafitte in Jefferson Parish, to realize that we 
still have a long way to go. The people who are here today still don't 
have the flood protection they need and deserve, they're rightfully 
upset about it, and so am I.
    A flood protection effort of this magnitude should have started 50 
years ago, but narrow political agendas, short-sighted budgets, 
gridlock in Congress, and a lack of knowledge and civic engagement 
prevented that effort from beginning when it should have, so now we're 
playing a very dangerous game of catch-up. Our local governments, some 
of whom are represented here today, know where the protection gaps are 
within their communities, but sadly, we always seem to be working so 
much on recovering from previous disasters--Katrina, Rita, Gustav, Ike, 
and now Isaac--that we have a difficult time focusing on investing for 
the future. We have built up resilience at the local level through some 
mitigation efforts, smarter planning, and better building codes, but we 
still have a tremendous amount of work to do.
    FEMA is only the tip of the spear when it comes to the Federal 
Government's response to disasters. It's important to remember that 
FEMA plays a coordinating role, and other Federal agencies are equally 
vital to disaster recovery, including the Small Business 
Administration, Department of Housing and Urban Development, Department 
of Agriculture, Federal Highway Administration, and Corps of Engineers 
all of whom responded to Hurricane Isaac and are on the ground here in 
Louisiana.
    Inevitably there will be more hurricanes and more flooding, but we 
cannot abandon or neglect this vital region of the country, which 
contributes over 17 percent to the Nation's GDP. As General Peabody 
said in his own testimony this morning, ``coastal LA is home to one of 
the largest port complexes in the world, is the top producer of 
domestic oil, and it the top fisheries producer in the lower 48 
States''. We must protect it, and that will require a serious and 
sustained Federal investment in flood protection through the Corps of 
Engineers and an emergency management system that better anticipates 
and accommodates whatever is thrown at it. That is what we will examine 
in today's hearing. What went right and what went wrong during 
Hurricane Isaac and where we go from here.
    I will introduce our first panel in just a minute. But first, I 
want to spend a short time talking about what I observed personally 
during Hurricane Isaac. I was here in Louisiana when the storm hit. I 
waited anxiously through 60 hours of rain with my family in Broadmoor, 
one of the lowest lying neighborhoods in the region, hoping the levees 
would hold and the pumps would work, and praying for all of those in 
harm's way. After the rain finally let up, I visited parish after 
parish and spoke with scores of citizens and local officials alike.
    I traveled by boat and airboat to survey the Braithwaite community 
in upper Plaquemines Parish. My visit came less than 30 hours after 
Jesse Schaeffer, and his son Jesse Jr. heroically saved more than 120 
neighbors during the worst part of the storm that saw water rising a 
foot every 10 minutes.
    I surveyed other areas of Plaquemines Parish by helicopter and 
witnessed the devastation in Myrtle Grove and Ironton on my way to 
Grand Isle, where I walked the beaches and ravaged Burrito levees with 
Mayor David Carmadelle.
    I hosted the Secretary of Homeland Security, Janet Napolitano, on 
her first visit to Louisiana post-Isaac, where we visited one of the 
food distribution site in St. Tammany Parish, where storm survivors 
came for help from places like Indian Village, Lacombe, south 
Mandeville, and Madisonville, which I'll be visiting again this 
afternoon.
    I toured Lafitte in a high water vehicle with Jefferson Parish 
President John Young, Councilman Chris Roberts, and Mayor Timmy Kerner 
to visit the citizens of Lafitte, who just like the residents of Crown 
Point, Grand Isle, and Barataria, are storm-weary and flat worn out 
after yet another flood in their communities which are so vital to this 
Nation's fisheries and its oil and gas infrastructure.
    I welcomed President Obama to St. John Parish, where we surveyed 
damage in the hardest hit areas of LaPlace, such as the New 51, River 
Forest, and Cambridge subdivisions. I had the opportunity to thank him 
for the assistance his administration has provided so far, but I also 
warned him of the woeful insufficiency of the Corps of Engineers' 
budget and was encouraged by his offer to convene a high-level meeting 
in Washington on the subject.
    With that, I would like to introduce our first panel. Each will 
have 5 minutes for comments and then time for questions. First, Mr. 
Fugate, who is the Administrator of FEMA, a position he has held for 
almost 4 years now. After Mr. Fugate, we will hear from Major General 
Peabody who is the Commander of the Corps of Engineers' Mississippi 
Division, a territory that runs from Canada to the gulf coast along the 
Mississippi River.
    Mr. Fugate we will start with you.
    [Fugate Testimony]
    Thank you. Major General Peabody.
    [Peabody Testimony]
    [Thank the witnesses for their testimony then begin questions.]
                               [panel ii]
    Now we will hear from our second panel to get some local 
perspective. We have on this panel four parish presidents who represent 
some of the areas hardest hit by Hurricane Isaac--Jefferson, 
Plaquemines, St. Tammany, and St. John. We also have the State 
represented through the Coastal Protection and Restoration Authority; 
and industry represented through Shaw Coastal Inc. Each of you will 
have 5 minutes to offer opening statements and then we will move to 
questions.
    Mr. Young we will start with you. [After John Young, the order is 
Billy Nungesser, Pat Brister, Natalie Robottom, Garret Graves, and 
Oneil Malbrough.]
    [After all witnesses present their testimony start questions.]
STATEMENT OF CRAIG FUGATE, ADMINISTRATOR, FEDERAL 
            EMERGENCY MANAGEMENT AGENCY
    Mr. Fugate. Thank you, Madam Chair, and Senator and 
Congressman. The response to Hurricane Isaac is a combination 
of several key pieces of legislation and tools. The response to 
Hurricane Isaac was based upon the capability and resources 
that the Congress has provided FEMA, most specifically the 
post-Hurricane Katrina Emergency Management Reform Act, which 
radically changed the way that FEMA has been structured to 
approach disasters.
    In Hurricane Katrina and other disasters, the Congress 
found that many of the authorities that FEMA had were not 
clear. Did we have to wait until the State was overwhelmed 
before we could even begin mobilizing resources? Did we have to 
wait for formal requests from the Governor to start expending 
resources to be prepared to support the State? Did we have the 
authorities to coordinate recovery activities beyond that of 
the Stafford Act?
    During my confirmation hearing, Madam Chair, you reminded 
me of a to-do list that FEMA had not completed. Hurricane Isaac 
is really, I think, a culmination of that and the Budget 
Stabilization Agreement last year to fully fund the disaster 
account. If you remember last year during Hurricane Irene, we 
were questioning whether we had money to continue to respond to 
an active disaster. This year the Disaster Relief Fund 
currently has a balance of almost $1 billion going into the 
next fiscal year, meaning that not only can we respond to the 
current disasters, but we are prepared for the next disaster, 
whether it is a forecast event, such as a hurricane, or a no-
knows event, such as an earthquake.
    But other activities that have taken place in the last 3\1/
2\ years that I have been at FEMA are also at play, one of 
which was a national disaster recovery framework. We learned 
after Hurricane Katrina you cannot expect State and local 
governments who are so overwhelmed in a disaster, to go through 
the Federal catalog and try to determine what Federal agencies 
can help them beyond the original help that is provided in the 
Stafford Act.
    But not only are we able to implement that plan, we are 
working with the State to utilize that framework to coordinate 
some of the longer term recovery issues that some of the 
communities that were hardest hit by Hurricane Isaac faced. We 
have more staff. We have more resources. We have equipment that 
is ready to go. This response, based upon a storm tracked that 
originally was threatening the Virgin Islands and Puerto Rico 
throughout much of the gulf coast, and ultimately the majority 
of the impact on the Mississippi coast and here in Louisiana, 
also demonstrated that those investments that were made after 
Hurricane Katrina paid dividends.
    Mitigation--oftentimes we talk about the amount of money 
that we will spend on mitigation and how much it saves us. I 
think Hurricane Isaac showed us that not only is it the 
reduction in damages, it is the preservation of key critical 
functions of local government. Throughout the gulf coast 
region, we saw numerous examples where structures that were 
hardened and elevated to protect them against a hurricane 
allowed local officials and first responders to remain in their 
communities and operate safely. This, in turn, sped up the 
response, and in many cases, the initial response to much of 
the impacts was the local responders, because they were able to 
stay in their communities. They had safe locations to work 
from. Their communications and other systems that had been 
enhanced since Hurricane Katrina allowed them to speed up their 
response.
    The State and our partnership with the Governor's team at 
the Governor's Office of Homeland Security and Emergency 
Preparedness (GOHSEP), as well as our Federal agencies, also 
has expanded beyond what the Government does. We know from the 
lessons of Hurricane Katrina that in many cases, it was the 
private sector that oftentimes was first in communities getting 
open and providing services.
    This storm allowed us to exercise our National Business 
Emergency Operations Center, where we are coordinating with 
national chains as well as through States, Emergency Operations 
Center, and their connection with the business community, not 
to duplicate, but to complement where businesses are providing 
services so we can focus on those areas that are not being 
served.
    As we saw with this storm, a slow-moving storm was a 
challenge because in many cases, although we had resources and 
teams ready to go, we couldn't respond until the storm 
meandered its way up through the area. That meant that in many 
cases, communities were not hit and then responding. They were 
hit and responding and still being hit and responding.
    And I think the story of mitigation really comes back to 
not only is it the dollar savings and losses that were 
prevented. It is the ability of those key local responders and 
critical functions to remain operational through such a long-
duration storm and continue to provide those services without 
necessarily having to wait for outside assistance to get there.
    Many other lessons have been learned. Many other challenges 
have been revealed by this storm. We continue to work with our 
partners in the volunteer community, and faith-based 
communities, and the private sector, but most importantly, with 
our partners at the State and local level.
    And I would like to end with this: I have been here for 
3\1/2\ years. The team I get to work with is the best team I 
have ever had an opportunity to serve with. And I am very proud 
of the caliber of people that President Obama brought in. I was 
doing a little count. We have over seven former State directors 
who now are working at FEMA at senior levels. We have never 
before had that many representatives of State and local 
government. Our deputy administrator, Rich Reno, was formerly 
the emergency medical services chief for the city of Boston.
    I think the President's decision to infuse FEMA with local 
and State officials who have been in the trenches and who have 
dealt with the same thing the parishes here have dealt with and 
the State of Louisiana has dealt with means that we may not 
always be right the first time, but we are working as a team, 
as partners, to get it right.

                           PREPARED STATEMENT

    And with that, I will thank you, Madam Chair, Senator 
Vitter, and Congressman Richmond. And I will await your 
questions.
    [The statement follows:]
                   Prepared Statement of Craig Fugate
                              introduction
    Good Morning, Chairwoman Landrieu, and members of the committee. I 
am Craig Fugate, Administrator of the Federal Emergency Management 
Agency (FEMA) and I am grateful for the opportunity to speak here 
today. I look forward to discussing the preparations that took place 
before Hurricane Isaac made landfall, the coordinated response that 
took place during the storm and is continuing today, and the recovery 
efforts that lay ahead.
    Tropical Storm Isaac formed in the Atlantic late on August 21, 
2012, and continued westward into the Caribbean before turning 
northwest across western Haiti and eastern Cuba, passing west of Key 
West, Florida, and moving into the Gulf of Mexico. Isaac became a 
category 1 hurricane early on Tuesday, August 28. The hurricane's 
center made landfall along the southeast Louisiana coast at 6:45pm 
central daylight time with sustained winds of 80 miles per hour and 
gusts extending outward from the center up to 185 miles, primarily 
affecting the coastal areas of Southeastern Louisiana, Mississippi, and 
Alabama. The storm moved slowly back towards the gulf Tuesday night 
before making a second landfall in southeast Louisiana early on 
Wednesday, August 29. Tremendous storm surge reaching estimated heights 
as high as 12 feet in coastal and riverine areas and rainfall amounts 
estimated between 7 and 14 inches with isolated maximum amounts 
estimated near 20 inches inundated much of Louisiana, southern 
Mississippi, southern Alabama, and the western Florida panhandle. Tens 
of thousands were ordered to evacuate.
    In the days leading up to landfall of Hurricane Isaac, FEMA worked 
with the whole community to support our citizens and first responders 
as they prepared. It is clear the authorities given to FEMA in the wake 
of Hurricane Katrina contributed to increased readiness and improved 
response throughout the storm. By leaning forward, the agency was able 
to support a prompt, coordinated response effort while effectively 
understanding the needs of survivors and planning for future needs.
                         preparations for isaac
    Long before Hurricane Isaac made landfall, FEMA was coordinating 
and collaborating with whole community partners to plan and prepare for 
a hurricane event. The State of Louisiana and FEMA's regional office 
have worked closely to develop catastrophic, worst-case scenario 
hurricane plans which were developed to be flexible and scalable for 
incidents of lesser magnitude. Emergency managers at all levels work 
together to review, update, and validate the Joint FEMA Region VI 
Louisiana Hurricane Operation Plan annually through planning workshops, 
table top exercises (TTX) and drills that foster relationship-building 
and decisionmaking that proves essential for response in disasters. For 
example, in May 2012, Federal, State, and local partners completed a 
Rehearsal of Concept (ROC) drill and a 2-day exercise combining a TTX 
with a functional exercise that simulated an air evacuation of 
survivors from the Louis Armstrong New Orleans International Airport.
    In the days immediately before Isaac reached the gulf coast, FEMA 
worked with whole community partners to stage resources that would 
support response efforts that began as soon as conditions were safe. 
The agency's success coordinating these resources and the response 
efforts to follow were due largely to the lessons learned following 
Hurricane Katrina in 2005. In the aftermath of Hurricane Katrina, 
Congress enacted the Post-Katrina Emergency Management Reform Act of 
2006 (PKEMRA), which enabled FEMA to improve our processes in order to 
more efficiently and effectively provide services to the communities we 
serve.
    PKEMRA required that FEMA ``develop an efficient, transparent, and 
flexible logistics system for procurement and delivery of goods and 
services necessary for an effective and timely response to natural 
disasters, acts of terrorism, and other man-made disasters and for 
real-time visibility of items at each point throughout the logistics 
system.'' Recognizing the need to improve logistics capabilities, FEMA 
elevated logistics from a branch-level operation to a full directorate 
with the creation of the Logistics Management Directorate (LMD). LMD is 
now organizationally aligned with and fully integrated into response 
and recovery operations, enabling them to provide efficient, 
transparent, and flexible logistics capability to ensure an effective 
and timely response to disasters. This improved capacity was evident in 
the prompt procurement, delivery, and dispersal of goods and services 
supporting response and recovery efforts following Hurricane Isaac.
    In addition to creation of the LMD, PKEMRA spurred creation of 
FEMA's Incident Management Assistance Teams (IMATs), who plan, train, 
and exercise with State and local partners to prepare for all hazards. 
The IMATs are FEMA's first responders for all disasters. They arrive 
on-scene early and work to establish Interim Operating Facilities 
(IOFs) before Joint Field Offices are established to manage response 
operations. IMATs also support the Unified Coordination Group (UCG), 
which brings together senior leaders who represent the interests of 
Federal, State, local, and tribal governments in an effort to promote 
effective coordination and planning across entities. In response to 
Hurricane Isaac, IMAT teams deployed before the storm made landfall. 
Teams were positioned at the State Emergency Operations Center (EOC) 
and were directly involved in nearly every aspect of response efforts.
    PKEMRA also grants FEMA the authority to lean forward and leverage 
the entire emergency management team in response and recovery efforts, 
a tool we take advantage of regularly and employed early for Hurricane 
Isaac. The agency is permitted to take actions necessary to save lives 
and protect property by positioning emergency equipment, personnel, and 
supplies to support response to notice events like hurricanes. Despite 
the inherent challenges of predicting hurricane landfall or 
anticipating the full extent of its effects, FEMA worked with State and 
local partners to alert, deploy, and stage resources beginning August 
25, 2012, 3 days before Isaac made landfall. FEMA pre-positioned over 
120 truckloads of commodities carrying almost 1.7 million liters of 
water and 1.7 million meals, in addition to cots, tarps, blankets, 
generators, and other resources to support caches already staged by the 
State in preparation for the 2012 hurricane season. A total of 158 
individuals from FEMA and other Federal agencies deployed in advance of 
the incident to support pending response and recovery activities.
    In the 72 hours prior to landfall, the Louisiana Governor's Office 
of Homeland Security and Emergency Preparedness (GOSHEP) EOC, as well 
as both FEMA's Region VI Regional Response Coordination Center (RRCC) 
and the National Response Coordination Center (NRCC) were activated to 
support pre-deployment activities and situational awareness. By request 
from the State, FEMA also activated the national ambulance contract, 
allowing the agency to stage ambulances and para-transit vehicles to 
support evacuations of hospitals and nursing homes prior to landfall. 
Search and Rescue (SAR) resources from FEMA and other Federal partners 
were staged throughout the gulf coast.
               coordinated response and recovery efforts
    When Hurricane Isaac made landfall on Tuesday, August 28, 2012, 
FEMA and other Federal agencies had deployed personnel, pre-positioned 
commodities, and established State and Federal staging areas to 
stabilize the incident within 72 hours of landfall. State and Federal 
teams worked quickly to activate Points of Distribution (PODs), sites 
where survivors were provided with food, water, and other essential 
resources. Under the new National Disaster Recovery Framework (NDRF), 
two members of the Federal Disaster Recovery Coordinators (FDRC) cadre 
deployed almost immediately to hard-hit areas of Louisiana. These 
individuals were available to support the State's recovery leadership, 
and to monitor recovery impacts and issues in the aftermath of the 
storm.
    By Friday, August 31, 33 PODs in 12 parishes were supporting 
survivor needs. Additional Federal resources were deployed to support 
medical shelters and other response activities, and approximately 300 
Community Relations (CR) personnel were deployed and formed teams to 
provide disaster assistance information to survivors while conducting 
damage assessments and providing situational awareness. The pre-
planning and coordination efforts between the State of Louisiana and 
FEMA's regional office enabled the State to respond rapidly through the 
State-Led Disaster Housing Task Force (SLDHTF), a task force of 
subgroups that meet daily to identify issues while developing a 
comprehensive housing plan that continues to guide disaster housing 
recovery efforts. The SLDHTF also works with the Housing Recovery 
Support Function coordinating agency under the NDRF, the U.S. 
Department of Housing and Urban Development (HUD), to identify ways to 
leverage existing State programs using HUD-based programs like the 
Community Development Block Grant (CDBG) Program and other funding 
mechanisms.
    The authorities and guidance established in PKEMRA have also helped 
FEMA integrate the private sector into our preparedness, response, and 
recovery efforts. In 2007, in response to recommendations in PKEMRA, 
FEMA established a Private Sector Division (PSD) within the Office of 
External Affairs. The PSD helps to formalize FEMA's approach to private 
sector engagement by building bridges to businesses and other non-
governmental organizations to develop meaningful public private 
partnerships and facilitate private sector innovation and networking 
across FEMA.
    In August 2012, FEMA's PSD announced the creation of FEMA's first-
ever National Business Emergency Operation Center (NBEOC). This new 
virtual organization serves as FEMA's clearinghouse for non-
operational, two-way information-sharing between public and private 
sector stakeholders in preparing for, responding to, and recovering 
from disasters. Throughout Hurricane Isaac, the NBEOC worked to 
coordinate, communicate, and collaborate with private industry to 
foster relationships, improve information-sharing and situational 
awareness, and engage key stakeholders who brought resources, 
capabilities, and expertise to bear during response and recovery 
efforts. The NBEOC was incredibly well-received during response efforts 
from private sector stakeholders who applauded the communication and 
coordination gained through the aggregation of multiple communications.
    In the aftermath of Hurricane Isaac, FEMA's mobile outreach efforts 
have continued to simplify the process of identifying and applying for 
disaster assistance through DisasterAssistance.gov, a Web site 
established in 2008 to help survivors apply for FEMA Individual 
Assistance and find other forms of assistance. Between August 31 and 
September 18, 422,160 disaster survivors visited DisasterAssistance.gov 
to apply for assistance, update their information, and check the status 
of their application online. As of September 19, Hurricane Isaac 
survivors had submitted over 18,700 applications for assistance through 
smartphones, which allow survivors to apply for assistance and track 
submitted applications with the added flexibility of mobile access.
    By constantly striving to support our citizens and first responders 
in efficient, streamlined ways, FEMA is working to fulfill the agency's 
mission while navigating the limitations of today's ever-strained 
economic environment. Following Hurricane Isaac, over 46 percent of 
registrants applying for individual assistance have opted to receive 
all correspondence from FEMA electronically. This option was made 
possible through the Electronic Correspondence (E-Corr) program, 
implemented on August 15, 2011. The program has helped FEMA to 
communicate with survivors in a convenient, efficient, and effective 
medium. In Hurricane Isaac alone, E-Corr is estimated to have saved the 
agency approximately $405,000 on postage, printing, and envelope costs.
                            looking forward
    FEMA opened the first Hurricane Isaac Disaster Recovery Centers 
(DRCs) on Saturday, September 1, providing survivors with resources and 
information about FEMA and other disaster assistance programs. As of 
September 19, 27 DRCs in Louisiana and 16 in Mississippi continue to 
support survivor needs. Survivors in Louisiana have filed 182,683 
registrations for disaster assistance, and survivors in Mississippi 
have filed 19,936 registrations. FEMA has approved nearly $67.1 million 
in assistance for qualified homeowners and renters in Louisiana and 
$9.1 million for qualified homeowners and renters in Mississippi. More 
than $7.6 million in public assistance funds have been obligated to 
help affected communities recover. In addition, as of September 18, 
nine business recovery centers had been opened by the Small Business 
Administration (SBA), which had approved low-interest disaster loans 
totaling over $1.4 million. The United States Department of Agriculture 
(USDA) has granted the State's request for the Disaster Supplemental 
Nutrition Assistance Program (DSNAP) benefits for eligible survivors, 
allowing more than 86,000 households to receive over $36 million in 
benefits.
    In addition to providing disaster assistance, PKEMRA laid the 
foundation for FEMA to provide those affected by disaster with 
additional funding through the Hazard Mitigation Grant Program (HMGP), 
which provides grants to States and local governments to implement 
long-term hazard mitigation measures after a major disaster 
declaration. Prior to PKEMRA, the total amount of HMGP money allocated 
to disaster-affected areas was determined by calculating 7.5 percent of 
total disaster grants whose sum was less than or equal to $2 billion. 
PKEMRA amended the Stafford Act to allow HMGP funding to total 15 
percent of total disaster grants for disasters $2 billion and under. 
The practical application of this modification means the communities 
and individuals affected by Hurricane Isaac may receive twice as much 
financial support through this grant program following the disaster.
    While significant resources have supported response and recovery 
throughout Hurricane Isaac, FEMA's investments in mitigation in the 
years following Hurricane Katrina undoubtedly saved lives and money 
during this most recent disaster, and will continue to support recovery 
through the coming weeks and months. In the years since Hurricane 
Katrina, FEMA has worked to support preparedness efforts in the gulf 
coast and across the Nation through programs like the HMGP and the 
Homeland Security Grant Program (HSGP), which have been strongly 
supported by this committee. In 2007, a $96.9 million HMGP grant, one 
of the largest in history, was provided to elevate homes devastated by 
Hurricanes Katrina and Rita. By 2009, FEMA had provided $23.5 million 
to help all 64 of Louisiana's parishes and 17 other entities create 
detailed hazard mitigation plans, a requirement to qualify for the HMGP 
that only four jurisdictions in Louisiana had satisfied before 
Hurricane Katrina.
    Since fiscal year 2007, the HSGP has provided nearly $315 million 
to the State of Mississippi and more than $428 million to the State of 
Louisiana to fund a range of preparedness activities including 
planning, organization, equipment purchase, training, exercises, and 
management and administration. These activities continue to improve 
resiliency throughout the gulf coast, and contributed significantly to 
successful response and recovery efforts during Hurricane Isaac. As of 
September 19, 2012, FEMA has obligated almost $1.1 billion in Louisiana 
and over $280 million in Mississippi through the HMGP since Hurricane 
Katrina.
    Immediately following Hurricane Isaac, FEMA Hazards Performance 
Analysis (HPA) field staff deployed to support response and recovery 
efforts, and to assess several sites where post-Katrina mitigation 
funding was utilized. Property acquisition sites where homes once stood 
had been converted into green spaces, and although surrounding areas 
suffered flood damage, the green space required no repair. Other sites 
were observed in neighborhoods with a mix of elevated and non-elevated 
houses. All non-elevated houses appeared to have suffered damage, but 
those structures elevated with funding from FEMA's HMGP appeared dry, 
even where flooding depth reached 3 to 4 feet. These observations by 
FEMA HPA staff, though limited, are reflective of the types of life and 
cost savings during Hurricane Isaac that were made possible by 
investments following Hurricane Katrina.
                               conclusion
    As we move forward with response and recovery activities in the 
aftermath of Hurricane Isaac, FEMA continues to collect and analyze 
lessons learned and after-action reports. FEMA personnel are actively 
tracking and assessing the implementation and application of PKEMRA 
legislation throughout Hurricane Isaac, gathering information which 
will be used to further improve disaster management in the future. We 
will continue to improve our response and recovery efforts by making 
use of the enhanced authority granted to FEMA by PKEMRA, and will 
continue to wisely invest in resources and programs that will support 
our citizens and first responders.
    Thank you Chairwoman Landrieu, for providing me this opportunity to 
appear before you today to discuss preparations that took place in 
advance of Hurricane Isaac, the coordination that occurred throughout 
the storm, and the recovery efforts that remain in-progress. I look 
forward to answering questions you or other members of the committee 
may have.

    Senator Landrieu. Thank you.
    General Peabody.
STATEMENT OF MAJOR GENERAL JOHN W. PEABODY, COMMANDER, 
            MISSISSIPPI VALLEY DIVISION, ARMY CORPS OF 
            ENGINEERS
    General Peabody. Thank you, Madam Chair, Senator Vitter, 
and Congressman Richmond. I appreciate the opportunity to 
testify here today on behalf of the hundreds of COE 
professionals who have not only built the hurricane storm 
damage reproduction system, which you remarked on as 
performance during the storm, but also prepared for, responded 
to, and are continuing to help recover from Hurricane Isaac.
    I am going to make five main points, and I've got a great 
written statement which I was editing last night. But I am 
going to dispense with that, I think.
    The first point I would like to make--maybe six points--is 
that Hurricane Isaac reminded us once again that extreme 
weather events are dangerous and are capable of potentially 
overwhelming, damaging, or destroying the built and the natural 
environments. This is an important reminder that those of us 
who do not experience extreme weather events as often as the 
citizens of the coastal United States, especially Louisiana, 
have in recent years need to be reminded of.
    COE extends our deepest and heartfelt sympathies to all the 
citizens of Louisiana and Mississippi who suffered losses from 
this storm, especially those who lost family members. We had a 
large number of our own New Orleans District employees who 
suffered losses, some of whom continued to man their duty 
positions during the storm.
    To build a little bit on Administrator Fugate's remarks, I 
would generally say that the emergency management and disaster 
response system that COE has developed, which builds on two 
authorities--the Stafford Act, for which we work as FEMA's 
public works and engineer agency, and the Flood Control and 
Coastal Emergency Act--enabled us to respond, in my view, quite 
well to this particular event.
    All of our regions have specific operational plans for the 
types of weather events that could impact them in this region 
that primarily focused on hurricanes, flooding, and to a lesser 
extent, a potential seismic event in New Mandarin. But we 
energized our capacity. We pre-deployed about 11 folks prior to 
landfall and then another 300 COE professionals after landfall. 
And in concert with our contracting professionals and under the 
direction of FEMA, we were able to respond--and in close 
coordination with the State, we were able to respond quickly to 
the disaster. And we also were able to close the system around 
greater New Orleans to prevent the flooding that you remarked 
on, ma'am.
    Third, it is important to continue to emphasize that the 
enormous investment of the Nation in the Hurricane and Storm 
Damage Risk Reduction System (HSDRRS), which to date we have 
obligated $11 billion--we have expended a little more than $10 
billion--worked in this storm. That is a testament to COE's 
intensive scientific research, careful investigation of lessons 
learned from Hurricane Katrina, leveraging a wide number of 
professionals from both inside and outside COE, and the 
Nation's commitment to support executing this program, as well 
as a number of factors which I can address later if you have 
questions, that I think made a significant difference, probably 
the most important of which was we had full appropriations for 
the programmatic cost estimate due to a number of supplements 
that, Madam Chair, you, Senator Vitter, and your colleagues 
passed a couple of years after the storm.
    Fourth, we must always and everywhere continue to 
investigate, research, and learn from each extreme weather 
event. Hurricane Isaac was unexpectedly, for many people, 
damaging. We tend to think of a category system and associate 
the likely damages with that. But because the system was so 
large and so very slow moving, it generated an enormous amount 
of storm surge and rainfall, which created flooding that, I 
think, many of the citizens who were impacted did not expect, 
and I do not think many of us expected.
    COE is committed to going forward to researching the 
impacts from this storm, seeing where we had issues that did 
not work quite like they should have, and improving our 
operations and maintenance capabilities, and our construction 
methodologies to address that.
    Second to last, it is very obvious, you can see from some 
of the photographs up here, that there is quite a contrast 
between the impacts to citizens inside HSDRRS and the impacts 
to many of the citizens in the coastal and Lake Pontchartrain 
areas outside of that system where much of the flooding 
occurred.
    We are not finished with HSDRRS. We have got a few more 
years of work to do, not the least of which is focused on the 
New Orleans to Venice 9-foot levees in Plaquemines Parish, 
where we continue to work diligently to execute this program as 
quickly as possible.
    And I will finish with a couple of notes. Much of coastal 
and southern Louisiana continues to be at risk. COE is working 
very hard on a large number of study authorities. Not advancing 
as quickly as many would like, but we are working to ensure 
that we have confidence in the scientific underpinnings and the 
engineering judgments that will enable policymakers, such as 
yourselves, to make decisions on whether or not to continue 
investing in some of these areas.

                           PREPARED STATEMENT

    So, ma'am, just to conclude, I just want to say COE is very 
proud to serve the citizens across the entire United States. We 
are proud of the partnership we had with our other Federal 
agencies, particularly FEMA, and the States--both States, 
Louisiana and Mississippi, in this event. And I look forward to 
your questions, and thank you for the opportunity.
    [The statement follows:]
          Prepared Statement of Major General John W. Peabody
                            opening remarks
    I am Major General John Peabody, Commanding General of the 
Mississippi Valley Division for the U.S. Army Corps of Engineers 
(Corps), and President of the Mississippi River Commission. On behalf 
of the hundreds of U.S. Army Corps of Engineers professionals who 
prepared for, responded to, and are helping to recover from Hurricane 
Isaac, thank you for the opportunity to testify today.
    As with many natural disasters, Hurricane Isaac brought with it 
forces that overwhelmed elements of the built and natural environments. 
It damaged and in some cases destroyed many engineered structures and 
property, flooded hundreds of homes and businesses, rendered many 
people homeless, and resulted in several deaths. The Corps extends our 
deepest sympathies to all of the citizens suffering losses from 
Hurricane Isaac--several of our own professionals suffered personal 
losses from this storm as well. Along with physical destruction, 
natural disasters also bring out the best in people. There are 
countless stories of heroism and compassion carried out by the citizens 
of Louisiana and Mississippi during this storm. The Corps is proud to 
be part of the communities that make up these States.
    The safety of the public is the Corps' top priority. Every year the 
Corps, as part of the Federal Government's unified response to 
disasters, sends hundreds of experts to respond to disasters at home 
and abroad. The Corps assists the Department of Homeland Security (DHS) 
and the Federal Emergency Management Agency (FEMA) as the primary 
agency with expertise in public works and engineer-related support. As 
part of the National Response Framework, the Corps executes a multitude 
of functions in support of FEMA, including emergency power, commodities 
distribution, debris removal, temporary roofing and temporary housing, 
infrastructure assessment, inundation mapping, and technical 
assistance, among others. The Corps has dozens of Planning and Response 
Teams (PRTs) trained and ready to deploy in advance of and in response 
to natural disasters. For Hurricane Isaac, we deployed over 100 pre-
positioned professionals from across the Nation ahead of Isaac's 
landfall and ready for a rapid response, and then deployed over 300 
more in the immediate aftermath of the storm. The Corps received 40 
mission assignments from FEMA totaling over $20 million. Although we 
did not need to execute the full capability of these mission 
assignments for this event, we were ready for a much more robust 
response requirement. For example, although we installed 9 generators 
to provide temporary power in Louisiana, we had nearly 160 generators 
deployed to Baton Rouge prepared and ready to be sent throughout the 
State, along with six dozen contractors and 20 prime power soldiers, 
and we conducted power assessments at two dozen critical facilities in 
Louisiana which will help the State better prepare for future events.
    Each region and district in the Corps has standard operational 
plans prepared, updated and rehearsed on an annual basis for the kinds 
of disasters expected in the region. In the case of the Mississippi 
Valley Division, our primary response plans relate to hurricanes, 
floods, and a New Madrid Seismic Zone event. Our hurricane response 
plans are updated each winter based on the lessons from the most recent 
hurricane events as well as changed conditions on the ground. Our plans 
include the mobilization of up to three district command teams to 
provide robust senior leader support to the States of Mississippi 
(Vicksburg District) and Louisiana (Memphis District), and an 
Unwatering Task Force (Rock Island District) if needed, as well as 
general support from the other districts. Elements from all three of 
these commands were mobilized and deployed for this event in addition 
to seven PRTs, and dozens of augmentation personnel. As the affected 
district, the New Orleans District commander and his staff focus on 
executing actions in collaboration with State, parish, and local levee 
board officials to prepare the Hurricane and Storm Damage Risk 
Reduction System (HSDRRS) for storm surge, as well as the civil works 
structures and operating elements (locks and dams, operating vessels, 
etc.) that is within the district's jurisdiction. The Corps has the 
capability to mass its full resources and energy on any disaster, if 
required. In the case of Hurricane Isaac, the Mississippi Valley 
Division executed our operational plan, with some variations for 
potential unwatering and other requirements.
    In addition to disaster response in support of FEMA, the Corps has 
inherent authorities under Public Law 84-99, Flood Control and Coastal 
Emergencies, to provide technical assistance to non-Federal 
authorities, to provide flood fighting assistance, and to rehabilitate 
projects in the Public Law 84-99 program following a natural disaster. 
During Hurricane Isaac, the Corps responded to mud slides on 
Mississippi's Lake Tangipahoa Dam by sending geotechnical and dam 
safety experts to make assessments and provide technical assistance to 
the State for consideration in its decisionmaking process, as well as 
developing and providing inundation maps to downstream areas in both 
Mississippi and Louisiana. We also provided unwatering advice and 
assistance to include pumps to the Lake Tangipahoa Dam as well as 
Plaquemines Parish to unwater the Braithwaite polder, which was flooded 
after non-Federal levees were overtopped by the 10- to 14-foot storm 
surge. We are currently assessing damages from Hurricane Isaac.
      hurricane preparedness improvements since hurricane katrina
    Following Hurricane Katrina, the Corps has diligently prepared for 
the day that another hurricane would threaten the greater New Orleans 
area. Because of the work on the HSDRRS since then, the greater New 
Orleans area has a much greater reduced risk of flooding from hurricane 
surges now than it has had at any other time in history. Our experience 
from Hurricane Isaac bore this out. Along with our Federal, State, and 
local partners, the Corps strengthened and improved nearly 133 miles of 
levees, floodwalls, gated structures, and pump stations, forming the 
new greater New Orleans perimeter system. Construction of surge 
barriers at Lake Borgne, Seabrook, the New Orleans Outfall Canals and 
the West Closure Complex have pushed the line of defense outside of the 
city and removed about 68 miles of interior levees and floodwalls from 
exposure to storm surges. We also have improved internal drainage 
conveyances with pump stations under Southeastern Louisiana (SELA)--
integrated HSDRRS perimeter and internal works. Much of the work 
planned for this element of the system continues.
    It is important to emphasize that the Corps has not have 
accomplished this work on its own. This was absolutely a complete team 
effort, with full engagement by Federal and State authorities, local 
governments, levee authorities, levee boards, academia, industry, non-
governmental organizations, peer reviewers, and other stakeholders. We 
have been able to accomplish this in a short time span by sharing 
responsibility and working collaboratively with the single focus to 
complete the HSDRRS. The Corps and its partners were enabled by a 
number of key factors. After Hurricane Katrina, the Corps received 
$14.6 billion for work on the HSDRRS. By the beginning of the 2011 
hurricane season, the Corps was able to provide 100-year protection to 
the city of New Orleans. The Army is now focused on completing work on 
other components of the HSDRRS. In addition, the Council on 
Environmental Quality authorized alternative environmental arrangements 
for major elements of the greater New Orleans HSDRRS, to comply with 
NEPA while the system was under construction. We also applied 
innovative acquisition approaches on a large scale to deliver the work 
efficiently and effectively, and our non-Federal partners delivered the 
real estate requirements to sustain aggressive execution. In short, the 
greater New Orleans HSDRRS was executed efficiently and functioned 
effectively during Hurricane Isaac because the Corps was able to 
leverage the capabilities and knowledge of the full panoply of experts, 
stakeholders, and authorities at every level.
    The HSDRRS was developed by rigorous application of cutting edge 
scientific knowledge of storm impacts, and the concepts of engineered 
structural redundancy, and resiliency. The known impacts from Hurricane 
Isaac make clear, however, that while the greater New Orleans area has 
achieved substantial hurricane storm risk reduction, much of coastal 
Louisiana remains at risk. The contributions made by southern Louisiana 
to the Nation's economy are significant, as are its ecological 
resources. The Corps has many responsibilities to manage aspects of the 
Nation's water resources in this region. Situated at the confluence 
between the Mississippi River watershed and the Gulf of Mexico, coastal 
Louisiana is home to one of the largest port complexes in the world, is 
the top producer of domestic oil, and is the top fisheries producer in 
the lower 48 States.
    Managing flood risk is a shared responsibility between all levels 
of government--Federal, State, and local--as well as the people at 
risk. Managing risk should include all methods of risk reduction: land 
use zoning; building codes; flood insurance; evacuation plans; 
ecosystem restoration and resiliency, and structural measures. The 
methodology for managing these storms must be multiple lines of 
defense--all of the things I mentioned, as well as barrier island 
creation, creation or restoration of marsh and swamp land--things that 
can be accomplished to lessen the impacts of these storms before they 
arrive at the doorsteps.
    The Corps' primary role in flood risk reduction is to evaluate 
alternative approaches to reduce flood risk by performing feasibility 
studies and to make investment recommendations related to three factors 
associated with any potential project: whether it is technically 
feasible, environmentally acceptable and economically justified. The 
Corps must evaluate projects based upon sound engineering and science, 
and in accordance with law and established regulations including our 
principles and guidelines. In an effort to improve our performance, the 
Corps has begun an effort to transform our Civil Works program to 
adjust to the fiscal and infrastructure realities we face today.
    Part of that effort includes a transition toward a new planning 
paradigm with the intent of executing feasibility studies in less time, 
at less cost, and with greater confidence in the outcome. The 
transformation of the Corps' Civil Works program ranks at the top of 
the Corps' current strategic priorities, and reforming our planning 
program is one of the key aspects of that effort. In a constrained 
fiscal environment, the Corps' priorities are based upon performance of 
the project in comparison to other projects, with the goal of 
recommending those projects that return the highest benefit for the 
investment to the Nation. To achieve this, the Corps is conducting more 
rigorous analysis to ensure that the ``future without project 
conditions'' are accurately portrayed, and that project benefits are 
accurately captured. This will result in an increased confidence in the 
Corps' judgments related to projects' technical feasibility, 
environmental acceptability, and economic justification.
             hsdrrs preparations, rehearsals, and execution
    Since 2006, the Corps has improved how it does business not only in 
design and construction of the HSDRRS, but in our operational and 
contingency planning for HSDRRS closure. The New Orleans District 
conducts annual structural assessments of the HSDRRS in partnership 
with Federal, State, and local leaders. We have been open and 
transparent every step of the way--for example, since the start of 
construction we have published a HSDRRS map each June that provides a 
snapshot of construction status, and where we focused efforts to effect 
interim and permanent feature closures. We have shared this strategic 
communication tool at public meetings and engagements, as well as with 
elected leaders through meetings and briefings.
    Prior to the start of each hurricane season, the New Orleans 
District tests the operation of all major structures and conducts 
tabletop exercises centered on a variety of hypothetical storms. The 
purpose is to exercise our planned command and control procedures, as 
well as our technical steps for responding to a storm event, to test 
the procedures for closing and re-opening major structures, and to 
exercise collaborative partnership efforts among Federal, State, and 
local agencies. Major partners including the U.S. Coast Guard, Coastal 
Protection and Restoration Authority Board, New Orleans Sewerage and 
Water Board, the Jefferson Parish Drainage Department, the Governor's 
Office of Homeland Security and Emergency Preparedness, the Southeast 
Louisiana Flood Protection Authorities and the Louisiana Department of 
Transportation and Development all participate in the Corps' extensive 
planning process to ensure the successful overall operation of the 
HSDRRS.
    Cultivating and maintaining partnerships within States, parishes, 
cities, and neighborhoods, as well as communicating the importance of 
shared responsibility for risk has been one of the strategic objectives 
in Louisiana and the Nation since Hurricane Katrina. To that end, we 
have conducted more than 500 public meetings and engagements in 
Louisiana to facilitate an open dialogue about the HSDRRS and risk; 
held regular meetings with Federal, State, and local partners; 
established a hotline to convey up-to-date construction impacts for 
open and transparent communication; and implemented social media 
channels, among many other efforts.
    Another critical measure has been the cross agency and industry 
planning to ensure that risk from water borne vessels is mitigated and 
that U.S. Coast Guard Regulated Navigation Area (RNA) roles and 
responsibilities are clearly defined in advance of the start of each 
hurricane season. This is particularly important for the Inner Harbor 
Navigation Canal--Gulf Inter-Coastal Waterway detention basin and the 
Harvey-Algiers Detention basin. The U.S. Coast Guard, Corps, local 
levee districts, and navigation industry stakeholders meet regularly to 
review the RNA, which is necessary to ensure all vessels therein have 
approved mooring plans to reduce the threat posed by the possibility of 
break-away vessels. Finally, lessons learned from post event 
assessments and after action reviews have been implemented to improve 
emergency operations planning and seamless coordination with our 
partners.
                   performance during hurricane isaac
    All of our efforts since Hurricane Katrina to plan, design, 
construct, and utilize the HSDRSS prior to each hurricane season 
resulted in the system essentially performing as anticipated during 
Hurricane Isaac. While the overall system performed as designed, that 
performance was not without its challenges. For example, the massive 
temporary pumps at the outfall canals along the south shore of Lake 
Pontchartrain are performing well beyond the time they were intended to 
be there. All pumps are machines that can break, just like cars and air 
conditioners. During Hurricane Isaac, we had 5 of 43 total pumps that 
we could not start at the 17th Street Interim Closure Structure from 
inside the control structure. The New Orleans District professionals 
were prepared for just such a contingency, with crews on site. Those 
crews braved the hurricane force winds and started those pumps 
manually, one of whom had his family and home flooded in Laplace while 
he executed his duty. Unfortunately, we had one pump fail to operate 
properly, resulting in the flooding of four homes in a neighborhood in 
Oakville inside of the HSDRRS. The cause of that incident is still 
being investigated.
    In the aftermath of Hurricane Katrina, the New Orleans District 
instituted procedures for repeatedly rehearsing its established 
response to hurricanes prior to the beginning of each hurricane season. 
This ensures that the New Orleans District will be ready to respond 
quickly to such an event. The New Orleans District validated closure 
plans through desk top exercises, rehearsed structure closures and 
documentation of notifications in Louisiana's Levee Information 
Management System (LIMS) reporting system, and developed contingency 
plans to respond to possible issues to assist the New Orleans Sewerage 
and Water Board and Jefferson Parish Drainage Department. Already 
storm-proofed pump stations and those undergoing storm proofing proved 
their worth during Hurricane Isaac.
    One of the keys to success was the use of the Local Government 
Liaisons (LGLs). These are Corps personnel that the New Orleans 
District deploys to, and embeds with, parish and levee authorities. 
Whenever local parish officials had a problem, their embedded LGLs got 
an answer within minutes. We prepared our contractors to close their 
construction gaps on time. We used our own in-house labor to effect 
transportation system closures on Highways 23 and 90 at the advent of 
tropical storm winds. We capitalized on lessons learned from previous 
hurricanes and the spring 2011 flood to work effectively with the 
Governor's Office of Homeland Security and Emergency Preparedness 
(GOHSEP). In anticipation that the major effects from this storm would 
hit Louisiana, I personally displaced to Baton Rouge ahead of landfall 
and set up a forward command post at GOHSEP, effectively embedding 
myself and several of our staff as another Corps link for the Governor 
and his staff.
    During Hurricane Isaac, the Corps shared its projected storm surge 
hydrographs for the East Bank and West Bank of Plaquemines Parish from 
our Advanced Circulation Model. The local parish leaders used these 
storm surge model forecasts to inform their decisionmaking related to 
parish actions.
                         post-isaac assessment
    Hurricane Isaac's impact to the coastal Louisiana area, including 
the greater New Orleans region and surrounding communities, was 
considerable. While the HSDRRS prevented the storm surge from 
inundating the areas on the protected side of the system, significant 
flooding from storm surge and rainfall occurred in areas outside of the 
Federal levee systems including Slidell, Mandeville, Madisonville, 
LaPlace, Braithwaite, Lafitte, and other locations.
    The Corps bases its decisions, designs, and construction on the 
best science and engineering available. Prior to the start of 
construction for the HSDRRS, the Corps conducted extensive surge 
modeling and analysis that indicated minimal to no flooding impacts to 
communities or areas outside of the system as a result of the HSDRRS. 
Hurricane Isaac was a large, slow-moving storm with a considerable 
amount of surge and rainfall that appear to have been the primary 
variables driving the flooding witnessed from this storm. Nonetheless, 
some have speculated that the HSDRRS caused unintended induced flooding 
to areas outside the system as a result of Hurricane Isaac. 
Congressional leaders, local and State officials have requested a 
comprehensive analysis to identify the effects that the HSDRRS had 
during Hurricane Isaac on the areas outside of the system.
    The Corps has already begun this analysis. Engineers and scientists 
from the Mississippi Valley Division, Engineering Research and 
Development Center, the New Orleans District and the National Weather 
Service will participate in the effort. My guidance to the modeling 
team is to model the specific meteorological characteristics of 
Hurricane Isaac; conduct a comparative analysis to high water data that 
we collect through USGS; validate the 100-year elevations pre- and 
post-HSDRRS; conduct an Independent External Peer Review consistent 
with the Water Resources Development Act of 2007 through the Louisiana 
Water Resources Council; engage the State of Louisiana and Water 
Institute of the Gulf to participate in a simultaneous review; and 
finally to ensure that the National Weather Service characterization of 
the storm is included in our modeling parameters. The findings from 
this analysis will be released to the public once the appropriate 
internal quality assurance reviews have taken place, after which it 
will be subjected to independent external peer review.
    Following the initial evaluations, a second phase involving 
detailed hydrodynamic modeling of specific areas impacted by Isaac will 
be conducted over a period of several months. The Corps will use the 
information obtained during this modeling effort to further improve our 
emergency planning and preparations for the next tropical weather event 
to hit this region.
                            closing remarks
    This concludes my testimony. The Corps is proud to serve the people 
of the United States and the gulf coastal region. Thank you for the 
opportunity to testify and I look forward to your questions.

                        WATERWAY DEBRIS REMOVAL

    Senator Landrieu. Thank you. We will have our first round. 
First to you, Mr. Fugate, and please try to be as brief as you 
can because we really have a substantial number of questions.
    The first question is on the waterway debris removal, which 
is a real problem for some of our local entities. As you know, 
we are surrounded by bayous, rivers, lakes, et cetera. At least 
four different Federal agencies have jurisdiction over water 
debris removal--FEMA, COE, Coast Guard, Natural Resources 
Conservation Service at the Department of Agriculture.
    There is no uniform Federal procedure to determine 
responsibilities for water debris removal. Therefore, parishes 
might have to follow different rules, et cetera. In addition, 
bureaucratic tangles in agencies: different types of debris 
trigger types of rules. Sunken vessels must be treated 
different than vegetation or silt. It is a patchwork, it is a 
cluster, and it is a headache for those of us that live through 
these hurricanes season after season.
    Please describe what you are doing to coordinate this, and 
how the Debris Task Force is operating, and what hope can you 
give to our parish presidents that this is going to be 
improved?
    Mr. Fugate. Hopefully it has been improved, this response, 
based upon work we have done with the States and the other 
agencies. It is, as you point out, because of the different 
funding authorities and because of the structure of committees, 
differing authorities to different Federal agencies have that 
overlap.
    There is no single agency, so our job is to make sure that 
we coordinate among the agencies as much as possible to reduce 
the----
    Senator Landrieu. Would it be possible after each storm to 
designate at least a lead coordinating agency for debris 
removal instead of having these parishes go from agency to 
agency, whether it is a limb, or a plastic bag, or a sunken 
barge?
    Mr. Fugate. It would be possible as long as we still have 
to deal with each Federal agency's different requirements and 
authorities that each has. But I will take the recommendation 
and look at what we are currently doing with the State. I know 
that one of the challenges that we have had working with GOSHEP 
is to make sure that it is Federal agencies we----

                            CASE MANAGEMENT

    Senator Landrieu. Well, we are going to pursue that because 
this was a nightmare after Hurricanes Katrina, Rita, Gustav, 
and Ike, and we will hear from the parish presidents. I think 
it still is a nightmare. We have got to find a better way 
forward.
    Second, case managers help to connect disaster affected 
families with resources like employment assistance, temporary 
housing, and food. We found this to be one of the key lessons 
after Hurricane Katrina, just delivering individual stovepipe 
assistance to families without having a case manager 
coordinating it didn't work. So the job people find you a job 
in Orleans Parish, but the housing people find you a house in 
east Feliciana Parish. It does not necessarily work.
    So the case management came in to being for the first time 
in large measure after Hurricane Katrina because we realized 
you have got to deal with the family unit together and not 
individually. So the wife and husband can get their jobs back 
in the same area. The kids can figure out schools, et cetera.
    Since we authorized Federal support for case managers after 
Hurricane Katrina, FEMA has entered into an interagency 
agreement with the Administration of Children and Families 
(ACF) through a contract with Catholic Charities. When 
Hurricane Isaac hit, local case managers deployed, but FEMA and 
ACF did not activate their contract with Catholic Charities. 
Can you tell me why?
    Mr. Fugate. Working with the State, it was determined to 
utilize the State capabilities to do the case management. Many 
of the elements of case management were being done through 
enhancements we made in our community relations and our 
national processing centers (NPCs). And we are currently in the 
State on implementing its case management grant to be able to 
fund those services.
    Senator Landrieu. Well, we are going to look into how the 
State did their case management and hear from the parish 
presidents whether that is working or not or whether they would 
prefer to have the Catholic Charities contract, which I think 
many of them are familiar with some of the nonprofits and the 
faith-based organizations. And we are going to look into that.
    Let me ask you, General Peabody. COE has agreed--Senator 
Vitter and I both asked, and he initiated it, and I supported 
his request--for an independent review of the impact of the New 
Orleans Metropolitan Area Flood Protection System on the 
communities that were left out, obviously the ones that you can 
see suffering on these charts.
    When do you expect that this report will be completed and 
released to the public? Can you provide any detail up to this 
point regarding your initial storm surge modeling that was done 
by COE prior to the system's construction and the impact that 
it had on the outlying areas?
    General Peabody. Yes, Senator. That modeling is ongoing. We 
put together a team that includes professionals from the 
National Weather Service. In fact, the director of the National 
Hurricane Center visited here last week.
    Senator Landrieu. And when is that going to be complete?
    General Peabody. We expect our internal modeling to be 
complete by mid-October. It will probably take us about 2 weeks 
to do a quality assurance review, after which time in probably 
early November we will publish the results. That would be 
probably the latest. Then we will put it forward to independent 
external peer review, which will take several months, and that 
is a timeline that is controlled by the independent reviewers.
    Senator Landrieu. And what details can you provide about 
the initial storm surge modeling that you did before this 
system was built and its impacts to outlying areas?
    General Peabody. Yes, ma'am. We did extensive modeling of 
152 storm tracks, literally thousands of variations on those 
storms. And what that told us was that there would be very 
minor induced flooding, but on the order of magnitude of one-
tenth of a foot, maybe 2, 3, or 4 inches at the most.
    However, the Hurricane Isaac storm track and pace was not 
one of the track and paces that was modeled. So while we do not 
believe it is likely that we are going to see significant 
induced flooding from HSDRRS as a result of Hurricane Isaac, 
that possibility can work, and so we are taking an open mind in 
looking at this objectively to see what our modeling shows us.
    Senator Landrieu. This community is very interested in that 
study.
    Senator Vitter. We will do a second round of questions as 
well. Go ahead.
    Senator Vitter. Great. Thank you, Madam Chair, for hosting 
this hearing. Very much appreciate it. Thanks to all of our 
witnesses, first, for being here and, second, and more 
importantly, for all of your work through Hurricane Isaac. We 
all appreciate it.
    I wanted to focus in my questions on the hurricane and 
flood protection issues since those are really paramount in a 
lot of our minds who live in the area, and also since I serve 
on the relevant COE subcommittee as the top ranking Republican.
    General, let me go right to that and build on Senator 
Landrieu's question. I just want to confirm publicly, you all 
are doing an immediate analysis modeling of the Hurricane Isaac 
event, which was not done in terms of these other models prior 
to the building of the system. Is that correct?
    General Peabody. Yes, sir, that is correct.
    Senator Vitter. Okay. And also pursuant to my specific 
request, that will be completely peer-reviewed by outside 
independent experts.
    General Peabody. Yes, sir, through the Louisiana Water 
Resource Council, I believe.
    Senator Vitter. Okay. That council was created in the last 
water bill. I drafted the language. And it is completely 
outside and independent, but they do this work for COE. And so 
you all do have some control of their schedule. Can you nail 
down with them what their schedule will be, because we do not 
want a year-long peer review. We want a month peer review with 
some immediate usable conclusions.
    General Peabody. Yes, sir. Senator, we will be happy to 
convey to them the urgency of the information, but because it 
is an independent, to use the term--verb ``control,'' I think 
is an overstatement. I think we probably have some influence. 
We will try to ask them to go as quickly as possible.
    Senator Vitter. I will do this as well. If you can 
specifically ask them for a deadline and communicate that to 
me, that would be great.
    General Peabody. We will make that request, sir.
    Senator Vitter. And just so that you all know, we have also 
asked the Water Institute of the Gulf, Dr. Charles Groat--the 
State has participated in that as well--to do a completely 
separate review of the same issue. I think it is very important 
to understand what happened during Hurricane Isaac, why did it 
happen, what, if any, any impact did the post-Hurricane Katrina 
system have on that flooding.
    General Peabody. We agree, Senator, yeah. The more sharp 
minds we can get looking at this, the better and more 
confidence we will have in our judgments. And Dr. Groat 
contacted me personally. I was grateful for his offer of 
assistance. He has team members who are embedded with us, and 
then they can do whatever they want with that information going 
forward.
    Senator Vitter. Right. And, General, the good news is, we 
have said, that the post-Hurricane Katrina work performed as 
designed.
    General Peabody. Right.
    Senator Vitter. The bad news, as we have also said, is that 
there was major, in some cases, catastrophic and unprecedented 
flooding outside that core system. And what is particularly 
disheartening about that, as you know, is that these are not 
areas we simply never talked about protecting. Most or all of 
these are areas with COE projects on the books that have taken 
forever and dragged on forever, and/or been canceled since the 
post-Hurricane Katrina work has been completed. And that is 
more frustrating. That is really maddening for those of us who 
live in the area.
    I want to talk about five specific areas outside the 
system. Number one, and this is actually related to the system, 
Plaquemines and lower Plaquemines, and the New Orleans to 
Venice project.
    Because prices and costs rose post-Hurricane Katrina, the 
original 34 miles of that protection was reduced to 20 because 
basically costs went up. First, did COE ever ask the Congress 
for the additional money needed to complete all 34 miles, which 
was what was envisioned in the post-Hurricane Katrina 
appropriation bills?
    General Peabody. Senator, I am not aware of any requests by 
the administration to the Congress for that purpose. But I will 
have to take it for the record to be sure.
    Senator Vitter. Okay. The answer is no, and the obvious 
question is why not. The post-Hurricane Katrina appropriation 
bills talked about those 34 miles. Costs went up, and COE cut 
it to 20 with a big gap in the middle, and never even 
identified the price to do all of the work. Second, to deal 
with the costs going up in July 2011, COE itself hosted a 3-day 
project delivery summit with stakeholders. The outcome of that 
summit was, okay, we think it is better to build 50-year 
protection for all 34 miles and have that as a basis to build 
on for the future.
    And that was the outcome of the COE-hosted summit. Yet 
nonetheless, 5 days before that was to be presented to your 
superiors in Washington, General Walsh unilaterally said, I do 
not care what you are talking about. We are doing the 
heightened post-Hurricane Katrina standards 20 miles only with 
a big gap in the middle.
    Why was that decision made in Washington, and will it be 
reviewed now to consider the product of that July 2011 summit?
    General Peabody. Senator, Parish President Nungesser from 
Plaquemines sent Colonel Fleming a letter on this specific 
issue, I believe, last week, and Colonel Fleming shared that 
letter with me.
    As a result of discussions that Colonel Fleming and I had, 
I have decided that I am going to review that precise issue. 
And let me be clear on a couple of things.
    First, there are two aspects to this. One is level of 
protection, which generally equates to a probabilistic flood 
event. In the case of Plaquemines Parish, we are building to a 
2 percent, or what is commonly called a 50-year level of 
protection standard. The thing that drove the cost estimate up 
was the application of the HSDRRS Design Guidelines without any 
consideration for variations to the Plaquemines Parish levees.
    Now what I intend to do is take a very detailed look at 
exactly what came out of that 3-day summit, and then 
potentially, depending upon a site-specific risked-based 
analysis, potentially make modifications or alterations to 
those design guidelines for application to the New Orleans to 
Venice/non-Federal levees area, because the legislation is very 
clear that the primary purpose is to preserve Highway 23 as an 
evacuation route. And our current approach does not accomplish 
that.
    What I cannot predict at this stage, Senator, is how long 
this is going to take. I do not think it will take too long, 
maybe 1 month or 2. And I cannot predict what the exact outcome 
will be. But I can commit to you that I am going to take a very 
hard look at this with the effort to try to find a way to 
deliver that system for the entire length of the authorized 
project for the Highway 23 reach. And we will take a look at 
it, and then we will let you know once we have done our 
analysis, as well as Mr. Nungesser and others, what we plan to 
do.
    Senator Vitter. Right. I will save the rest for my second 
round. But I urge you to do that re-look. That is very similar 
to the re-look we met about and discussed regarding Morganza.
    General Peabody. Exactly, that same principle.
    Senator Vitter. We have to do it to build some protection, 
not to have some perfect model that stays on paper and is never 
built.
    General Peabody. Senator, if I could just say one last 
thing. I think a certain amount of flexibility on the details 
of the application guidelines is an important principle. But 
the general principles of the design guidelines are also very 
important. And so I would not make any recommendations to 
change the principles behind the design guidelines. It is the 
application of the design guidelines I think that we need to 
look, as John Bostick discussed with you.

                            REGIONAL OFFICES

    Representative Richmond. Thank you, Senator Landrieu, and 
thank you, Senator Vitter.
    I will start with Administrator Fugate. And first let me 
just thank you for your effort and your work during the storm, 
and your willingness to partner and your willingness to not 
only listen, but to coordinate and cooperate with local 
agencies. And I know that when the President was here, in 
private when we met, everyone applauded your effort and the 
President's efforts. So I wanted to say it publicly because so 
often we do not say it publicly when people are working very 
well and diligently. Do we have lessons to learn? Absolutely. 
But it is very refreshing coming from Hurricane Katrina to 
today with the level of cooperation that we have and the 
sincerity of the effort.
    Let me just start with an easy one, and I know that we are 
wrapping the presence of our FEMA office in the area. Are we 
changing or delaying that now that we have another event that 
we are going to have to continue to have a large response to?
    Mr. Fugate. No.
    Representative Richmond. So we are still closing that 
office?
    Mr. Fugate. It will be phased down as the work is completed 
with Hurricane Katrina.
    Representative Richmond. What will we do then for Hurricane 
Isaac? Will we set up another one? Are we transitioning?
    Mr. Fugate. Hopefully, we will not be here that long. One 
of our goals is to speedily right--and I think this is 
something listening to the parish presidents specifically. We 
want to get the debris and protective measures written and paid 
over the next couple of months, not next couple of years. And 
then we will work the permanent repairs and the mitigation 
through the regional office.
    We will maintain a presence here with GOHSEP and the 
parishes as we get through those projects. But rather than 
creating a separate entity to manage Hurricane Isaac, we are 
going to use our regional structure and regional capabilities 
to manage it.
    Again, Hurricane Katrina was extraordinary in its size. 
That work needs to continue. What we do not want to do is take 
away focus on the continued recovery efforts in Hurricanes 
Katrina, Gustav, and Ike. So we want to manage Hurricane Isaac 
as part of the regional structure and complete it as quickly as 
possible while continuing to be focused on post-Hurricane 
Katrina recovery.

                            RECOVERY EFFORT

    Representative Richmond. One of the frustrations that I 
watched in post-Hurricane Katrina, and I would hope that we do 
not duplicate here, and I will just give you an example of the 
police station around the corner from my house, which was 3,000 
square feet. If I can come in as a private citizen and get my 
house back in order and fixed, it does not make sense to me 
that it takes the Government or the city 3 years to do that 
police station.
    And when you really drill down into the slowdown, it is 
because there is this big fight over the 50-percent designation 
or 50-plus-1 designation where FEMA will come in and pay 
replacement costs as opposed to fixing it. When you have that 
sort of probably internal conflict, in my opinion, it makes 
sense to continue to fight for 50-plus-1. But at the same time, 
you hold the community hostage, and progress is delayed.
    So have we looked at addressing that or figuring out a way 
that we can somehow move forward with construction or repair in 
the process while the fight goes on? Thankfully, Senator 
Landrieu and our delegation inserted the language for 
arbitration into the recovery bill. But we just cannot have the 
fight over the 50-plus-1 designation.
    Mr. Fugate. Unfortunately, I have a fiduciary 
responsibility to make that case. Fifty-one percent should not 
be an argument. It should be what exists and what we find. And 
I think that is part of the process, as Senator Landrieu as 
chairwoman has told us many times. We need to be clear on what 
the program is so everybody understands the ground rules and we 
do not change them in process.
    So it should not be a debate about what is 51 percent. It 
should be if there is more than 51-percent damages, it makes 
sense to replace the structure. When it is less than 51 
percent, it is going to be cost-effective to replace that 
structure, to repair that structure, and mitigate it.
    So we continue that balance. But the worse thing we can do 
is to speed this process up to the point of haste and only find 
ourselves with the inspector general coming in and begin de-
obligating funds because we could not demonstrate that the 
structure was damaged to the point that it was more cost-
effective to replace than repair.
    So my goal in working the State and parishes is to get to 
the correct answer. What is eligible is eligible, and get 
construction going whether it is repair or replacement.
    Representative Richmond. And I would like to work with you 
to see if we cannot somehow find a way to make sure that, one, 
it is accurate, but, two, make sure that we do not paralyze the 
recovery effort in the process.
    Mr. Fugate. And that I do agree. Oftentimes when FEMA could 
not get to a yes, we were prevented because we could not 
support it. And if we had, it would have been overturned. We 
have not always been forthcoming in saying we cannot do that. 
We oftentimes have delayed and asked for more information and 
hope that we will get a better answer.
    As I talk to many of the parish presidents, I say, ``Let me 
be honest with you. If the answer is no, I need to tell you no 
on the front end, not delay that answer and hope it gets 
better. And if the answer is yes, get to it definitely, and if 
it is maybe, let us find the right answer.'' But we want to be 
speedy, not hasty. As we have seen, and as many of the parishes 
are dealing with post-Hurricane Katrina issues, we have the 
inspector general coming in and finding that original decisions 
were not correct, asking for money back.
    Our goal is to get it right the first time. I think I heard 
this loud and clear from the chairwoman, and she made it very 
clear to me. She said, ``Craig, no matter what we do, let us 
get it right the first time. Let us not go in 6 months from now 
and start changing the answers.'' So that has been our focus.
    Again, some of this becomes, as we get into insurance and 
other things, very technical. But my commitment to the parishes 
and the States has been, ``Let us get to the answer quickly. 
Let us get resolution and know what the next steps are. And let 
us not just kick the can down the road because I may not like 
the answer I am going to give you, so I am going to delay it. 
If the answer is no, I need to tell you no so you know what the 
next steps are versus to keep any false hope or to merely delay 
saying something you may not want to hear. I need to give you 
what you need to know so you know what the next steps are.''
    Representative Richmond. Senator, I will yield back for the 
second round.
    Senator Landrieu. Thank you. We are going to do a 4-minute 
round real quick because we do have some questions, and we will 
get to the parish presidents in just a moment.
    But General Peabody, I want to say this as respectfully as 
I can. I appreciate your demeanor before this subcommittee. But 
from where I sit, your budget, to me, just looks like a 
disaster waiting to happen. And I know that you are very 
focused on the specific projects that Senator Vitter, and I, 
and the Congressman have raised about the Plaquemines Parish, 
and you can make some adjustments there, and we hope you can.
    But let me just give you an example of why I am not 
sleeping well at night, and I do not know how you are. One, the 
west shore project was first authorized in 1971 in your 
budget--that was 40 years ago, that project is in one of the 
river parishes whom is represented here. There are two other 
projects, but because we could not have all 19 coastal parishes 
testify today, we have four parish presidents, but they are 
representative of dozens.
    This study has been in your budget for 40 years, and it has 
not progressed one iota. Why is that? And why are you not 
concerned about it or seem to be worried about it, or press for 
additional funding to not only complete the study, but start 
building in St. John, St. James, and St. Charles, so this could 
have been avoided?
    General Peabody. Madam Chair, I sleep well at night because 
I think I was born with a special talent I guess.
    Senator Landrieu. Well, we are glad for that.
    General Peabody. It is a gift. But, no, to be very serious, 
and I take your question very seriously, I think the reality of 
the situation--to put this in a larger context is, COE is just 
one very small element of a much larger Federal agency equation 
under which all of our budgets are under pressure given the 
Nation's fiscal challenges.
    Senator Landrieu. But how do you justify--when you appear 
before your superiors, what do you tell them looking in your 
region, which is the Mississippi, about how much funding you 
need, give us that for your testimony today. What is your 
backlog in your region, your authorized backlog today of 
necessary, authorized, and critical infrastructure projects?
    General Peabody. I do not have the precise number for the 
region, but I can tell you nationally our construction--just 
construction--this is not operations and maintenance backlog--
is on the order of $60 billion. So that is significant.
    Senator Landrieu. That is not operation and maintenance.
    General Peabody. No, ma'am, that is construction.
    Senator Landrieu. It is construction backlog. I would like 
for the record of this subcommittee for you to submit your 
region backlog for operations and maintenance.
    General Peabody. Yes, ma'am. We will follow----
    Senator Landrieu. And for construction, because our parish 
presidents are incredulous when I tell them--Senator Vitter is 
on the authorizing committee, he knows this. I am on the 
Appropriations Committee. Yes, we can help get your project 
authorized. But any indication that we could actually get it 
built any time soon, you would have to get behind $40 or $50 
billion of other projects.
    This is an unworkable--if it was not so sad it would be a 
laughable budget, but it is nothing to laugh about. And I do 
not under what system--do you not report this to the superiors? 
Do you not say this is our backlog? Do you not say, okay, our 
plan is to get 10 percent a year until we catch up? Because it 
looks like to us what COE does is simply ignore the pain and 
suffering around the country, and your budget reflects that. 
Neither your superiors or the President's budget reflect the 
need--it is not just this President, but former Presidents.
    And once Hurricane Katrina came along, our delegation had 
to wrestle $14 billion out of the Army Corps of Engineers. I 
think the country was so ashamed, they gave it to us. It was an 
anomaly, extremely unusual, and probably unprecedented, and may 
not be able to ever happen again. But that is the kind of 
determination and action is necessary, not just after Hurricane 
Katrina, but day in and day out in Washington. There does not 
seem to be any sense of urgency about this.
    General Peabody. The reality is that our budget cap is set. 
It is then--when we send our budget proposals up to the higher 
headquarters, we start with a 75-percent baseline from the year 
prior, and then----
    Senator Landrieu. That is your mistake. That is your 
mistake, and that has to be changed. You have to send your 
total requirements for the Nation. You cannot send 75 percent 
of your former year budget.
    General Peabody. That is the starting point.
    Senator Landrieu. Well, I am going to change that starting 
point because it is not appropriate for your agency, for this 
agency. It may be for transportation. It may be for housing. It 
is wholly inadequate for the people that I represent, and I 
might be able to speak for other people in the country that 
would feel the same way.
    And I do not want to take too much time. Senator Vitter, go 
ahead.
    Senator Vitter. Okay. Thank you. General, let me go back to 
that list of areas hard hit that are not in the post-Hurricane 
Katrina system. And again, the angst and the outright anger 
many of us feel is that there are COE projects. And actually 
during the process of building the post-Hurricane Katrina 
system in a very expedited way.
    These areas outside the system were reassured, oh, we have 
a project for you. We have a project for you. The problem is as 
that core post-Hurricane Katrina system was finished, we went 
back to the core normal, and those other projects either slowed 
to a snail's pace or, in some cases, were outright canceled.
    Let us go back to the west shore and LaPlace, 41 years on 
the books. Still do not have an alignment. What is the schedule 
for a final alignment to move forward with authorization?
    General Peabody. Senator, the schedules depend upon 
appropriations, but we need approximately $1 million to finish 
the study, and 18 to 24 months. So if we got the appropriation, 
we could finish the study. But this particular study, to my 
knowledge, has never received any funding in the President's 
budget. It has all been from congressional ads at various 
points in time.
    Senator Landrieu. It has been outlawed. Go ahead.
    Senator Vitter. Has any action been taken with COE since 
the LaPlace flooding to accelerate or find that $1 million? In 
the grand scheme of things, that is a small amount of money, 
but tight of money. You all move around within the COE budget 
every month of every year.
    General Peabody. Senator, all of our projects, our entire 
backlog competes for the amount of money above the 75-percent 
baseline that all the regions get. So we generally get year 
over year about what we got the year before. Our budgets, as 
you pointed out, Senator Landrieu, however, have been under 
extreme pressure and have been coming down year over year.
    Senator Vitter. Let me move on to the very impacted areas. 
Lower Jefferson. Lower Jefferson is exactly the sort of area I 
am talking about that was promised protection. Oh, do not get 
in the way of this post-Hurricane Katrina work. Let it happen. 
We have a project for you. Then their project was canceled. I 
mean, to those of us here locally, that sort of seems like a 
bait and switch. What do you tell the people of lower Jefferson 
who did not obstruct help for their neighbors to the north, and 
are now left out in the cold?
    General Peabody. Senator, I cannot speak to promises or 
decisions that were made in the past. But I was the decision 
maker on terminating that study. And the reason I made that 
decision was because we looked at several alternatives, and the 
best case scenario was that we could only get to about a .55, I 
believe, benefit-cost ratio.
    So, there is no way that that can compete on economic basis 
with all the other--and we spent $10 million. We could have 
continued to spend money--the taxpayers' money--studying this 
problem. That was clearly never going to meet the policy 
requirements.
    Senator Vitter. For that same area, section 205 projects 
are also available.
    General Peabody. That is correct.
    Senator Vitter. Why can COE not move forward with smaller 
section 205 projects?
    General Peabody. There is a limit in general on those 
projects, Senator, I think, around $5 million or $7 million. 
Yes. And I think it is a matter of having alignments that allow 
to deliver a risk-reduction measure within that available cap.
    Senator Vitter. Okay. The north shore. One great help to 
the north shore, including all the areas that were flooded by 
Hurricane Isaac, would be some sort of surge barrier near the 
Rigolets in the Chef Pass. That is exactly the sort of 
additional project that we were talking about to have COE study 
in the appropriation and authorization language immediately 
post-Hurricane Katrina.
    In my opinion, COE read all meaning out of that language 
and did a very vague analysis so it would come up with no 
actionable items for new projects. Will COE look back at that 
language and look specifically at a surge barrier?
    General Peabody. Senator, I was not aware of that, so I 
will take that on. I will look at that. I will tell you that my 
understanding is that the last time we took a hard look at the 
barrier plan was in the 1984 reevaluation report, where 
concluded that the so-called high-level plan was more 
beneficial. It was less environmentally damaging, and it was 
more acceptable to the public.
    Senator Vitter. I will send you the post-Hurricane Katrina 
language because I think it gets clear, not just the authority, 
but mandates to COE to look at significant additional 
protection like that.
    And finally, I mentioned Morganza to the Gulf. We missed 
another deadline. Now since then we did have a productive 
meeting in my office to try to come up with an actionable plan. 
Could you describe the consensus coming out of that meeting?
    General Peabody. In broad terms, Senator, what the core is 
doing is an economic re-analysis, which we should have complete 
in the next 1 to 1\1/2\ months. And that analysis will take 
into consideration the likely rebuild rates in the event of 
future storms. Once we have that analysis, we will have a 
tentative benefit-cost ratio associated with that. And that 
will inform the specific analysis going forward to complete the 
project.
    The other thing that we committed to doing was to look at 
the design guidelines from HSDRRS. And just like I committed to 
doing with Plaquemines Parish, General Bostick committed that 
we would take a hard risk-based, site-specific look at the 
study area of Morganza to the Gulf. And I would hope that we 
could find ways to reduce some of the costs associated with 
that project and make it more competitive from a fiscal 
stewardship standpoint.
    Senator Vitter. Right.
    Senator Landrieu. And we will make sure that is on the 
agenda, Senator Vitter, for our meeting in a couple of weeks.
    Congressman Richmond.
    Representative Richmond. General Peabody, some of my 
parishes up and down the coast are complaining about the 
Charleston method for mitigation, and the fact that it will 
triple their costs to do their own flood protection, and do 
some of their projects.
    Why can we not grandfather those projects in that were 
before the decision to use the Charleston method? Why can we 
not just allow them to use the formal method to calculate 
mitigation needs?
    General Peabody. Congressman, I am not sure the basis that 
we would have for grandfathering, so I would have to take your 
specifics for the record and maybe follow up with you.
    But I think the bottom line with the modified Charleston 
method, which is really just a name for an approach in 
Louisiana, is that prior to implementing this method, we were 
not following the intent of the law in executing our mitigation 
stewardship requirements--404(c) requirements in Louisiana. And 
so as a result of a very long, 3- or 4-year process of internal 
evaluation, extensive public engagement, the previous and the 
current district commanders, both of them moved forward with 
development of this process.
    Now the average change--before I think the mitigation cost 
ratio was around 1.6. Now it is 2.4. So it has gone up, not 
insignificant, but not enormous. There are some cases where the 
mitigation costs have actually gone down. There are other cases 
where the mitigation costs are even higher than that 2.4 
average.
    Representative Richmond. Well, for especially St. Charles 
Parish, it becomes an issue with some of the things that they 
are trying to do. And what we would like to do is work with you 
all to makes sure that their budget and their plan to do levy 
protection and things to protect their citizens is not 
completely stopped because now the increased costs are just 
cost-prohibitive.
    Let me move on to where Senator Vitter was just talking 
about--and Senator Landrieu, the modeling of the west shore and 
the flood protection are the results of Orleans and if it had 
an impact. I do not understand it. I guess most people I have 
talked to do not understand Government language. If we are 
already doing the modeling to see if the Orleans and Jefferson 
flood structures had an impact on the west shore, and you are 
telling me it is a million dollars to finish the study for west 
shore. Why can we not marry those and do them all together?
    That is the frustrating part for us is really if there is a 
will to do it, there is a way to do it. And we are already 
asking for peer review, and we are already working on a 
modeling. Why can we not somehow combine those?
    General Peabody. Yeah, that is a great question, 
Congressman. I think it boils down to legislative authorities 
and language in those authorities. So when we get an authority 
to do a project, it tends to be very focused very strictly on 
that specific project. So our ability to combine purposes 
across different authorities is, in general, limited and in 
general, not always, but in general we are not able to do it. 
And so that is kind of a systemic issue.
    Representative Richmond. The other thing is you mentioned 
the cost-benefit ratio on a number of things. And at least what 
my understanding is that--Senator Landrieu and I just came 
under fire from the L.A. Times, and we had to take a moment to 
educate them on the importance of south Louisiana to the 
Nation.
    But it appears that we have to do the same with COE in 
terms of the cost-benefit ratio because we have to now argue 
that we should look at the fact that how important we are to 
the country in terms of oil and gas, how important we are in 
terms of seafood, and that the areas we are protecting are the 
same places where the people who go out and catch the fish and 
work on the rigs, where they live.
    And also if you look at this storm in the pictures, 
Interstate 10 was shut down. And if you look at our impact, not 
just the port, but the interstate to the national economy, 
those things, I think, would severely impact a cost-benefit 
ratio when we are talking about whether something is justified 
or not. And that would help us, I think, meet some of those 
needs, and I think it is something that should absolutely be 
considered what Louisiana does contribute to the economy 
looking at the Port of New Orleans, oil and gas, the 
interstate, rail, and all of those things.
    General Peabody. Congressman, I will take your suggestions 
and take a hard look at them, and convey your concerns to the 
higher headquarters.
    Senator Landrieu. Thank you. I am sorry this is going to 
lead us to the end of this round. I do have two additional 
questions. I have several that I am going to submit for the 
record, two I will mention. I want to get your feedback in 
writing, Administrator Fugate, about what States use their 
rainy day funds and disaster funds, and what States are doing a 
good job of budgeting in advance, please submit the answer to 
this question for the record. We are going to have some 
questions to our State about that.
    And then I want to follow up also the mitigation issue and 
the cost-benefit analysis. We are going to send you some 
detailed questions. We need responses.
    General Peabody. Sure.
    [The information is available in the Additional Committee 
Questions for the Record on page 75.]
    Senator Landrieu. What we are operating under now is just 
not practical. And so we are going to have to have some serious 
changes there.
    But thank you all very much, and I know you are going to 
wait around to hear the testimony from our parish presidents. 
Thank you very much, and if the parish presidents, the second 
panel, will come forward: Garrett Graves representing the 
State, Oneil Malbrough representing--do we have enough chairs? 
And if not, we are going to have to seat the parish presidents 
and pull up an extra chair.
    Thank you all very much, and thank you for, of course, your 
patience. I know that you are happy that we are here to be able 
to have this discussion publicly. I want to thank all of you 
for your leadership, the parish presidents, and what you have 
provided for your citizens in the last few weeks.
    I want to thank particularly again Mr. Young, Parish 
President Young, for hosting us here. And why do we not start 
with you, Mr. Young, since we are in your parish?
STATEMENT OF JOHN F. YOUNG, JR., PRESIDENT, JEFFERSON 
            PARISH
    Mr. Young. Thank you, Madam Chair.
    Senator Landrieu. And please limit your remarks to 5 
minutes, and I will be somewhat lenient. But we will do 5 
minutes and then rounds of questions.
    Mr. Young. I will try to do that. Thank you, Madam Chair, 
Senator Vitter, Congressman Richmond. On behalf of the 
Jefferson Parish Council, my colleagues here at the table, and 
myself, I want to thank you for having this hearing in the 
historic city of Gretna, Louisiana, which is the parish seat of 
Jefferson Parish.
    As we all know, the last 7 years have been very trying for 
this entire metropolitan community. We have been through 
Hurricanes Katrina, Rita, Gustav, Ike, the BP oil disaster. Let 
us not forget about Tropical Storm Lee because I would be 
talking about that in 1 minute. Lafitte, Crown Point, and 
Barataria were flooded from Tropical Storm Lee. Yes, a tropical 
storm that set on us for 5 days and, through the southeast 
winds, flooded those communities. And of course, our latest, 
Hurricane Isaac.
    After Hurricane Katrina and the failure of the Federal 
levee system, the Federal Government, through much of your 
efforts, and your colleagues in the Congress, appropriated 
about $14.5 billion to protect us--increase our level of 
protection. Although Hurricane Isaac was not the most robust 
test of that system, the improvements in HSDRRS worked. Those 
areas within the levee protection system did not flood from 
storm surge or tidal surge.
    Our primary threat for those areas within the levee 
protection system, as we anticipated prior to the storm making 
landfall, was excessive rainfall, because I can speak for 
Jefferson and Orleans, our internal drainage system is only 
designed to drain 1 inch the first hour and one-half an inch 
every 1 hour thereafter. So the Southeast Louisiana Urban Flood 
Control (SELA) Program has vastly improved our internal 
drainage system, but continued investment in the SELA Program 
is needed.
    However, those areas outside the levee protection system 
did not fare as well. Areas in several parishes outside the 
levee protection system flooded, many for the first time. We 
have talked about St. John and LaPlace, Plaquemines, 
Braithwaite, St. Tammany, and Slidell. But let us not forget 
that Lafitte, Crown Point, and Barataria have flooded four 
times--four times--within the last 7 years. Lafitte, Crown 
Point, and Barataria were flooded from Hurricanes Rita, Ike, 
Tropical Storm Lee, and now Hurricane Isaac. In fact, Lafitte, 
Crown Point, and Barataria were flooded twice within 1 year 
when you look at Tropical Storm Lee and Hurricane Isaac.
    Many of those citizens down there had just finished 
repairing their homes from the flood damage from Tropical Storm 
Lee, and this was tidal and coastal flooding, not rainfall 
flooding, when Hurricane Isaac hit. Hurricane Isaac, by the 
way, being the worst in 52 years.
    The western enclosure complex was built to protect upper 
Jefferson, and you have mentioned that in your remarks, 
Senators Vitter and Landrieu. And we were promised at that 
time--and Mayor Kerner is here, and he can attest to this--that 
we would have Donaldson built to the gulf to protect Lafitte, 
Crown Point, and Barataria. But that has since been scrapped by 
COE because of a cost-benefit analysis.
    That makes it even more imperative that we find a way to 
protect these communities. In the interim, it would be 
elevation, elevation of homes, and in the long-term ring levees 
in the coastal restoration system with locks and gates.
    I have not mentioned the most famous island in the United 
States as we have talked about, Senator Landrieu, and that is 
Grand Isle, because Grand Isle is in a class all by itself. 
Grand Isle gets hit every time--every time. All of these 
communities were also--I am talking about Lafitte, Crown Point, 
Barataria, and Grand Isle, ground zero for the BP oil disaster.
    Fortunately through your efforts and your colleagues' 
efforts, we have some relief coming in the RESTORE Act in the 
Gold Mesa, and we have a State master plan that I want to give 
credit to Gary Graves and the Governor--a $50 billion master 
plan where we will invest over $1 billion over the next 50 
years.
    But I want to stress that it is time for studies--the time 
for studies is over. We do not have the luxury of time. We are 
literally losing land mass the size of a football field every 
30 minutes.
    We talk about cost-benefit analysis, but here is what I 
want to stress. We need as a Nation to plant our flag in Grand 
Isle, Louisiana, because if we do not do that, the tides and 
waves of the Gulf of Mexico will be literally lapping at the 
door of metropolitan New Orleans in the not too distant future.
    It is not just a State or a local issue, as has already 
been discussed. It is a national issue. We produce 30 to 35 
percent of the oil and natural gas consumed in this country. We 
produce 30 to 35 percent of the domestic fisheries consumed in 
this country. The Barataria Basin is one of the most productive 
estuaries in the world.
    We need to continue to build on the significant level of 
protection achieved since Hurricane Katrina. But we also need 
to take the steps and appropriate the necessary funds to 
protect those areas outside of the levee protection system, and 
I will talk about Jefferson Parish. I am sure my colleagues 
will talk about their particular needs--Lafitte, Crown Point, 
Barataria, and Grand Isle.
    Just as an aside, I thought there would be some--well, 
there are some staff members not from here, and I know Senator 
Landrieu, and Vitter, and Richmond know this. But it is 
interesting to note that Lafitte, the town of Jean Lafitte is 
named after a famous pirate, Jean Lafitte, who hid out on those 
waterways. But one of the things he did was he assisted the 
American troops in the Battle of New Orleans, and to his 
credit, part of the victory was accredited to him. So that 
community is named after Jean Lafitte, the pirate.
    These communities deserve protection. They are part of our 
community. They are part of our country. In all respect, if we 
can rebuild cities in foreign and sometimes hostile countries, 
we need to make them deliver upon a commitment to our fellow 
U.S. citizens and assure them that we will not only rebuild and 
rebuild better, but we also protect them from future events.
    It is also not lost that Hurricane Isaac made landfall 
exactly 7 years to the day after Hurricane Katrina hit, and we 
still have some unresolved Hurricane Katrina issues. Number 
one, forgiveness of about a $55 million special community 
disaster loan, which we have not been successful in obtaining 
despite the efforts of you, Senator Landrieu, you, Senator 
Vitter, Congressman Richmond, and our entire congressional 
delegation. We have been penalized because Jefferson Parish had 
a false economy after the storm, but we helped rebuild the 
entire metropolitan area. There have been events since 
Hurricane Katrina--the storms, the BP oil disaster, the 
sluggish national economy, and now Hurricane Isaac. These 
events, in my humble opinion, merit forgiveness of that 
community disaster loan, and we request that again. I know 
Administrator Fugate is here, and certainly we make that 
request again, and we thank you for your language in the bill. 
And we hope that the Obama administration does not oppose 
moving forward with that language in that bill.
    The other thing that is quite frustrating is we are still 
trying to get reimbursement for improvements that we made as a 
parish with our own money post-Hurricane Katrina. And we were 
told that we would get reimbursed from that by COE. These are 
the monies we spent in constructing safe rooms, detention 
ponds, and pumps. And that has been authorized. We went through 
an extensive and frustrating audit process by COE. That money 
has been now approved, but now we are told by COE despite money 
in the budget, we need a specific appropriation.
    Senator Landrieu. How much is that?
    Mr. Young. That is about $40 million, Senator, most of 
which comes to Jefferson. Some of it goes to New Orleans Sewage 
and Water Board, and some of it, I believe, goes to St. 
Tammany.
    But again, this is a situation where we have been fighting 
with COE. Again, no disrespect to anyone who is here. We have a 
much better relationship with them since Hurricane Katrina. But 
I do want to make this editorial comment. COE needs some 
reformation at the top, but where they really reform is at the 
Office of Counsel because the MO on the Motacapalani Office of 
Counsel of COE is, the answer is no. What is your question? And 
I am not being facetious in that regard.
    A lot of the disagreements we have based upon, and we have 
had discussion with you, Senator, and the rest of our 
congressional delegation. We go up to Washington. We get 
legislation passed. We think we are all on the same page, and 
then COE comes back to the Office of Counsel and says that is 
not the intent.
    Senator Landrieu. They figure out a way not to do it.
    Mr. Young. Right. But again----
    Senator Landrieu. Okay, 30 seconds.
    Mr. Young. We have relocation expenses. This is where we 
have relocated for the SELA Program for utilities. They did a 
reprogramming. It's just a coincidence, so they say, that the 
$60 million that was reprogrammed is now the amount of 
relocation costs that New Orleans Sewage and Water Board and 
Jefferson Parish have to come up with up front instead of 
paying it over 30 years, which was part of the legislation when 
we did the SELA in the local Chef at 25 or 35 percent. So we 
are asking for a 30-year payback on the relocation costs, as 
well as the entire costs of these ongoing SELA projects.
    I am going to close by saying the path forward we have to 
look at our communities, those both inside the levee protection 
system and those outside the levee protection system. And 
obviously our priority outside the flood protection system 
should be ring levees and house elevations for Lafitte, Crown 
Pointe, and Barataria, upgrading existing pump stations, 
generators, and three additional pump stations, gates for 
Lafitte, Crown Point, and Barataria, armoring the Grand Isle 
levees on the gulf side, and completing the segmented break 
well on the north side of Grand Isle, and restoring and 
armoring Fifi Island.
    I would like to make one comment about areas within the 
hurricane protection system, Senator, if you would. We had have 
had a disagreement with COE about option 1, 2, and 2(a) and 
pump to the river. And all of you all have been very helpful in 
that regard. We did have a very successful response to 
Hurricane Isaac, but I think I would be remiss if I did not say 
this.
    During the storm I got a call from Marcia St. Martin, and 
when you get a call from Marcia during the storm, you know it 
is not good news. She is not calling to tell me hello. We had 
an issue at the outfall pump station. Fortunately, it did not 
develop into a major issue, but again, for the record, we have 
been saying this since COE decided to go with option 1, our 
modified option 1, which they all admit is technically inferior 
to option 2 and 2(a) pump to the river.
    You have to tandem pump between pump station No. 6 and the 
outfall station, which is now an interim station. We do not 
think that is the best way to go. We think that station, pump 
station No. 6, should be decommissioned. That canal should be 
taken down. The street level should be drained by gravity and 
should only have one station at the end for all three outfalls, 
because what happened was we were instructed--Marcia was 
because the Sewage and Water Board operates the pump station--
to pull back on the pump when the rain was at its height.
    And when I had a lot of people I was concerned about, we 
were keeping them dry thus far. If that delay would have lasted 
longer than it did, we may have flooded from rainfall. And that 
is the problem we have with tandem pumping. And because they 
would only let the water get so high in those walls. So that is 
an issue we need to look at it. And let us do it right this 
time while we have that opportunity.
    Senator Landrieu. I really hope COE is listening to that 
final explanation, or we are going to be sitting here a couple 
of years from now wishing, wishing, we could have, we should 
have, but we did not.

                           PREPARED STATEMENT

    Mr. Young. And I am going to close now. I do not want to be 
sitting here a few years from now on another storm when 
something drastic happens, and despite what we have been 
saying--I want to be on the record--this is a disaster waiting 
to happen.
    Thank you very much, Senator.
    [The statement follows:]
                Prepared Statement of John F. Young, Jr.
    Exactly 7 years to the day that Hurricane Katrina devastated the 
gulf coast by exposing the inherent weakness of the levee protection 
and creating the most expensive catastrophic disaster in American 
History, Hurricane Isaac vividly reminded us of the destructive power 
nature possesses as it pummeled the Louisiana coast with relentless 
wind and violent storm surge while pinning us under a blanket of 
rainfall as it crept north through the State.
    Jefferson Parish Emergency Management conducted a partial 
activation of its EOC and monitored the storm from over 150 hours 
outside tropical force winds impacting the coast of Louisiana. However, 
it was not until August 23 that NOAA projections began drifting the 
path of the forecasted Hurricane toward the west from the coast of 
Florida to Alabama with its eventual eye on Louisiana. This westerly 
trend would continue until landfall 6 days later.
    On August 26, 2012, Jefferson Parish President John Young signed a 
declaration of a State of Emergency and the Emergency Operations Center 
went into full activation. In conjunction with Mayor David Camardelle, 
Jefferson Parish President John Young initiated a mandatory evacuation 
of Grand Isle for all tourists and gave island residents until Monday 
to seek alternate shelter locations. Shelters were open in Raceland in 
Lafourche Parish for these residents to shelter in place. Residents in 
low-lying areas of coastal Jefferson Parish outside levee protection 
such as Jean Lafitte, Barataria, and Crown Point were reminded to pay 
close attention to news reports in the event storm surge levels 
warranted emergency measures or evacuations.
    Although typically not triggered by less than a category 3 
hurricane, The Jefferson Parish Department of Emergency Management, in 
conjunction with the Department of Transit, the State Department of 
Health and Hospitals and our regional DRC of Hospitals began the 
process of evacuating all special needs medical residents to shelters, 
realizing the slow nature of the storm and its forecast for a potential 
category 2 would result in significant power outages. Those Special 
Needs Medical (SNM) residents who were ambulatory were able to be moved 
to facilities at the Louisiana State University in Baton Rouge. The 
SNMs that were non-ambulatory or required care-giver assistance were 
triaged and moved to both East Jefferson and West Jefferson Hospitals. 
In addition, the American Red Cross opened shelters throughout the 
State for citizens of Jefferson Parish to conduct self-evacuation. The 
ability of the State to mobilize its assets and conduct these 
operations was unprecedented and is a testament to the changes made in 
the wake of Katrina/Gustav. These efforts resulted in over 350 special 
needs medical residents receiving assistance during the incident from 
local, State, and Federal assets.
    All pre-staging of assets and equipment took place in preparation 
of response activities. Each department conducted its required pre-
landfall checklists to ensure all actions necessary to prevent, 
minimize or mitigate potential storm damage had been taken and that 
personnel and equipment were in place to respond to the effects as soon 
as conditions were safe enough to allow for actions without 
jeopardizing the safety of the responders.
    After more than a day of relentless pounding by both wind and rain, 
which brought about one of the fastest rising storm surges experienced 
in Grand Isle, the wind began to relinquish enough to allow for 
response activities to begin. Even prior to the wind speed falling 
under 30 mph, the dedicated personnel from the fire departments, 
sheriff's office, public works, code enforcement, and administration 
began swarming the parish to identify unsafe conditions, such as 
debris, electrical wires crossing roadways, and localized flooding of 
streets to began taking appropriate measures to make it safe for our 
residents. In fact, before Entergy began dispatching their fleet of 
responders, the Jefferson Parish Department of Public Works and Streets 
Department had cleared all major roadways and arteries and were 
focusing their efforts on residential streets and smaller laterals. The 
sheriff's office established a command post in the Jean Lafitte, Crown 
Point, and Barataria area to begin the process of conducting search and 
rescue operations of residents stranded in their houses by the flood 
waters.
    With nearly every resident in the parish without electricity, the 
parish, in conjunction with the State and FEMA established 7 points of 
distribution for ice, water, MREs, and tarps, one each in Grand Isle 
and Jean Lafitte and five throughout the East and West Banks of 
Jefferson Parish. Nearly 1 million MREs, 2.4 million bottles of water, 
300,000 bags of ice and 25,000 tarps were distributed from these 
locations. In addition, the East and West Bank fire departments 
distributed these items throughout their respective districts ensuring 
the most vulnerable residents, being the elderly and handicapped, would 
receive these essential services.
    Five shelters were opened up within Jefferson Parish utilizing 
recreational facilities to shelter residents whose homes had been 
damaged and to offer cooling shelters to the elderly and handicapped as 
a result of the extensive power outages. These shelters were managed by 
the American Red Cross and offered hot meals as well. The nursing homes 
and elderly residential living units were monitored by the Emergency 
Management Department, council members, EMS personnel and fire 
department personnel, and when Entergy was unable to restore power 
quickly enough, generators were provided or the evacuation of 
facilities transpired. At the height of shelter operations, nearly 450 
residents sought shelter, food, and assistance.
    In the aftermath, the State with assistance from the National 
Guard, Jefferson Parish Sheriff's Office, and parish government opened 
Disaster Supplemental Nutritional Assistance Program (DSNAP) sites for 
the distribution of aid at three locations in the parish. In 13 days, 
over 64,000 citizens/154,000 households were approved to receive 
benefits in the amount of $27,043,676. In addition, disaster recovery 
sites were opened in Grand Isle and Jean Lafitte originally and two 
more are proposed to open this week, one on the East and West Bank of 
Jefferson Parish, inside the levee protection system.
    Although the National Guard was assigned to assist in the parish in 
responding to and/or addressing particular issues, it is imperative 
that the local emergency management director has the ability to 
redirect missions and task with the troop's onsite command to redirect 
this manpower for additional tasks in response to the current and 
changing picture of the disaster.
    There are many lessons that this storm has taught us, but in the 
sake of brevity, I would like to focus on the following:
    First and foremost, without the commitment of Congress and the 
administration to take all appropriate actions necessary to restore the 
marsh and barrier islands to reduce the impact of tidal surge on the 
coast of Louisiana, it is only a matter of time before the gulf waters 
start lapping at the door of metropolitan New Orleans. In light of the 
nearly $15 billion spent to upgrade the Flood Protection and Risk 
Reduction System to protect the area from a category 3 hurricane, it is 
significant to note that Hurricane Isaac was a slow moving category 1 
hurricane and one need only look to Jean Lafitte, Crown Point, 
Barataria and Grand Isle, Braithwaite of Plaquemines Parish, and 
LaPlace of St. John Parish to understand that this storm brought an 
even higher storm surge than did Hurricane Katrina. Without significant 
and consistent investment in ring levees and in our marsh and barrier 
islands, our future is at serious risk.
    Second, there are few communities in the world that have 
experienced the level of catastrophic events over the past 7 years as 
we have in the coastal parishes of Louisiana. We have been ground zero 
for both the largest natural and man made disasters in American 
history, Katrina and the BP Oil Spill. In fact, according to Kiplinger, 
Louisiana is ranked number one as the most disaster prone State over 
the past decade. Jefferson Parish received a Special Community Disaster 
Loan (SCDL) following Katrina. As a result of all of the construction 
and replacement of lost goods which created a false economy in our 
Parish, we did not meet the forgiveness criteria. This needs to be 
corrected and the SCDL needs to be fully forgiven, especially in light 
of our most recent devastation as a result of Hurricane Isaac.
    Third, the process by which the Saffir-Simpson Scale identifies 
damages for insurance purposes has to be reviewed. The wind category 
strength of the storm cannot dictate a particular storm's actual 
devastation and a serious review needs to be conducted to determine how 
we measure the effects and the correct preventative and preparatory 
actions taken during the pre-storm hours.
    Fourth, FEMA's response needs more flexibility to programmatic 
changes that increases the effectiveness of assisting the citizens, 
post-disaster. The programs and guidelines set forth to be eligible for 
FEMA funding directs criteria that need to be met to receive Federal 
funding. Affected areas that have been devastated should be eligible 
for an aerial PDA review that allows for expedited approval for Federal 
funding by obvious destruction of those neighborhoods.

    Senator Landrieu. And we are going to go by seniority now. 
So I think that is you, Mr. Nungesser.
STATEMENT OF BILLY NUNGESSER, PRESIDENT, PLAQUEMINES 
            PARISH
    Mr. Nungesser. Thank you. Thank you, Senator. Thank you, 
Senator Vitter, Congressman Richmond, for having us here today.
    I gave you all little handouts so I do not have to go 
through everything, where we are in this particular--Craig's 
team on the ground has been doing a good job in Plaquemines 
Parish.
    [The referenced handout was not available at press time.]
    The one issue that we are dealing with is the right on 
personal property. As you will see from those pictures, the 
dead animals are massive in the parish. And we do not go on 
those private properties until they clean up the debris. And 
initially, we went out and started cleaning the properties. Now 
they do not even inspect these properties. And only in the 
flooded areas, which we understand that is the only areas. We 
are asking for assistance on private property, because the 
debris is 10-12 feet deep. It runs from the levee across 
Highway 23, and on the East Bank between the levees it is 
massive.
    And we are asking that Craig try to expedite that. To date 
in the last week, only 17 properties have been cleared, and 
those animals out there rot. And until we get on those 
properties and start moving debris--you will see in the second 
picture that was one driveway that was cleaned, and the amount 
of dead corpses that were uncovered in that property. People 
cannot get back and start working on their home because of the 
smell and the sickness that this causes. We have put out that 
this is a major health issue in the parish to get these 
properties cleaned up.
    We, too, have asked for the forgiveness of the Hurricane 
Katrina loan. Because of the 90/10--hopefully 90/10--split, it 
is going to put a financial burden on Plaquemines Parish for 
this storm once it is done. The good news is the Federal levees 
held up. Everywhere we had Federal levees, we did not--we saw 
those levees over top in a couple of areas, but they held up, 
and we saw no flooding in those areas.
    I appreciate the general looking into covering the whole 34 
miles on the West Bank. On the East Bank, we do not meet the 
criteria by COE for a Federal levee. Plaquemines Parish had a 
$30 million levee. They bonded out under construction. We just 
did not get it finished. It would not have mattered for this 
storm anyway.
    But you can see the picture of the great wall in St. 
Bernard, and why the people on the East Bank of Plaquemines are 
so upset that they have got an 80-foot levee next to their 30-
foot wall.
    Senator Landrieu. Because you did not get the cost-benefit 
ratio.
    Mr. Nungesser. Absolutely. And I got to tell you, Senator--
--
    Senator Landrieu. Because the mouth of the Mississippi 
River is obviously not important to the country in any way, so 
that is no benefit to the mouth of the Mississippi. But go 
right ahead.
    Mr. Nungesser. We got Federal authorization on the West 
Bank to bridge that gap. We have got Federal levees in south 
Plaquemines, and Federal levees in north Plaquemines. But we 
are going to bridge those 34 miles on the West Bank.
    On the East Bank, we have got St. Barnard with a 30-foot 
wall. We have got 18 miles--just 18 miles of levee that is a 
parish levee. Then we have a Federal levee in south Plaquemines 
on the East Bank. Those people were trapped. We got some of 
them out by levee, some by air boat. Some people risked their 
lives rescuing people.
    But to have that 18 miles with no Federal levee, but keep 
up the Federal levee in south Plaquemines----
    Senator Landrieu. It does not make any sense.
    Mr. Nungesser [continuing]. Does not make sense. And when 
you look at the coal facilities, the export and import of goods 
along both sides of the Mississippi and Plaquemines Parish, 
part of the reason we have such great walls is the amount of 
tonnage that moves out of Plaquemines Parish. And also all 
those fishing docks where that great seafood comes in are shut 
down for weeks.

                           PREPARED STATEMENT

    We keep rebuilding and paying with Federal dollars to 
rebuild these areas. We asked the President, when we met with 
him weeks ago, this is an opportunity to get these two gaps in 
Plaquemines Parish in the Federal system, get them built. And 
as we saw in south Plaquemines, both sides of the river, they 
are up and running again. We just could not get there. It does 
not make a lot of sense to fund those Federal levees and not 
fund the gaps in between them.
    Thank you so much.
    [The prepared statement follows:]
                 Prepared Statement of Billy Nungesser
                 plaquemines parish levee construction
    West Bank Back Levee From Oakville to St. Jude.--We are requesting 
the U.S. Army Corps of Engineers to return to the 1-percent 50-year 
protection design which will allow for enough money to complete the 
West Bank Back Levee all the way from Belle Chasse to Venice.
    East Bank Back Levee From Braithwaite to White Ditch.--We raised 
the 18 miles of levee from Braithwaite to White Ditch to a uniform 8 
feet in 2008 with parish funds to give our residents additional 
protection. We are currently raising the same levee to 12.5 feet with 
parish funds. We are requesting the U.S. Army Corps of Engineers to 
include this 18 miles of East Bank Back Levee into the Federal System 
and build it to at least the 1-percent 50-year protection design.
    It does not make sense for the U.S. Army Corps of Engineers to 
control and maintain Federal levees on the upper ends and the lower 
ends of Plaquemines Parish and leave a section in the middle on both 
sides of the Mississippi River unprotected by Federal levees. This cuts 
our parish in half during a storm event and leaves our residents and 
businesses in danger of flooding as was seen by Hurricane Isaac.
    [See the attached request sent to Senator Mary L. Landrieu on 
September 13, 2012:]
        Letter From Billy Nungesser to Senator Mary L. Landrieu
                                                September 13, 2012.
Hon. Mary L. Landrieu,
Chair, Subcommittee on Homeland Security,
Washington, DC.

    Dear Senator Landrieu: The New Orleans to Venice (NOV) Louisiana 
Hurricane Protection Project and the Non-Federal Levee (NFL) 
incorporation into the NOV project collectively received more than $1.4 
billion from supplemental bills (3rd, 4th, 6th, and 7th) post-Katrina. 
At the time funding was approved, based on use of the Engineering 
Manual Guideline (EM), it was thought that the amount of funding 
received would be sufficient to complete the existing 50-year level of 
risk reduction (LORR) for the existing NOV projects and incorporate NOV 
into the existing projects. The intent of the funding included 
incorporation of the 34 miles of existing small public and private back 
levees on the West Bank of Plaquemines Parish from Oakville, Louisiana, 
to St. Jude into the Federal system.
    In February 2010, the U.S. Army Corps of Engineers informed Parish 
President Billy Nungesser that the funding in hand was inadequate to 
complete the work due to a fundamental change in the post Hurricane 
Katrina Design Guidelines. The new Hurricane Storm Damage Risk 
Reduction System (HSDRRS) guidelines would require an additional $1.0 
billion to complete. As a result of this decision Plaquemines Parish is 
now faced with the possibility of completion of only 20 miles of levee 
construction instead of 34 miles for the newly incorporated section 
from Oakville to St. Jude on the West Bank and leaving parts of the 
existing NOV projects unconstructed.
    In July 2011, the U.S. Army Corp of Engineers hosted a 3-day 
Project Delivery Summit for the combined NOV projects. The objective 
was to optimize project features, establish a completion schedule, 
reduce costs, and deliver a system-wide protection plan within the 
budgeted and available funding. A plan was put together with over 100 
participants including USACE, OCPR, and PPG. A comprehensive system 
approach included analyzing the existing factor of safety, height 
deficiencies and overtopping. This summit resulted in a plan that would 
optimize all polders in the Federal and non-Federal sections, and 
implement the needs expressed by the parish and the State.
    This plan was scheduled to be delivered to Major General Walsh on 
August 22, 2011. General Walsh, however, unilaterally decided on August 
19, 2011, to implement the new HSDRRS design guidelines without 
reviewing or discussing the aforementioned summit results. This 
decision by General Walsh is not supported by the data from the summit. 
While we might agree that given that the infrastructure costs in other 
parishes are much greater, a 1-percent 100-year risk reduction system 
may be needed for Orleans, Jefferson, and St. Bernard Parishes, we 
believe that here in Plaquemines Parish our 2-percent 50-year risk 
reduction system satisfies community needs. To require this new 1-
percent HSDRRS design for our parish is an enormous waste of Federal 
money on a design that delivers less protection, an incomplete 
protection system with gaps, and because of the resulting gaps in the 
levee system, does not achieve the congressional objectives for a 
complete ``risk reduction system.'' In point of fact, the stated 
objective of the original authorization design was to protect all of LA 
State Hwy. 23, not a piece of it. The decision by General Walsh does 
not conform to the objective.
    Two weeks ago Hurricane Isaac came through Plaquemines Parish 
resulting in more than 7.5 feet of water in the same areas where 
Federal levees were originally proposed to be constructed. If General 
Walsh's HSDRRS decision is allowed to stand we would still have flooded 
Hwy. 23 on the south end of the project.
    Hwy. 23 is our only evacuation route. The primary reason for 
including this area in the Federal protection supplemental was to 
protect this evacuation route. As it currently stands we will now be 14 
miles short of a complete ``risk reduction'' levee protection system. 
It means 14 miles of water over Hwy. 23, cutting our parish in half and 
making evacuation difficult if not impossible while ensuring a 
continued negative economic impact for both our residents and our 
businesses which, as we all know, will adversely affect the national 
interests.
    Our simple request is to reinstate the original Engineering Manual 
(EM) guidelines. If the EM guidelines were to be reinstated for this 
project, we can complete the full 34 miles of needed protection thereby 
eliminating the flooding of Hwy. 23. This would in turn allow the doors 
of our homes, communities, and businesses to remain open. (As a 
sidebar; the EM guideline is the standard every levee system outside of 
the New Orleans area is built to).
    It is noteworthy that the existing 90 miles of Federal levees from 
St. Jude to Venice and from Phoenix to Bohemia were built to the EM 
standards. It is also noteworthy that we had no failures or overtopping 
of the Federal levees during Hurricane Isaac.
    Enclosed are a few pictures of the effects of Hurricane Isaac. Had 
the levees been built to the EM standard as proposed, most likely our 
homeless residents would today be living in their homes and not a 
shelter; local, State, and Federal governments would be able to put 
much needed resources to other uses in this recovery; and the oil and 
gas industries would have been able to access their businesses and get 
back in business much sooner.
    We ask for your support in helping to reinstate the original 
Engineering Manual Guidelines for the full 34 miles of the New Orleans 
to Venice (NOV) Louisiana Hurricane Protection Project (The ``NFL''), 
and help us fast track construction of this important project.
            Sincerely,
                                   William ``Billy'' Nungesser,
                                           Parish President, 
                                               Plaquemines Parish.

    [The referenced pictures follow:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Landrieu. Thank you. Would it be Ms. Brister or Ms. 
Robottom? Okay. Next in seniority. Go right ahead. I am 
relatively new, so I am not 100 percent sure, but go right 
ahead.
STATEMENT OF NATALIE ROBOTTOM, PRESIDENT, ST. JOHN THE 
            BAPTIST PARISH
    Ms. Robottom. Madam Chairman, Senator Vitter, and 
Congressman Richmond, first of all, thank you for hosting us 
today.
    Over the last 25 days, St. John the Baptist Parish has 
worked hard to recover from the devastation caused by Hurricane 
Isaac. More than 7,000 homes were damaged, but through the 
grace of God no lives were lost.
    St. John Parish has never flooded in the past. Flooding 
occurs in our streets and along the interstate, but not in our 
homes. Preparedness is ongoing. As our staff is trained, we 
update standard operating procedures and our residents were 
informed. We were prepared, but no one anticipated the disaster 
that unfolded in our community.
    On Sunday, a hurricane watch was issued for Louisiana, and 
I, along with Governor Jindal and President Obama, issued 
emergency disaster declarations. The OC was partially activated 
in employee-secured facilities and pre-positioned generators 
and barricades. Police officers were sent out to the homes 
north of I-10 securing contact information for those electing 
not to evacuate.
    On Monday, the OC was fully activated, schools closed, and 
sandbags distributed. Daily conference calls were held with 
GOHSEP, the weather service, States agencies, and surrounding 
parishes. And based on updates, slosh modeling, and historical 
data, a voluntary evacuation was ordered in our low-lying 
areas.
    On Tuesday, Tropical Storm Isaac became a category 1 
hurricane, and water levels rose at the lake, and hurricane 
force winds reached the parish at about 3 a.m. On Wednesday at 
6:30 a.m., water was shut off in LaPlace, and search and rescue 
efforts began at 9 a.m. The sheriff's office, fire department, 
National Guard, wildlife and fisheries, Coast Guard, and a host 
of volunteers with their own boats continued search and rescue 
efforts for more than 48 hours.
    Our residents were rescued by boats and high water 
vehicles, as our greatest fears were realized. Evacuation 
routes were shut down. I-10 and Airline Highway were under 
water. And portions of River Road were flooded. Ninety-five 
percent of our homes lost power, and 28,000 residents were 
without drinking water. Over 4,000 residents were transported 
to State shelters.
    Storm surge closed St. John exists at I-10, I-55, and 
flooded I-10 between exits 206 and 209. This has never happened 
before. U.S. 61 was closed in St. Charles and St. James 
Parishes. Our residents were basically trapped.
    Four weeks later, all parish services are restored, parish 
schools open. A disaster recovery center is open, and over 
12,000 of our residents are registered, and over $20 million in 
FEMA assistance provided, $3.4 in disaster food stamps. This is 
a first for our residents. As I said before, we do not flood.
    Displaced residents are home, but housing is problematic. 
There are no hotels, very few rental properties, and all of our 
residents in hotels are outside of our parish. Many homes were 
not in flood zones. Widespread flooding and closure of the 
parish's outlets is unacceptable for residents of St. John, the 
State, and this country.
    Homeowners are currently being faced with elevation 
challenges with little to no funding. One-in-five Louisiana 
residents live in southeast Louisiana parishes, including 
Orleans and Jefferson, which are home to over three-quarters of 
1 million people. With highway and interstate closures, north 
and westbound evacuation routes were eliminated.
    We understand that people evacuate, and if they evacuate 
they can come back. But because we are an industrial corridor, 
there are other incidents that could happen following a storm 
with our roads closed.
    Entergy's nuclear power plant (Waterford 3) serves 2.8 
million utility customers in four States, and 12 percent of 
Louisiana residents. When evacuation routes are closed, 
Waterford, which is located in St. Charles Parish, is unable to 
restart, presenting potential problems, supplying petroleum and 
chemicals outside of the area. Hurricane Isaac curtailed 
refinery production, which resulted in increased gas prices 
around the country.
    The river region supports billions of dollars of 
investments with over $30 billion more in potential investments 
in the pipeline. Investors want to know that they will be 
protected. This levee project has been under way for 40 years, 
the latest study since 1985, with an estimated cost between 
$300 and $600 million. All of the areas in the study flooded 
during Hurricane Isaac.
    How many studies are needed before our residents are deemed 
worthy of protection? The vulnerability of parishes outside the 
Federal levee system was exposed, and despite predictions of 
our area becoming a funnel for Lake Pontchartrain, our levee 
project has received no Federal funding since 2010. The State, 
the Pontchartrain Levee District, and the parish are ready. We 
need help fast tracking COE and their approval, permitting, and 
funding.

                           PREPARED STATEMENT

    No more studies. Hurricane Isaac was the ultimate study, 
and it failed. We need your help, and I humbly ask you to help 
us to protect our residents.
    Thank you.
    [The statement follows:]
                 Prepared Statement of Natalie Robottom
    Honorable Chairman and Senators--I am Natalie Robottom, St. John 
the Baptist Parish president. Thank you for allowing me to address the 
committee on behalf of our residents.
    Over the last 25 days, we have been working hard to recover from 
the widespread devastation and flooding caused by Hurricane Isaac. More 
than 7,000 homes and 12,000 households have been affected by the 
hurricane, many of which were not in a flood zone. Through the grace of 
God, no lives were loss this time, but the loss of personal property 
and a lifetime of possessions and treasured memories have caused 
frustration and despair within our close knit community. St. John 
Parish has never flooded--water accumulates in our streets and along 
interstate interchanges--but not in our homes.
    Hurricane preparedness is an ongoing effort within St. John Parish. 
Department heads and staff members were trained for months, attended 
one-on-one meetings, revised standard operating procedures, and 
participated in a hurricane table top to ensure preparedness for 
emergencies and other disasters. Public meetings were hosted throughout 
the parish to assist residents in developing hurricane plans for their 
families. Hurricane preparedness guides were distributed through 
utility bills, local libraries, government offices, and local 
businesses. Preparedness information was provided through news 
releases, advertisements, public meetings, and local events leading up 
to hurricane season. Residents were also encouraged to register for 
first call alerts that allow them to receive free weather and emergency 
information and parish updates through text messaging and emails.
    The parish was proactive in its preparations and communications to 
its residents for hurricane preparedness and disaster planning, but no 
one anticipated the disaster that unfolded in our community.
    The National Weather Service issued a hurricane watch for Louisiana 
on Sunday, August 26, with then Tropical Storm Isaac about 52 hours out 
from the coast of Louisiana. I, along with the Governor of Louisiana 
and the President of the United States, issued Emergency Disaster 
Declarations and the Emergency Operations Center (EOC) was partially 
activated. Situational awareness was communicated to residents, parish 
officials, and staff from that point forward. The parish continued 
storm preparations by securing Government facilities, pre-positioning 
generators at water systems, multiple drainage pumps, and lift 
stations. They also pre-positioned barricades in anticipation of road 
closures in low-lying areas and removed potential drainage barriers to 
ensure the parish drainage systems functioned properly. The Sheriff 
dispatched officers to the homes of residents north of I-10 encouraging 
their evacuation, but securing contact information for those electing 
to remain in their homes.
    On the morning of Monday, August 27, the parish EOC was fully 
activated, the school system closed, and sand bags distributed 
throughout the parish. Approximately 30,000 sand bags were distributed 
until weather conditions worsened to a point dictating the stoppage. 
Daily conference calls were held with the National Weather Service, 
GOHSEP, State agencies, and surrounding parishes to obtain and provide 
situational awareness on Hurricane Isaac. Based on those discussions, 
SLOSH modeling, and historical data, a voluntary evacuation was issued 
for residents in low-lying areas. Parish officials continued to monitor 
weather updates, including wind speed, surge predictions, and other 
weather related warnings. Weather and preparedness updates were 
disseminated through press releases, social media, and media outlets as 
weather conditions changed.
    On the morning of Tuesday, August 28, Tropical Storm Isaac was 
upgraded to a category 1 hurricane and water levels began rising slowly 
at the Peavine boat launch located on the northeast boundary of the 
parish. At approximately 2 a.m., Hurricane Isaac made landfall along 
the coast of southeast Louisiana as a category 1 storm with winds up to 
75 mph. At approximately 3 a.m., St. John Parish began experiencing 
hurricane force winds. By then, all emergency responders and parish 
employees were hunkered down awaiting passage of the hurricane.
    On Wednesday, August 29, at around 6:30 a.m., the Utilities 
Department was forced to shut off water service to LaPlace to avoid 
contamination of the system due to flooding and wind damage to a system 
located 10 miles north of LaPlace adjacent to Lakes Pontchartrain and 
Maurepas. Search and rescue efforts began at around 9 a.m. and remained 
in effect for more than 48 hours from the east side of the parish to 
the west side--from LaPlace to Garyville--from the Interstate to the 
River Road. In addition to the St. John Sheriff's Office and Fire 
Department, the Louisiana National Guard, the LA Department of Wildlife 
and Fisheries, Coast Guard, and other volunteers assisted in the search 
and rescue efforts.
    This was not a drainage issue, but our greatest fears were realized 
when Lake Pontchartrain and Lake Maurepas emptied themselves into St. 
John Parish. The evacuation routes were shut down--I-10 and Airline 
Hwy. were under water and portions of River Road were also blocked.
    The parish opened their temporary shelter to allow residents a safe 
haven until some 90 commercial buses could transport them to State-run 
shelters in north Louisiana. It is estimated that by Wednesday evening, 
over 3,000 residents were evacuated to State shelters, as search and 
rescue efforts continued throughout the parish.
    Although the western edge of the parish had not yet experienced 
flooding from Hurricane Isaac, by the afternoon of Thursday, August 30, 
water levels began rising in Lake Maurepas causing the homes of 
residents from western LaPlace toward Reserve and Garyville to flood. 
Parish search and rescue efforts resumed and residents in the affected 
areas were transported to shelters in North Louisiana.
    As evacuations continued, high winds and storm surge in Lake 
Pontchartrain and Lake Maurepas caused all exits at I-10 and I-55 to 
become impassable due to an excess of 6 feet of water. Exit 206 at 
Belle Terre Blvd. was not re-opened until September 1, and exit 209 at 
U.S. Hwy. 51 did not re-open until September 2. U.S. Hwy. 641 leading 
to I-10 at Airline Hwy., and Airline Hwy. at the St. John/St. Charles 
Parish line was also closed due to flooding.
    Once flood waters began to recede, restoration of power began in 
areas safe to enter. According to Entergy representatives, 95 percent 
of parish households were without power initially. Scattered power 
outages remained for approximately 14 days. All residents in the city 
of LaPlace, the largest city in St. John Parish, were without drinking 
water for 4 days because utilities crews could not reach water wells in 
Ruddock to make needed repairs due to high water levels along U.S. Hwy. 
51.
    As of today, power has been restored to all but five customers, 
water has been restored parish-wide, a levee of Hesco baskets has been 
created around our LaPlace water system, and lift stations throughout 
the parish are being repaired.
    Three days following the storm, a Disaster Recovery Center (DRC) 
was open and operating, registering over 12,000 residents through 
Thursday, September 20. Through that date, 10,000 home inspections were 
completed, with more than $18.3 million in Housing Assistance and over 
$2.8 million in Other Needs Assistance awarded. Over 5,700 residents 
have been determined eligible for Temporary Shelter Assistance, while 
over 600 are in area hotels. The Department of Children and Family 
Services (DCFS) was up and running on September 4, approving over 8,342 
parish households for approximately $3.4 million in assistance through 
the Disaster Supplemental Assistance Program (DSNAP) over 10 days.
    Residents displaced by Hurricane Isaac and transported to State 
shelters began returning home on Tuesday, September 4, and the American 
Red Cross managed local shelter operations at the parish civic center 
for 90 individuals. Housing continues to be a major problem as the 
parish lacks the capacity to house its residents due to limited hotel 
rooms and rental property. However, housing solutions are a key 
component for our community's recovery.
    An Executive order has been issued allowing temporary housing, 
permit fees waived, and Temporary Housing Units approved by FEMA. My 
staff is working with the HUD, the Hotel Association, DOTD, the LA 
Housing Task Force, OCD, FEMA, and GOHSEP to address short- and long-
term housing needs, as well as transportation to aid our recovery. The 
parish has implemented a business call center and resource center and 
is working with the SBA to help businesses through the process. We have 
also partnered with the Home Builders Association of New Orleans to 
educate residents against fraud and to provide information and respond 
to questions about rebuilding.
    The parish is coordinating volunteer efforts and has established a 
volunteer assistance hotline to pair volunteers with those in need. A 
volunteer reception center was opened Saturday to assist residents who 
are uninsured, underinsured, elderly, disabled, or single parents.
    The Debris Removal Program is underway, although not progressing as 
quickly as desired, but we are working with our Federal and State 
partners to expedite the process and reduce the safety and health 
issues posed by the long-term presence of this debris.
    Despite the flooding of two public schools, all parish schools have 
re-opened with hopes of maintaining a since of normalcy and encouraging 
residents to remain in our parish. Both schools are operating in 
temporary sites and repairs are planned for permanent facilities.
    The parish requested and received support during response and 
recovery efforts from multiple State and Federal agencies, other parish 
governments, local business, individuals, private nonprofits, and 
multiple faith-based and volunteer organizations. The outpouring of 
support received by our parish is greatly appreciated and will never be 
forgotten.
    At this point, our main concern is securing a hurricane protection 
system like our neighbors to the east and preventing road closures that 
isolated our residents following Hurricane Isaac. Because of wide-
spread flooding, all parish outlets were closed at one point. This is 
unacceptable for the residents of St. John the Baptist, the State of 
Louisiana, and the United States of America. Not only did this make it 
impossible for some residents to evacuate as water inundated our 
parish, but flood water remained several days after the storm 
interfering with our recovery efforts.
    One out of every five Louisiana residents live in southeast 
Louisiana, which is inclusive of St. John the Baptist, St. James, and 
St. Charles Parishes. Two of the largest coastal parishes, Orleans and 
Jefferson, have over three quarters of a million people between them. 
With U.S. Highway 61, U.S. Interstate 10, and U.S. Interstate 55 were 
closed due to flooding from Lake Pontchartrain and Lake Maurepas, the 
most important north and west bound evacuation routes effectively 
eliminated.
    Entergy's nuclear power plant (Waterford 3), provides critical 
power to petroleum plants and refineries in the river parishes and is 
located in St. Charles Parish. It is the largest Entergy facility 
serving approximately 2.8 million utility customers in four States, 
providing 12 percent of the electrical needs in Louisiana. When flood 
waters close the major evacuation routes for some 85,500 residents of 
St. Charles and St. John Parish living within 10 miles of the plant, 
Waterford 3 is unable to restart until evacuation routes are cleared 
and passable. Delays in restarting the plant presents a significant 
potential problem for our Nation's supply of petroleum and chemicals, 
in addition to problems faced by our residents.
    More than 7,000 households were affected by Hurricane Isaac 
throughout St. John Parish. Some households will only have temporary 
housing needs, while others with severe damage will have long-term 
housing needs. Without housing solutions within the parish, many 
residents may not return home. This compounds the impact to our 
community, as parish residents are an integral part of our government 
workforce, parish school system, and parish medical care system, just 
to name a few.
    St. John the Baptist Parish and our neighbors to the west and south 
were under water. But the implications of Hurricane Isaac go far beyond 
the households and businesses of St. John the Baptist Parish. Although 
our parish was devastated, the regional and national impact to shutting 
down the interstate system and curtailing production of our refineries 
was felt around the country through increased gas prices.
    Hurricane Isaac served to exacerbate the need for levee protection 
for St. John Parish residents. For over 40 years, levee protection for 
our residents has been discussed, but never completed. In 1971, a 
resolution authorizing the U.S. Army Corps of Engineers to include St. 
John the Baptist Parish in the West Shore--Lake Pontchartrain, 
Louisiana Hurricane Protection Project was offered in the House of 
Representatives. Despite being impacted by Hurricanes Katrina, Rita, 
Gustav, and Ike, and Tropical Storm Lee, this project has not received 
Federal funding since fiscal year 2010, and it is not currently in the 
fiscal year 2013 budget. Completion of this project is contingent upon 
Corps approval and Federal and non-Federal funding. The State, the 
Pontchartrain Levee District and St. John Parish are prepared to move 
this project forward, but we need help expediting the approval and 
permitting process, as well as securing Federal funding. As other 
projects have been fast-tracked--we know it is possible.
    Approximately 120,000 people live in St. John, St. James, and St. 
Charles Parishes supporting billions of dollars of investments 
currently in the river region, with over $30 billion more in potential 
investments in this industrial corridor. We are awaiting results of a 
feasibility study on the West Shore--Lake Pontchartrain project 
evaluating three alignments to reduce the risk of storm damage for 
these three parishes. How many studies are needed before our residents 
are deemed worthy of protection?
    Preliminary economic analysis from this study indicates a viable 
hurricane and storm damage risk reduction project in the West Shore--
Lake Pontchartrain study area. The three alignments under consideration 
provide a 1-percent level of risk reduction for the East Bank of St. 
John the Baptist, St. James, and the western portion (Montz) of St. 
Charles Parishes. Estimated costs for the three alignments or 
alignments in phases are from $300 million to $600 million and include 
levees, floodwalls, navigation structures, pump stations, LERRDS, and 
mitigation. One alignment includes risk reduction for Ascension Parish. 
All of the areas on the western shore of Lake Pontchartrain incurred 
flooding as a result of Hurricane Isaac.
    It is time to take action and move the West Shore--Lake 
Pontchartrain Hurricane Protection Project forward. I humbly ask the 
members of this committee to take time to review detailed reports, 
alignment plans and alternatives completed over the past decades of 
study. Hurricane Isaac was the ultimate study and it failed. We are not 
a helpless people, but we need your help to secure the only system that 
can protect our residents from this type of devastation--inclusion in 
the Federal Levee System.
    Thank you.

    Senator Landrieu. Thank you.
    Ms. Brister.
STATEMENT OF PAT BRISTER, PRESIDENT, ST. TAMMANY PARISH
    Ms. Brister. Good morning, Senator Landrieu, Senator 
Vitter, and Congressman----
    Senator Landrieu. Can you pull the microphone closer to 
you, if you would? Thank you.
    Ms. Brister. Is that better?
    Senator Landrieu. Yes.
    Ms. Brister. Okay, thank you. Thank you for your support 
during our time of crisis and for convening this hearing today.
    It is on now? I will get closer. I can usually speak 
louder.
    Hurricane Isaac brought a storm surge between 7 and 10 feet 
across St. Tammany Parish, as well as 15 to 20 inches of rain. 
St. Tammany experienced flood conditions on every river in the 
parish, from Tchefuncte to the Pearl. These rivers and bayous 
could not drain into Lake Pontchartrain due its high level from 
the storm surge. The Tchefuncte River was actually flowing 
north.
    Over 600 residents who chose to shelter in place had to be 
rescued by first responders, and over 1,500 shelters were 
flooded.
    St. Tammany Parish is not the only community on Lake 
Pontchartrain that suffered devastating effects from Hurricane 
Isaac. We are part of a much larger ecosystem, the Lake 
Pontchartrain Basin. Every parish surrounding Lake 
Pontchartrain must come together to find a solution to flooding 
in the basin. It must be a plan that protects our citizens and 
does not put our neighbors in jeopardy, be that our neighbors 
in Lake Maripa or neighbors in Bay St. Louis.
    The citizens of St. Tammany Parish understand how tight tax 
dollars are. We also understand that we must get the most of 
every $1 entrusted to government. There is a solution to 
flooding in Lake Pontchartrain that is far less costly than 
building huge levees along every square inch of lakefront 
property. Flood control at the Rigolets Pass provides the most 
cost-benefit ratio for the million citizens who live adjacent 
to Lake Pontchartrain and are subject to flooding from surge.
    Hurricane Isaac also showed us the dangers of failing to 
maintain flood control structures already in place. While 
Hurricane Isaac was still making its way through southeast 
Louisiana, I was notified of the imminent failure of lock No. 2 
at the Pearl River navigational canal located near Bush in 
northeast St. Tammany, necessitating the immediate evacuation 
of over 1,200 homes.
    But for the courageous actions of our own public works 
employees and opening of the valves, and reducing the water 
levels in the lock, hundreds of homes may have been washed 
away, and thousands of lives put in peril. While his decision 
was delayed, I appreciate General Peabody's response to the 
near failure of lock No. 2, and his decision to allow parish 
personnel to adjust water levels at the lock. Thankfully, the 
crisis was averted, and the general has pledged that the 
structural integrity of the lock will be restored and 
maintained.
    Hurricane Isaac provided a triple threat from storm water. 
In addition to surge from the lake and the failure of lock No. 
2, the eastern side of the parish was under an apparent threat 
of catastrophic flooding from the Pearl River. The National 
Weather Service projected the Pearl to crest at historic 
levels, potentially flooding 5,000 homes. The timing of the 
crest and potential for flooding as forecast by the National 
Weather Service changed, and ultimately predictions of massive 
flooding did not occur.
    Unreliable forecasting and predictions by our country's 
lead weather agency is unacceptable. I am therefore calling for 
a joint task force made up of Federal, State, and local experts 
to study the Pearl River Basin and model the effects of 
differing storm events in the basin based on current 
conditions. Those models are many, many years old.
    I think that all can agree that the safety of our citizens 
is our foremost goal when preparing and responding to severe 
weather events. Local officials must have accurate information 
which they can rely upon in order to make decisions during 
times of emergency. There is no place for political boundaries 
in the fight against storm water. Just as storm water crosses 
parish and State lines, a successful storm water management 
plan must cross those lines so that it will serve us all.
    While we are working to find a long-term solution to the 
threats of surge and river rain flooding, there are smaller 
steps that we can take today to mitigate against future flood 
damage.
    The post-Hurricane Katrina building elevation mitigation 
programs have made a substantial reduction in both the number 
of flooded structures and the dollar value of flood damage in 
St. Tammany. Raising flood prone structures works in St. 
Tammany Parish by reducing future flood insurance claims. We 
are asking that this program be continued and expanded in our 
parish.
    St. Tammany invests millions of local tax dollars every 
year on storm water mitigation projects. We have been trying 
for many years to participate in the SELA Program. The W-14 
Drainage Project has been in the COE system for over 15 years 
and is still not funded. The project is too large for local 
dollars, and we need Federal partnership in this endeavor. Over 
$14 billion has been spent in the past 7 years on levee 
protection for the south shore, but we have not been able to 
get a single project funded in St. Tammany Parish. We are also 
asking that funding be dedicated toward moving these SELA 
projects forward.
    Administrator Craig Fugate has pledged a fair and swift 
decisionmaking process post-Hurricane Isaac, and we appreciate 
his forthrightness and his candor. We are hopeful that our 
recovery from Hurricane Isaac is smoother than prior disasters. 
In order for this to hold true, I encourage Administrator 
Fugate to ensure that his straightforward message translates 
into efficient and speedy processes for providing reimbursement 
of costs incurred in allowing for quick repair of public 
facilities and infrastructure. We will also add our voice in 
asking for our request for community disaster loan forgiveness 
to take place. It is more important than ever.
    In closing, I would like to mention a special project. 
Hurricane Isaac closed the St. Tammany fishing pier just a few 
months after the first phase was opened. Both the pier and the 
new road leading to the pier were heavily damaged. As you know, 
this pier was being built from the remains of the twin spans 
after Hurricane Katrina destroyed the bridges.

                           PREPARED STATEMENT

    The pier was a testament to the resiliency of our citizens 
after Hurricane Katrina made its final landfall in eastern St. 
Tammany. In partnership with many private and public agencies, 
we turned a symbol of destruction into a celebration of 
community. I am asking today that you help us find the means to 
rebuild our pier as quickly as possible. Tens of thousands of 
citizens across the region will thank you.
    And I thank you for the time today.
    [The statement follows:]
                   Prepared Statement of Pat Brister
    Good morning Senator Landrieu. Thank you for your support during 
our times of crisis and for convening this hearing this morning.
    Hurricane Isaac brought a storm surge between 7 and 10 feet across 
St. Tammany Parish as well as 15 to 20 inches of rain. St. Tammany 
experienced flood conditions on every river in the parish from the 
Tchefuncte to the Pearl. These rivers and bayous could not drain into 
Lake Pontchartrain due to its high level from the storm surge. Over 600 
residents who chose to shelter in place had to be rescued by first 
responders. Attached is a Hurricane Isaac snapshot which provides 
further details regarding the response to Isaac and its effects on our 
community.
    St. Tammany Parish is not the only community on Lake Pontchartrain 
that suffered devastating effects from Hurricane Isaac. We are part of 
a much larger ecosystem, the Lake Pontchartrain Basin.
    Every parish surrounding Lake Pontchartrain must come together to 
find a solution to flooding in the basin. It must be a plan that 
protects our citizens and does not put our neighbors in jeopardy, be 
that our neighbors in Lake Maurepas or our neighbors in Bay St. Louis.
    The citizens of St. Tammany Parish understand how tight tax dollars 
are. We also understand that we must get the most out of every dollar 
entrusted to government. There is a solution to flooding in Lake 
Pontchartrain that is far less costly than building huge levees along 
every square inch of lakefront property. Flood control at the Rigolets 
Pass provides the most ``bang for the buck'' or ``cost-benefit ratio'' 
for the million citizens who live adjacent to Lake Pontchartrain and 
are subject to flooding from surge.
    Isaac also showed us the dangers of failing to maintain flood 
control structures already in place. While Isaac was still making its 
way through southeast Louisiana, I was notified of the imminent failure 
of lock No. 2 at the Pearl River Navigational Canal located near Bush 
in northeast St. Tammany necessitating the immediate evacuation of over 
1,200 homes. But for the courageous actions of our own Public Works 
employees in opening the valves and reducing the water levels in the 
lock, hundreds of homes may have been washed away and thousands of 
lives put in peril.
    I would also like to thank General Peabody of the Mississippi 
Valley District Corps of Engineers for his response to the failure of 
lock No. 1 and his decision to allow parish personnel to adjust water 
levels at the lock. Thankfully, the crisis was averted and the General 
has pledged that the structural integrity of the lock will be restored 
and maintained.
    Hurricane Isaac provided a triple threat from storm water. In 
addition to surge from the lake and the failure of lock No. 2, the 
eastern side of the parish was under an apparent threat of catastrophic 
flooding from the Pearl River. The National Weather Service projected 
the Pearl to crest at historic levels potentially flooding 5,000 homes. 
The timing of the crest and potential for flooding as forecast by NWS 
changed and ultimately the predictions of massive flooding did not 
occur.
    Unreliable forecasting and predictions by our country's lead 
weather agency is unacceptable. I am therefore calling for a joint task 
force made up of Federal, State, and local experts to study the Pearl 
River Basin and model the effects of differing storm events in the 
basin based on current conditions.
    I think that we all can agree that the safety of our citizens is 
our foremost goal when preparing and responding to severe weather 
events. Local officials must have accurate information which they can 
rely upon in order to make decisions during times of emergency. There 
is no place for political boundaries in the fight against storm water. 
Just as storm water crosses parish and State lines, a successful storm 
water management plan must cross those lines so that it will serve us 
all.
    While we are working to find a long-term solution to the threats of 
surge and riverine flooding, there are smaller steps that we can take 
today to mitigate against future flood damage.
    The post-Katrina building elevation mitigation programs have made a 
substantial reduction in both the number of flooded structures and the 
dollar value of flood damage in St. Tammany. Raising flood prone 
structures works in St. Tammany Parish by reducing future flood 
insurance claims. We are asking that this program be continued and 
expanded in St. Tammany.
    St. Tammany Parish invests millions of local tax dollars each year 
on storm water mitigation projects. We have been trying for many years 
to participate in the SELA program. The W-14 drainage project has been 
in Army Corps of Engineers system for over 15 years and is still not 
funded. This project is too large for local dollars and we need Federal 
partnership in this endeavor. Over $14 billion has been spent in the 
past 7 years on levee protection for the south shore but we have not 
been able to get a single project funded in St. Tammany Parish. We are 
also asking that funding be dedicated toward moving these SELA projects 
forward.
    I would like to take this opportunity to thank FEMA Administrator 
Craig Fugate. He has pledged a fair and swift decisionmaking process 
post-Isaac and we appreciate his forthrightness and his candor. We are 
hopeful that our recovery from Isaac is smoother than prior disasters. 
In order for this to hold true, I encourage Administrator Fugate to 
insure that his straightforward message translates into efficient and 
speedy processes for providing reimbursement of costs incurred and 
allowing for quick repair of public facilities and infrastructure.
    In closing, I would like to mention a special project. Hurricane 
Isaac closed the St. Tammany Fishing Pier just a few months after the 
first phase was open. Both the pier and the new road leading to the 
pier were heavily damaged. As you know, this pier was being built from 
the remains of the Twin Spans after Katrina destroyed the bridges.
    The pier was a testament to the resiliency of our citizens after 
Katrina made its final landfall in eastern St. Tammany. In partnership 
with many private and public agencies, we turned a symbol of 
destruction into a celebration of community. I am asking today that you 
help us find the means to rebuild our pier as quickly as possible. Tens 
of thousands of citizens across the region will thank you.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Landrieu. Thank you, Parish President Brister.
    Let us move to Garret Graves.
STATEMENT OF GARRET GRAVES, CHAIR OF THE COASTAL 
            PROTECTION AND RESTORATION AUTHORITY OF 
            LOUISIANA, AND EXECUTIVE ASSISTANT TO THE 
            GOVERNOR FOR COASTAL ACTIVITIES
    Mr. Graves. Thank you, Madam Chair, Senator Vitter, and 
Congressman Richmond. Appreciate the opportunity to be here 
today. My name is Garret Graves, and I represent the Coastal 
Protection Restoration Authority (CPRA) of Louisiana.
    First, Madam Chair, I would like to thank FEMA, COE, and 
the National Oceanic and Atmospheric Administration for their 
assistance in embedding in the emergency operation center in 
Baton Rouge during Hurricane Isaac. I think it was the most 
effective disaster response in regard to communication and 
coordination that I have been involved in. Administrator Fugate 
and General Peabody personally served on behalf of their 
agencies to ensure that all resources were in place, such as 
pre-positioning resources, providing technical assistance, and, 
of course, providing forecast and predictions regarding the 
storm's impacts in Louisiana.
    You made a point in your opening statement with regard to 
mitigation. You indicated the study that was done that showed 
for every $1 we invest in mitigation, you have $4 in benefits. 
And I am sure you recall the Congressional Budget Office also 
did a study that indicated there were $3 in savings for every 
$1 invested. General Arnold, I heard him give a very energetic 
speech years ago where he said that he believes that it is in 
excess of $10 for every $1 invested in south Louisiana. Of 
course, I ran up to him after that speech and asked him for the 
citation of that, and he said, oh, I made that up.
    But he said, but I believe it. And I think that in south 
Louisiana, Madam Chair, that it is case in point looking at the 
FEMA dollars that you indicated that have been spent in our 
State just over the last several years.
    Another good example is a hurricane protection system, and 
I would like to thank the subcommittee, the members here, and, 
of course, COE for the work that was done there. Without the 
hurricane protection system, the work that was done, I have no 
doubt that your subcommittee would have been challenged with 
coming up with hundreds of millions of dollars in additional 
funding to compensate for the re-flooding in the New Orleans 
area from the same areas that flooded as a result of Hurricane 
Katrina.
    The Inner Harbor navigation canal surge barrier alone hit 
an excess of 14 feet of water stacked up against us, which 
would have gone in and flooded areas of New Orleans and areas 
of St. Bernard Parish, which of course was prevented. More 
importantly, lives were saved. So once again, I want to say 
thank you to COE and thanks to our delegation for your efforts 
in securing those dollars.
    But, importantly, as other members of this panel have 
discussed, outside the levee system it is a tale of two cities. 
We have heard the discussion in the communities of LaPlace, 
Lafitte, Braithwaithe, and other areas of Plaquemines Parish 
that have experienced extensive flooding. Taking those apart, 
and the members discussed this, the west shore project has been 
in the study phase for 4 years. Lafitte has had an 
authorization dating back to the early 1990s for a number of 
continuing authorities projects that were consolidated into a 
$100 million hurricane protection project in 2007.
    The Lake Pontchartrain barrier dates back to the 1960s. Of 
course the protection was provided for the south shore, but you 
still had vulnerabilities on the north shore and west shores 
that have not been addressed. And then moving over to the west, 
you have other bad examples, like the Morganza to the Gulf 
project, which has been in the study phase for 20 years with an 
excess of $70 million spent, none of that on construction.
    To quote General Arnold once again, it seems that we are 
stuck on stupid. This is an academic exercise, and it is like 
someone who is in college and just a career student. At some 
point you have got to step out in the real world and actually 
get a job. And I feel like this academic exercise of studying 
is like being stuck in that career student situation.
    Funding is important, and COE certainly needs more funding. 
Madam Chair, you address the real dollar decrease in COE 
funding that we have seen over the last several years. And it 
is important to provide the additional funds to COE. But I 
think importantly, we cannot just pour additional dollars into 
the broken system.
    There was an alternative system that you guys set up for 
delivery of the hurricane protection system, and I think when 
you compare and contrast the delivery, the effectiveness of 
that approach as compared to the traditional approach that COE 
is performing the west shore project on, Lafitte, Morganza to 
the Gulf, and others, I think that you will see that you can 
generate much more cost savings by taking a more efficient 
approach. And there are other models that are out there--the 
Coastal Wetlands Planning, Protection, and Restoration Act 
(CWPPRA) process and SEAP. Pre-disaster mitigation run by FEMA 
perhaps could be expanded to improve upon the process.
    I do not want to give COE a free pass here. I think that in 
many cases, they have made the job harder upon themselves by 
simply not following the law or getting stuck in dulu in some 
situations. Colonel Fleming often notes that the State and COE 
have a love-hate relationship, and I think that I agree with 
that. COE loves to slow us down and make things more expensive, 
and we hate it. And we have got to fix that.
    The subcommittee seems interested in the relationship 
between the local governments, the State, and the Federal 
Government. And I think it is really important to take a look 
at that. Right now under existing law, the State and levee 
districts pay one-half the costs for all planning, engineering, 
and design. On the construction side, we pay 35 percent of the 
costs, but then, importantly, we pay 100 percent of the life 
cycle costs: the operations, maintenance, repair, 
rehabilitation, and replacement. And we also pay 100 percent of 
the costs for the smaller projects that often fill the gaps or 
do not meet the benefit-cost ratios, cost-of-effort ratios 
discussed earlier.
    Over the last 5 years, we have committed collectively--the 
levee districts, the parishes, and the State--unprecedented 
levels of funding. In fact, exponentially higher than at any 
other time in history. In addition, the State has fundamentally 
changed its organizational structure in establishing the CPRA 
as an implementation body. As a result of that, outside the 
hurricane protection system, we have built more miles of 
levees. We have protected more citizens, and we restored more 
per square miles of our coastal wetlands than any other time in 
our State's history.
    But we are still not getting ahead, and that largely goes 
back to the sustainable management of our resources in south 
Louisiana. Right now, Madam Chair, as you are aware, we have 
lost 1,900 square miles. We are losing today 16 to 20 square 
miles of land per year as a result of the management--the 
Federal management of the lower Mississippi River system.
    We can spend--we can tax ourselves to the tune of billions 
of dollars in south Louisiana, and we can develop the most 
efficient process in the world. But until COE manages the lower 
Mississippi River system in a sustainable manner, it is going 
to be difficult for us to get ahead.
    I heard discussion earlier about the modified Charleston 
method of mitigation where COE is coming in and requiring 
others to mitigate wetlands, maybe two or in excess of two 
times the actual impacts that they cause. Yet COE is in a 
hypocritical situation in that they are the cause of the 
largest rate of wetlands loss in the Nation.
    Madam Chair, the last thing I just want to make reference 
to is the oil spill. Prior to the hurricane, we had been in 
discussions with BP and the Coast Guard about trying to get 
them to clean up some additional layers where we knew there was 
oil. There are a million barrels of unaccounted oil in the Gulf 
of Mexico today, four or five times all that was spilled in 
Valdez.
    BP was trying to move areas out of response, saying they 
were clean and no longer under threat of re-oiling. Yet our 
nightmare came true with Hurricane Isaac with the re-oiling 
that occurred everywhere from St. Bernard Parish on over to 
Lafourche Parish with, of course, in excess of 1,000 miles of 
tidal shoreline in between.
    As in the oil spill where BP is going to pay one way or 
another, I think the Federal Government is going to pay one way 
or another. If we can get ahead of the problem and make 
proactive investments like in the hurricane protection system--
sort of like in the hurricane protection system where 
communities are protected--or we can come in after the fact and 
spend exponentially more FEMA dollars on disaster response 
where you have disrupted communities, disrupted families as 
opposed to sustainable, resilient communities.

                           PREPARED STATEMENT

    And I thank you for the opportunity to speak, and I, of 
course, would be happy to answer questions.
    [The prepared statement follows:]
                  Prepared Statement of Garret Graves
    Thank you for the invitation to testify today on behalf of the 
Coastal Protection and Restoration Authority of Louisiana and the 
citizens of our State. We appreciate the opportunity to share 
Louisiana's perspective on disaster preparedness, response and 
recovery. Unfortunately, in recent years, Louisiana has become quite 
experienced in these fields.
    Over the last 7 years, Louisiana has been hit by Hurricanes 
Katrina, Rita, Gustav, Ike, and Isaac. In 2010, our State experienced 
the worst oil spill in our Nation's history, which continues to this 
day and has ramifications that could last for many years to come. And, 
in 2011, record high water on the Mississippi River system challenged 
flood protection systems statewide--yielding one of the largest flood-
fighting efforts in Louisiana's history.
    Local and State communication and coordination have improved to 
unprecedented levels. Senior Federal Emergency Management Agency 
(FEMA), National Oceanic and Atmospheric Administration (NOAA), and 
Corps of Engineers (Corps) representatives were fully integrated into 
our Emergency Operations Center in Baton Rouge for Hurricane Isaac. 
From my perspective, Hurricane Isaac emergency response efforts among 
all levels of government improved to some of the most efficient 
processes we have seen. For this, we thank our local, Federal partners, 
and the many volunteer and NGO services that were provided.
    FEMA worked with Louisiana's Homeland Security and Emergency 
Preparedness Office to pre-position resources needed in Hurricane 
Isaac's aftermath. Though the hurricane was somewhat volatile in regard 
to models and trajectory, NOAA's forecast tools helped to inform flood-
fighting efforts, evacuation orders and deployment of recovery 
resources prior to landfall. Still, the State of Louisiana renews its 
post-Katrina request for NOAA, in cooperation with other Federal, 
State, and local government representatives, to develop improved storm 
prediction and communication tools. The Saffir-Simpson hurricane 
category scale is based upon only a single storm characteristic--wind 
speed. Many other factors contribute to risks associated with a 
specific tropical event. Storm surge, storm speed, landfall trajectory, 
barrier islands, shoreline slopes, near-shore topography, vegetation, 
ridges, cheniers, roadways, levees and other factors are considerations 
when determining risks associated with a particular storm upon impacted 
communities. Threats from slower moving storms, like Hurricane Isaac, 
are often lost upon the public due to the lower Saffir-Simpson rating.
    NOAA's Sea Lake and Overland Surges from Hurricanes model (SLOSH) 
and the Advanced Circulation (ADCIRC) used by the Corps each help to 
inform emergency managers. But that information can serve a more direct 
and useful purpose if it can be properly translated into language the 
public can understand--and clearly in an emergency the public craves 
that kind of information. Properly tailored, this information will help 
to save lives. We look forward to working with NOAA to develop improved 
tools to inform the public of the threat posed to them by an 
approaching tropical event.
    The Corps of Engineers worked with State and local officials to 
assist on technical recommendations and resources related to flood-
fighting and dewatering operations. The Corps also assisted in 
supplying a portion of the portable pumping plants used post storm.
    We do want to highlight an important achievement--the performance 
of the greater New Orleans Hurricane Protection System (HPS). An 
estimated 14 feet of water stacked up on the Lake Borgne Surge Barrier 
alone. While Hurricane Isaac clearly did not test the limits of the 
HPS, the system prevented flooding and saved lives during Hurricane 
Isaac. I believe that FEMA saved hundreds of millions of dollars in 
disaster response costs from Hurricane Isaac due to the repairs and 
revisions performed to date on the HPS. We thank you for helping to 
ensure that much of the HPS work has been funded to date and strongly 
urge that you provide the resources and oversight to finish the job and 
get it done right this time.
    It is essential to note that a number of the witnesses testifying 
before you today believe that the repairs and revisions to the HPS 
induced flooding in their communities--such as the north and west 
shores of Lake Pontchartrain, the Lafitte area, and the West Bank of 
Plaquemines Parish. A full analysis must be conducted to determine and 
address any adverse impacts of this work. We appreciate the Corps of 
Engineers' efforts to closely study the impacts of Hurricane Isaac to 
determine any flood implications of the HPS on these important 
communities. The Water Institute of the gulf has also been engaged to 
provide independent review and analysis of the Corps' study effort.
    The CPRA must identify a growing concern regarding the management 
of the HPS that threatens the performance of the system in future 
storms. Recently, the Corps of Engineers has determined that it will 
transfer operation and maintenance of small segments of the HPS to the 
CPRA and levee districts rather than waiting for completion of actual 
projects or polders. Attempting to coordinate the management of 
adjacent polder or project segments of a levee or floodwall during a 
disaster by different organizations is entirely contrary to proven 
disaster management principles and contradicts on the record statements 
of senior Corps officials. This change in Corps policy is a dangerous 
precedent that could be expanded to other areas of the country. 
Congress should provide strict guidance to the Corps on the transfer of 
responsibility for completed projects that are designed holistically to 
provide independent function or utility to ensure consistent management 
of protection infrastructure.
    Hurricane Isaac confirmed two other important points. First, the 
storm demonstrated that relatively weaker hurricanes can still cause 
extensive destruction, flooding and even death. Second, Hurricane 
Isaac, once again, proved that the continued loss of our coastal lands 
and wetlands increases the flood risk of our communities. The evidence 
is empirical: towns that have been around for hundreds of years such as 
Lafitte, Braithwaite, LaPlace, Madisonville, and Slidell all flooded 
during Hurricane Isaac. The Gulf of Mexico has now replaced the 1,900 
square miles of coastal lands and wetlands that have eroded, moving the 
gulf that much closer to our populated areas that have sustained 
centuries of tropical storms and hurricanes. A significant portion of 
our wetlands buffer is now gone.
    I have heard many senior Federal agency officials and Members of 
Congress from outside of Louisiana say that the Federal Government 
simply cannot afford to fund projects to protect and restore Louisiana. 
The facts, common sense, and sound fiscal policy prove otherwise. Every 
consumer in the country has a stake in coastal Louisiana. One example 
is national energy implications of disasters in Louisiana. A few days 
after Hurricane Isaac made landfall, gasoline prices spiked an average 
of 25 cents/gallon nationwide. This translates to consumers paying an 
extra $100 million a day in higher gas prices. Following Hurricanes 
Katrina and Rita in 2005, consumers paid an estimated $300 million a 
day in higher gasoline prices and the 2008 hurricanes (Gustav and Ike) 
caused consumers to incur over $500 million a day in higher prices to 
fill their gas tanks.
    In recent years, over $100 billion in disaster efforts in Louisiana 
have been administered by FEMA and other Federal agencies. In just the 
last 10 years, a fraction of this amount could have been proactively 
invested in hurricane protection, flood control and coastal restoration 
projects in Louisiana--saving over 1,000 lives, preventing the 
displacement or evacuation of over 1 million Louisianans and protecting 
hundreds of billions of dollars in economic activity and infrastructure 
in south Louisiana.
    The Congressional Budget Office determined that every $1 invested 
in proactive disaster mitigation efforts results in $3 in cost savings. 
A report for FEMA developed by the National Institute of Building 
Sciences found that up to $4 in benefits resulted for every $1 in 
hazard mitigation. We believe that the Federal Government would realize 
even higher rates of cost savings and benefits from proactive hurricane 
protection and coastal restoration investments in Louisiana.
    Again, the performance of the HPS during Hurricane Isaac 
exemplifies the benefits of protection investments. It must be noted, 
however, that the HPS work was performed in response to Hurricane 
Katrina floodwall failures and outside of the normal water resources 
project process. The conventional alternative leaves much to be 
desired.
    While the Corps of Engineers must be commended for their relative 
expediency in conducting repairs and revisions to certain components of 
the HPS, a stark contrast lies in areas outside this levee system. In 
fact, an estimated 90 percent of the flooding that occurred as a result 
of Hurricane Isaac could have been prevented had the command simply 
completed authorized tasks. Let me repeat that for emphasis: an 
estimated 90 percent of the flooding that occurred as a result of 
Hurricane Isaac could have been prevented had the Corps of Engineers 
simply completed tasks previously authorized by Congress, 
authorizations that the Corps either ignored or failed to complete. I 
can cite many examples, such as the West Shore project, first 
authorized for project development in 1971. The project has been in the 
Corps' ``study phase'' for over 40 years. Had the project been 
constructed thousands of homes would not have flooded and flooding of 
Interstate 10 and U.S. Highway 61 could have been prevented. Flooding 
of these vital thoroughfares severed vital conduits for emergency 
response and recovery operations.
    Several hundred million dollars for flood protection efforts in 
Plaquemines Parish have sat in Corps' construction appropriation 
accounts dating back to 2005 and 2006 with virtually no construction 
activities since that time. As you know, many areas of Plaquemines 
Parish were flooded by the hurricane. Congress authorized the 
consolidation and construction of several Corps flood protection 
projects (section 205 projects) in the Lafitte area in 2007. The Corps 
has not taken any action to protect these residents despite repetitive 
flooding over the last several years--each requiring millions of 
dollars in FEMA aid. Dewatering efforts in Lafitte continued for 
several days following Hurricane Isaac.
    Every single parish in south Louisiana has an ongoing, bad example 
of Corps' delays and sky-rocketing costs. The southwest study 
(Calcasieu, Cameron, and Vermilion Parishes) is on track to be 5 years 
late in developing a final plan for coastal restoration and hurricane 
protection. Congress authorized the construction of a portion of the 
Morganza-to-the-Gulf hurricane protection project several years ago and 
authorized construction of the entire project twice. Despite these 
repeated authorizations, the Corps has spent over $70 million and 20 
years studying the project without a single construction activity. 
During this same period, over $1 billion in FEMA and Federal disaster 
response funds have been expended in this same area. The completed 
project was estimated to cost $550 million in 2000.
    There is a clear choice here--fund and execute preventative 
measures to reduce the overall cost to U.S. taxpayers, and the pain and 
suffering of the Louisiana residents and business owners impacted; or 
let the necessary protection measures sit in study mode with no end in 
sight.
    Another example is the Mississippi River Gulf Outlet (MRGO) closure 
and restoration report, which was required under Federal law to be 
submitted to Congress by May 2008. Four years later, the reports 
remains incomplete and the Corps threatens to abandon the project 
without a $1 billion ``voluntary contribution'' by the State of 
Louisiana to the project. The Louisiana Protection and Restoration 
analysis and design was due to Congress in late 2007 pursuant to 
Federal law. The Corps provided a response to Congress in 2010 that 
failed to answer a single question posed by Congress. Further, the 
report costs ballooned from the original estimate of $8 million to over 
$26 million. Again, the report was not even remotely responsive to 
Congress or in compliance with numerous Federal laws. Conversely, the 
State of Louisiana worked with parish governments, mayors, community 
leaders, and other stakeholders for 2 years to deliver a 50-year 
coastal master plan that was approved unanimously by the Louisiana 
Senate and the Louisiana House of Representatives.
    In fact, the Corps has failed to comply with a single statutory 
deadline on any work in Louisiana since Hurricanes Katrina and Rita 
over 7 years ago. Over 15 deadlines required under Federal law on 
various proactive plans, reports and projects have been ignored by the 
command with zero accountability. Meanwhile, our State continues to 
flood and erode while FEMA spends billions of dollars reacting to 
hurricanes and flooding disasters. Numerous other misinterpretations of 
the law and regulatory obstacles have impeded State and local efforts 
to protect our citizens and restore our coast.
    These problems are not limited to projects. For example, the Corps 
regulatory program requires private landowners and government agencies 
to mitigate for virtually any adverse impact they cause to wetlands. 
However, the Corps is responsible for the largest historical and 
ongoing wetlands loss in the Nation through their management of the 
Lower Mississippi River system. An estimated 16-20 square miles of 
wetlands are lost each year. In response, the Corps has not mitigated 
for a single acre of this loss. The Corps should lead by example and be 
held to the same standard established for private citizens and other 
government agencies.
    Madame Chair, the arrogance and complete disregard for Congress and 
Federal law by the Corps of Engineers must stop. In recent years, a 
number of new military leaders within the Corps appear to recognize the 
fundamental problems within the command. While these developments are 
cause for optimism, the systemic nature of these problems and the 
bureaucratic resistance to change will require the direct involvement 
of the White House and Congress to solve.
    Importantly, the Corps' impeding actions on State and local 
efforts, project inaction, and their hypocritical position on wetlands 
mitigation do not save the Federal Government money. In fact, they 
actually expose the Federal Government to greater Stafford Act 
liabilities by increasing the probability of homes flooding, of more 
families being displaced, a greater number of businesses being 
destroyed, adversely affecting employment opportunities, causing a 
declining ecosystem and reducing economic activity through business 
interruption. Recent Federal court decisions involving the Corps' 
actions and failure to properly maintain the Mississippi River Gulf 
Outlet have the potential to result in billions of dollars in judgments 
against the Federal Government. Common sense, which the American people 
are more swiftly demanding of our leaders, should lead the Corps' and 
the Federal Government to take preventative measures to prevent 
billions of dollars in damages before future storms have the 
opportunity to create them.
    Madame Chair, these are all symptoms of more fundamental problems.
    History proves that the Federal Government is going to pay one way 
or another. They can make proactive investments to reduce or eliminate 
vulnerabilities or hazards caused by Federal actions or the Federal 
Government can pay exponentially more responding to the death and 
destruction of a disaster.
    To be fair, these problems began years ago and transcend Republican 
and Democrat administrations. Further, it must be noted that there are 
some truly good people within the Corps of Engineers. Many of them 
recognize the dysfunction in the process and want just as much as we do 
to address these issues.
    Still, the entire Federal water resources project development and 
implementation process must be revisited. This full-scale analysis 
should include whether the Department of Defense is truly the most 
appropriate agency to lead the Nation's wetlands restoration and flood 
control efforts to the unique, repetitive and intimate role of Congress 
in water resource projects. A number of other Federal and non-Federal 
project models exist that could result in significant time and cost 
savings.
    These models include the Coastal Wetlands Planning, Protection and 
Restoration Act program, Coastal Impact Assistance Program, Gulf of 
Mexico Energy Security Act, Federal Highway Program, HPS repairs and 
revisions, and other examples.
    Expanding upon FEMA's pre-disaster mitigation program may provide 
another venue for proactive, cost-saving, and life-saving flood 
protection investments.
    Several billion dollars in projects have been identified for 
implementation. These authorized projects have been subjected to years 
of studies, planning, public comment, environmental reviews, and other 
processes. Outside of the post-Katrina HPS repairs and revisions, 
virtually no construction funding has been made available for any of 
these hurricane protection, flood control or coastal restoration 
programs in the last several years. Stakeholders in these authorized 
projects often base fundamental decisions upon the efficient and 
successful implementation of such projects. Decisions such as whether 
to continue living in a newly flood-prone area, whether to elevate a 
home, economic development decisions, public infrastructure investments 
and others are all predicated upon these projects. The uncertainty and 
unpredictability associated with a project in limbo could be even more 
dangerous than not providing protection or restoration at all. Our 
citizens deserve some predictability or certainty on project schedules.
    Our estimates indicate that a newly conceived water resources 
project involving the Corps' process takes in excess of 40 years to 
implement. In south Louisiana, our threatened communities simply do not 
have that kind of time. In effect, the emergency exists today. A 
responsive project development and implementation process must 
correspond to the crisis we face.
    Some have suggested that the States, counties/parishes, and levee 
districts simply fill the void created by the inability of the Corps to 
efficiently deliver projects. While this may seem like a simple 
solution, one must consider several decades of the roles and 
relationship among the various Federal, State, and local water resource 
entities. Historically, the Corps of Engineers funded the entire cost 
of many projects. Cost-sharing by non-Federal entities (State and local 
governments) is already extensive. The non-Federal cost share on most 
Corps-administered projects today is 50 percent for feasibility, 
planning, engineering, and design while construction costs are 35 
percent non-Federal and the entire operations, maintenance, repair, 
rehabilitation, and replacement costs are covered by the non-Federal 
project sponsors (usually States, counties/parishes, cities/towns, and 
levee districts).
    In recent years, State, parish/county, cities/towns, and levee 
districts have had increasing financial liabilities associated with 
Federal water resource projects, including more stringent project 
inspection requirements, expensive new levee standards, expanded 
requirements for fee-title real estate acquisitions from unwilling 
sellers and other expenses. Failure to act through attrition is 
unacceptable. These projects must advance. To implicitly add the entire 
financial burden of construction costs on these non-Federal entities in 
addition to other expenses is a serious reversal of decades of water 
resource policy that requires several years of financial and technical 
transition planning. Further, it is noteworthy that all federally 
authorized projects must go through a robust economic evaluation to 
ensure that the benefits of a project outweigh the costs--justifying 
Federal investment.
    In Louisiana, the State has a constitutionally protected revenue 
stream to invest in restoration and protection projects. Further, 
Governor Jindal and the Louisiana Legislature have invested more 
dollars in hurricane protection, coastal restoration, and flood control 
over the last 5 years than any prior 20-year period in our State's 
history. In total, the CPRA, together with our levee districts have 
administered nearly $2 billion in hurricane protection, flood control, 
and coastal restoration efforts. Additionally, many of our communities 
have voted to impose both property tax and sales tax on themselves to 
help fund hurricane protection and flood control efforts. Our Governor, 
Legislature, and citizens have taken these bold steps despite the fact 
that we did not move to the disaster or vulnerability. Rather, the 
disaster moved to us as a result of Federal actions such as levee and 
river management on the Lower Mississippi River System.
    Even if our citizens were to tax themselves billions of dollars a 
year, we would still not be able to offset the ongoing losses of up to 
20 square miles per years of coastal wetlands loss caused by the Corps' 
and their refusal to mitigate their actions. The first step in a 
sustainable Louisiana is sustainable management of the coastal area by 
the Federal Government. In the fall of 2010, President Barack Obama 
established the Gulf of Mexico Ecosystem Restoration Task Force. The 
task force was charged with developing a strategy for the resiliency of 
gulf coast communities and the gulf ecosystem. The December 2011 
strategy identified a number of reforms that must be enacted to stop 
the ongoing damage and increasing vulnerabilities to Louisiana's 
coastal area. Unfortunately, no action has been taken on these 
recommendations to date. One of the most important actions Congress 
could take would be to require the Corps of Engineers to carry out 
their actions in a sustainable manner thereby stopping the net growth 
of hurricane-vulnerable citizens and allowing restoration projects 
implemented to result in a net gain of restored wetlands rather than 
simply offsetting ongoing losses attributable to the Corps and the BP 
oil spill.
    Noting the subcommittee's jurisdiction, I would be remiss without 
mentioning your recent letter to the U.S. Coast Guard regarding BP's 
failure to locate and clean oil in and near Louisiana's shoreline and 
other concerns. The State and parishes appreciate you raising these 
concerns to the Coast Guard and strongly urge you to continue pushing 
BP to fully comply with the Oil Pollution Act of 1990 and remove the up 
to 1 million barrels that are estimated to remain in the Gulf of 
Mexico. This amounts to four or five times the volume spilled during 
the entire Valdez disaster.
    While BP denied the existence of additional oil, our concerns were 
affirmed when large oil mats and tarballs were exposed or re-suspended 
as a result of Hurricane Isaac. The proof could not be any more clear. 
Some of the very areas that experienced extensive re-oiling during the 
hurricane are the same areas that BP was pushing to remove from active 
cleanup operations just prior to the storm. The only successful clean 
up performed by BP is their $100 million whitewash campaign being 
perpetrated on the citizens of this country subjected to BP's extensive 
media campaign. While beaches in Florida, Alabama, and Mississippi have 
regular oil spill patrols provided by BP to remove tarballs, the 
company has refused to provide any type of comparable patrols in 
Louisiana despite our State receiving more oil on our shorelines than 
all of the other States combined. Further, when oil hits a beach, it is 
simply scraped away. When oil penetrates our coastal wetlands, tides, 
winds, and currents push the oil deeper into our wetlands where removal 
practices usually just leave the oil there to slowly degrade over years 
as it has a much longer term and greater environmental impact on some 
of the most productive ecosystems in the Gulf of Mexico. BP must be 
held fully accountable for oil removal without any further dependence 
upon the Federal treasury, State coffers, parishes, or taxpayers as 
required under Federal law.
    Finally, Madame Chair, we want to thank you and your colleagues for 
taking the time to hold this important hearing in Louisiana. There are 
numerous lessons to be learned from Hurricane Isaac. The most 
important, of which is that proactive, comprehensive efforts to protect 
our coastal communities and restore our coast is achievable. Louisiana 
is the canary in the coalmine in regard to coastal sustainability. The 
Nation and world are watching to see what fate their States and nations 
can expect in the future. The State together with our parishes and 
levee districts have built or improved more miles of levees and 
restored more acres of coastal wetlands than ever before. We have an 
opportunity to demonstrates success to the world through the 
implementation of the Louisiana Coastal Master Plan. We need a 
functional Federal water resources program to achieve this goal.
    Up to 20 percent of the Nation's maritime commerce, five of the top 
ports in the country, national energy prices, the top fishing area in 
the Continental United States and 2 million of some of the best 
Americans our country has to offer are all dependent upon our joint 
success.
    Isaac taught us that we have the capacity to protect our 
communities. It also taught us that where we don't fund projects--we 
jeopardize the lives and property of our citizens.
    Again, thank you for this opportunity to testify today. I look 
forward to your questions.

    Senator Landrieu. Thank you. Thank you, Mr. Graves. And I 
have asked Neil Malbrough to testify about some new ways, new 
approaches, and some ideas that could expedite some of this 
work and the tremendous challenge before us. Thank you for 
representing an entire industry. We should have a whole panel, 
but, Neil, we think you can do it as well as anyone.
STATEMENT OF ONEIL P. MALBROUGH, PRESIDENT, SHAW 
            COASTAL, INC.
    Mr. Malbrough. Thank you, Senator. Again, I want to thank 
you for allowing me to be here, and I will try to talk about 
and discuss some things where we have not only talked about, 
but have been able to demonstrate some fairly significant cost 
savings and some of the flood control projects that we have 
worked on.
    My experience goes back over 25 years. We have been 
primarily in the coastal protection flood risk-reduction 
business in different places. And we have designed and managed 
the construction of over 15 flood gates now, okay?
    Early on in our process, we were attempting to build flood 
gates similar to what had been built in Golden Meadow and Rose. 
We knew we were going to be part of eventually of the Morganza 
to the Gulf project, so we had to build projects that met the 
core criteria. And quite frankly, the first two flood gates 
that were designed and built were built exactly like the Golden 
Meadow gates. They were, what we call, the monolithic type 
sector gates, concrete primarily, built in the channel.
    Later on and in call cases we were using State and local 
funds only. Early on we realized in the Morganza to the Gulf 
there are 13 flood gates. We could not afford to build those 
kinds of gates, so we had to look back and do some things. We 
had to give up convenience. As Tony Alfred would say, we had to 
give up convenience for protection. We knew it was nothing with 
those sector gates. They worked perfect. If we had enough 
money, we would build them all exactly that way. Unfortunately, 
we did not have that.
    So we began looking at other ways of doing that. And we 
have now built five in the system. We are actually building--
right now as we speak, there is a 250-foot flood gate being 
built in the Homem navigation canal. We are building a 200-foot 
bayou in Grand Caillou. And we are designing a 400-foot for 
Bayou Chene. In all of those cases, when the client has been 
driven by economics and can only afford to do certain things, 
the alternative of what we are doing now and what we would like 
to have done if we had all the money in the world, we could not 
do.
    So in every case, in the first five cases, we were forced 
to look at alternatives by the clients, and in all cases they 
selected what we call the steel barge gates. And all of them 
are publicly bid. The COE build is publicly bid. So the 
question is, why are they publicly bidding something, and we 
are all doing the process, and hear every day talking about 
building things--building more for less. And I am going to use 
the phrase loosely.
    So I have tried to do that, and I have tried to look back 
at what we have done in the 15 gates that we have done, and 
decide how did we get to these cost savings, and what has been 
driving that. I have come up with 10 things, and I will go 
through them real quick like.
    We always look at the least-cost alternative at each design 
phase as we go. We openly discuss that, and the client, the 
engineers, and the public are well aware of the decisions that 
we make at every one of those stages. Always do that. Not do it 
when we can, do it when we want. We always do that.
    We always break the bid documents in areas of local 
expertise. We have driven--because we were using in some cases 
local money, we tried to build it with local funds. We have to 
publicly bid. We cannot restrict it to local people. But in our 
area, we have grown up in the oil patch. We have everything in 
the oil patches built out of steel, so we have expertise in 
industries, contractors, and people. So we have designed our 
projects around that local expertise, and we are here to say 
that in the case of the Homem navigation canal, the $50 
million, about $32 million of that is actually being spent in 
Terrebonne by Terrebonne contractors, building something that 
meets the core criteria for the particular application. So we 
always do that.
    We minimize the amount of bids, but always stay in what we 
call the contractor's experience. We make sure that there are a 
number of contractors who can bid specifically on what we do.
    Always construct the best available alternative with the 
dollars at hand. Again, a very important component because we 
do not design a project outside the limit of the client. We are 
building the Homem navigation canal, as an example, where there 
are hydraulic pumps, there are backup pumps. The funding was 
there to build it right.
    When we first built the first one in Petit Caillou, we did 
not have that. There was no automatic hydraulic systems. There 
was no pumping system to de-water and flood the system. We used 
gravity. We opened the sea chest and sunk the barge. We had 
four hand-operated winches closing the gate. Later on as the 
levee district funding came in place, we converted those hand-
operated winches to automation. Now we have some elaborate 
system on some of the gates. But the idea was if we try to 
build a Cadillac, we do not have enough money, and having 
nothing there is the worst thing that could happen. So in all 
cases, we force ourselves to drive to that.
    We tried to maximize wet construction instead of dry 
construction. Staying away from coffer dams and bypass 
channels, and all the systems that go there just dried the 
costs. When you look at the monolithic gate, there is a 
significant amount of construction that goes in the facility 
that leaves when the job is finished. So, the oil field has 
always been built on wet construction, and we try and eliminate 
dry construction whenever we can. In some cases, you cannot do 
away with it, but in 99 percent of the cases you can.
    We try to maximize yard fabrication components in that 
construction. It is much cheaper to build in a yard and bring 
it to the site. If you noticed the 13 sites in Morganza to the 
Gulf, all are at remote sites. In the case of the Homem 
navigation canal, there is not even a road to get there. Grand 
Caillou, there is no road.
    So we design the projects around yard fabrication 
components that were brought to the site. If you look in the 
pictures that I gave you all--I gave you all this book--the 
last picture shows the big Homem navigation canal. But the idea 
there is the buttress or the construction of the flood gate was 
actually built the way they build offshore platforms, built at 
Gulf Island, loaded on a barge, built with a derrick barge and 
sided, and matched to the site. Those techniques are what is 
being done.
    [The referenced picture book was not available at press 
time.]
    So when you look at those techniques, we can tell you that 
if we publicly bid, levees were about 33 to 50 percent cheaper 
by using the State process. On flood gates, we are somewhere 
between 50-85 percent cheaper by using barge gates instead of 
the sector gates.
    The process, the policies, the manuals, do not allow that, 
but if you look at the first picture of the flood gate, which 
is that monolithic, and you look at the third picture there, 
you will see both of those gates are 12 feet high. Both of 
those gates have a 56-foot opening. And both of those gates 
have a minus 8-foot seal. When the gates are open, the 
navigation and the channel are exactly the same. The difference 
is that one costs 25 percent of the other one.
    So what we are talking about is building more for less. If 
we had four times the money that we had, we would always build 
the gate, the first pictures. The idea is that you build to 
suit the project and to build what you can.

                           PREPARED STATEMENT

    So that is what I am here to say. And the process, we are 
doing it now. We are doing it in a number of locations. And I 
think we have got to implement--we have got to build more for 
less because the dollars, as you know, are tighter and tighter.
    [The statement follows:]
                Prepared Statement of Oneil P. Malbrough
    I'd like to first begin by thanking Senator Landrieu and the 
subcommittee for allowing me to testify today primarily to discuss some 
of the ways we have been able to demonstrate some fairly significant 
cost savings while designing, building and mitigating for flood 
protection, risk reduction, and hazard mitigation projects in coastal 
Louisiana.
    My name is Oneil Malbrough and I am president of Shaw Coastal, Inc. 
(Shaw Coastal), which is a civil, coastal and environmental engineering 
firm located within the commercial State and local segment of Shaw's 
environmental and infrastructure division. Shaw Coastal has been in the 
design and engineering business for 25-plus years and has worked on 
many of the flood risk reduction projects in Ascension, Iberville, 
Jefferson, Plaquemines, Orleans, Lafourche, Terrebonne, St. Mary, and 
Iberia Parishes. We have worked on the design and construction 
management of 15 different size floodgates and saltwater intrusion 
structures in coastal Louisiana and are presently managing the 
construction of a 250' wide floodgate in the Houma Navigation Canal, a 
200' wide floodgate in Grand Caillou Bayou and we are designing a 400' 
wide floodgate in Bayou Chien. A listing of these structures we have 
completed and/or are working on are as follows:
  --Bayou Petit Caillou Auxiliary Structure;
  --Lower Bayou Dularge Floodgate Structure;
  --Humble Canal Floodgate Structure;
  --Walnut Street Floodgate Structure;
  --Bayou Black Floodgate Structure;
  --Company Canal Saltwater Intrusion Structure;
  --Bush Canal Floodgate Structure;
  --Placid Canal Floodgate Structure;
  --HNC Floodgate Structure;
  --Bayou Grand Caillou Floodgate Structure;
  --Bayou Lafourche Saltwater Intrusion Floodgate (in Bidding Phase);
  --Bayou Petit Caillou Flood Gate Structure (in Design Phase);
  --Four Point Bayou Floodgate (in Design Phase);
  --Bayou Chene Floodgate Structure (in Preliminary Design Phase);
  --Freshwater Bayou By-Pass Channel Structure (Preliminary Design 
        only).
    In addition, Shaw Coastal has designed and managed a significant 
amount of flood control levees, some of which have been designed to 
meet Corps, State and local design criteria. In light of this 
experience we feel that we have a significant amount of experience in 
designing, bidding and managing the construction of flood control 
projects, both pre- and post-Katrina, and we hope our testimony will be 
helpful.
    What I would like to talk to you about today is how we are 
presently designing and building projects in a manner that allows for 
cost savings, while still delivering a project that meets the 
appropriate sponsor's design criteria.
    To summarize, we:
  --Always include ``least cost'' alternatives at each design phase 
        with constructability in mind.
  --Always break down the bid documents in areas of ``local'' 
        expertise. Minimize the amount of bids but stay in the 
        available contractor's experience. Always try to receive as 
        many qualified bids as possible, and structure contracts to 
        allow smaller local contractors whenever possible to reduce per 
        diem costs.
  --Always construct the best available alternative with the dollars at 
        hand. In other words, ``Don't design a project outside the 
        limits of the client'' or as TLCD President Alford would say, 
        ``give up convenience for protection''. For example, most of 
        the structures that are only closed once a year do not have 
        automation. These are operated manually by opening and closing 
        valves significantly reducing the costs.
  --Try to maximize wet construction techniques in lieu of 
        ``construction in the dry'' techniques. Always compare steel to 
        concrete, whenever possible and always stay away from 
        cofferdams, whenever possible.
  --Maximize yard fabrication components in lieu of building in the 
        field.
  --Minimize the risk to contractors. When risk is unavoidable, allow 
        the owner to absorb as much as possible in lieu of adding cost 
        to the project. For example, contractors are paid on actual cut 
        of material moved or dredged to reduce their risk from material 
        settling during construction.
  --Minimize change orders.
  --Use standard engineers cost curves in establishing engineering fees 
        and minimize construction management cost and field changes.
  --Always use side cast borrow for levee construction whenever 
        possible and in most cases even if you have to double handle 
        it.
  --Minimize hauling distances when using hauled in fill and get annual 
        hauled in prices whenever possible.
    If these processes are forced into the design and bidding 
processes, then the cost will come down.
    Our experience has shown us that comparative locally bid prices for 
levee fill has ranged from 33 percent to 50 percent less for hauled-in 
fill and over 50 percent less for side cast borrow fill. Our experience 
has also shown us that when building floodgates across navigable canals 
and channel we can build our ``steel swing barge'' floodgates for 35 
percent to 85 percent less than the conventional monolithic type sector 
gates depending on the size requirements and floodwall lengths.
    In closing, if these type ``reduced cost'' features can be included 
in our hazard mitigation projects, we should be able to ``build more 
for less'' and move closer to a sustainable coastal Louisiana that 
we're all trying to accomplish.

    Senator Landrieu. Thank you so much. We are going to have a 
round of questions and probably go to about 12:30 p.m., and I 
appreciate your patience. I think this is so very, very 
important.
    I want to underscore two things that I heard. Everything 
was important. But what Garret Graves said, and I think, 
General Peabody, I know that you were listening intently, and I 
think this is a point worth underscoring, that COE is itself 
responsible for a greater wetlands loss than all of these 
parishes sitting at the table when we leveed the Mississippi 
River and the inability of that river to overflow and to create 
the delta.
    COE itself is responsible for significant wetlands loss 
when you look at it from the big picture, not the specifics. 
And so for COE to advocate for very, very steep mitigation 
requirements for other local governments if it does not even 
apply it to itself is a real issue at the very highest of 
policy level, which I intend to bring directly to the President 
of the United States and to the members of the Congress that I 
serve with. Because it is about time that COE itself takes 
responsibility for its impacts to the loss of wetlands in 
Louisiana, and those studies have been well documented from 
every international, independent enterprise that has looked at 
what our bigger problem is.
    Second, the big picture is that we cannot, as a State--it 
is not fair to ask the citizens of Louisiana to bear the entire 
cost or a significant cost for the draining of the entire 
continent. Forty to 50 percent of the continent drains through 
Billy Nungesser's parish and the river parishes. And what does 
not drain through rains through the rivers of the Pearl, the 
Tchefuncte, and the Washita. You could go on and on. I mean, we 
are the bottom of the barrel, and it is just inconceivable that 
the Federal Government's policies would be, well, that is the 
problem for the people of Louisiana to solve. No, it is not.
    Which is why 15 years ago I looked at the pitiful COE 
budget and decided it would be a long time to fix it--I did not 
realize it would be that long--and started to find other money 
through revenue-sharing, and why we fought so hard and 
succeeded in that against all odds, and why we have focused 
recently on passing the RESTORE Act, which you are looking at 
the three of the co-sponsors. And for the first time in our 
Nation's history, we will receive when the BP penalty is paid 
anywhere from $5 billion to $20 billion that is going to be 
invested in the gulf coast with the largest portion of that 
coming to Louisiana.
    So while I recognize, and I am alarmed at, the budget of 
COE, I am not waiting around for it to be transformed. I am 
going to push for it, but we are working on other avenues.
    Now, to you, Mr. Graves, and I let you know that I would 
ask this question because it is very, very important to us. I 
am aware of what the Federal Government has provided, and I am 
going to get to that in just 1 minute here. Since 1990, the 
Federal Government has authorized and funded programs providing 
billions of dollars to our State.
    First, the SEAP money, which is Federal money, came to the 
State for a total of $500 million. CWPPRA, which is again 
Federal money, has provided over $720 million in the last 10 
years. The RESTORE Act, which we just passed, is going to be 
bring anywhere from $2 billion to $6 billion to Louisiana. And 
the Gulf of Mexico Energy Security Act, which was also passed, 
will bring in millions of dollars starting in 2017 unless I can 
get it advanced and the cap lifted, which we are working on.
    In addition, the Federal money to the State has been $14.5 
billion for the system we just talked about. Most of that has 
been obligated.
     What is the State contributing to our master plan? And 
please do not reflect any of these dollars.
    Mr. Graves. Sure.
    Senator Landrieu. What is the State of Louisiana putting 
up, and how much have you put up in the last 5 years?
    Mr. Graves. Sure. Madam Chair, first of all, I think it is 
important to point out that on the hurricane protection system 
dollars, the State has been asked to cost share. We have signed 
agreements cost-sharing $1.8 billion on the hurricane 
protection----
    Senator Landrieu. $1.8 billion that the State has to put up 
of its own money, not using any of this money?
    Mr. Graves. Right now, yes, ma'am.
    Senator Landrieu. You cannot use any of this money. You 
cannot use CWPPRA or RESTORE Act money?
    Mr. Graves. RESTORE Act money possibly. Possibly RESTORE 
Act money. Right now that is not how we budgeted it.
    Senator Landrieu. Okay. If you did not use RESTORE Act 
money, where would you get your $1.8 billion from?
    Mr. Graves. There is a State trust fund that was set up 
that is actually constitutionally protected that draws money 
from State oil and gas revenues.
    Senator Landrieu. How much do you have in it?
    Mr. Graves. The trust fund right now probably has a total 
balance of somewhere around $700 million.
    Senator Landrieu. Is that the rainy day fund?
    Mr. Graves. No, ma'am. No, ma'am. That is the coastal 
protection and restoration fund.
    Senator Landrieu. Okay, $700 million, and that comes from 
where?
    Mr. Graves. That is primarily from oil and gas revenues on 
State lands and waters.
    Senator Landrieu. Okay. So you have $700 million to build 
the master plan. What else?
    Mr. Graves. That is the balance of the trust fund, but we 
have committed about $2 billion in projects over the last 
probably about----
    Senator Landrieu. Out of this trust fund.
    Mr. Graves. Out of the----
    Senator Landrieu. Not any Federal money.
    Mr. Graves. Out of the trust fund. That includes--let me 
think. That does include some corporate dollars. To answer your 
question----
    Senator Landrieu. Well, what I would like you to do is you 
could----
    Mr. Graves. Sure.
    Senator Landrieu [continuing]. Because I really need the 
answer to this question.
    Mr. Graves. Sure.
    Senator Landrieu. I need to know how many State dollars the 
State of Louisiana has put into this master plan of flood 
protection, not CWPPRA dollars, not SEAP dollars, not RESTORE 
dollars, not Federal revenue-sharing, your own hard cash, okay? 
And I need that submitted to the subcommittee.
    Mr. Graves. Sure.
    Senator Landrieu. All right. Let me ask one more question. 
The parish presidents all represented today you all have been 
thinking about and you have testified about how you are going 
to come up with your match. Right now, the match is 25 percent. 
In order to get to a 90/10, the State has to file damage in 
excess of $593 million. We have only filed $168 million, okay? 
We have to get to $593 million to be able to get to 90/10, and 
we have only filed to $168 million. So it is unlikely that we 
will get to a 90/10 match.
    Now, our Governor has sent a public letter asking for 100-
percent reimbursement. Now I want to say on the public record 
the Governor did not help in any way to put money into this 
fund when I asked him for his help. He declined. The fund has 
$1 billion in it thanks to this delegation. He did not help put 
a dime into that fund, but he has asked for 100-percent 
reimbursement from it.
    Do the State parish presidents know that you have the State 
Emergency Response Fund (SERF), which has a balance of $16.5 
million. The FEMA reimbursement fund has a balance--this is 
State money--of $16.5 million. The Inter-Emergency Board Fund 
has a balance of $4.6 million. The budget stabilization fund, 
also known as the rainy day fund, has a balance of $443 
million. I think we had a rainy day on August 29. Would you all 
agree? And last week, the State declared a surplus of $130 
million. So right now today as we sit, the State of Louisiana 
has almost $500 million of unobligated funds.
    Now that you know this, would you be inclined to ask the 
State to maybe put up your 25 percent or your 10 percent since 
your parishes have been hit over and over again, Ms. Brister?
    Ms. Brister. Not only are we inclined to, but I have signed 
a letter to that effect to the Governor.
    Senator Landrieu. Ms. Robottom?
    Ms. Robottom. Yes, we have signed on as well.
    Senator Landrieu. President Young--Mr. Young?
    Mr. Young. Yes, we will ask.
    Senator Landrieu. Mr. Nungesser.
    Mr. Nungesser. Yes.
    Senator Landrieu. Thank you, because that would be a good 
place to start.
    And then I will turn it over to Senator Vitter.
    Senator Vitter. Thank you, Madam Chair. I want to follow up 
with Garret and Neil about COE reform. Both of them mentioned 
ideas in that regard. I have filed legislation to move the 
project around responsibility of many COE projects to the State 
and local government. That is the norm with highways. It is the 
great exception for some reason.
    What do think that could do in appropriate cases to lower 
costs in the timeframe?
    Mr. Graves. Senator, I think that the Morganza to the Gulf 
project is a perfect example and certainly one that Mr. 
Malbrough has a lot of experience in.
    There are rumors going around right now that that project's 
cost estimate could reach numbers as high in excess of $12 
billion. According to protection that the State, the parish, 
and the levee district have come up with, we believe we can do 
it for somewhere around a quarter to a third of that amount, 
saving billions and billions of dollars.
    So I think without question we can cut the time periods 
probably in half if not better, and on the dollars saving as 
much as two-thirds on the project cost.
    Mr. Malbrough. Yes. I agree, too. And my first inkling 
would be the funding structure that the highway department--
Federal Highway Department structure would, in fact, drive 
significantly the thing.
    The other thing is, and I talked a little bit about it in 
my original talk, is innovation. We have got to be able to use 
the construction techniques and things that we can do now that 
we do in most of the construction. And I do not want to get too 
technical, but when you talk about semi-lightweight concrete, 
post inching, and construction, strand post tensioning, and a 
whole bunch of ways that you see this building was built and a 
whole lot of other things, in some cases do not meet that 
criteria. And technically, there is nothing wrong with that, 
and we should be looking at innovative construction techniques 
to do that.
    And then the second thing is that to put in place a degree 
of urgency, the time element to what we are doing. We talk 
about in this we have participated in a number of studies, the 
Morganza to the Gulf feasibility study, the dollars to the gulf 
feasibility study, the Acadian Gulf of Mexico Access Channel 
feasibility study. We watched the west shore--Lake 
Pontchartrain levee district.
    We have got to come up with some kind of system that drives 
the urgency of completing the thing in a timely manner because 
if you get too long, then the community you are trying to save 
has changed. And you end up with things that in some cases do 
not make sense. So we have got to do those three things: a 
funding structure change, innovation, and a degree of urgency 
to that planning effort.
    Mr. Nungesser. Yes. You know, exactly what you are talking 
about, Plaquemines Parish has just bonded out $50 million for 
our coastal plan. And we work with COE. We partner with them to 
get a certified plan. And Craig Fugate wrote a letter that said 
they will recognize this plan once it is in place.
    But the reason we decided to bond out $50 million of our 
money to start the plan, which will lower storm surge 5 feet to 
our parish, is because we believe by leasing a dredge for 3 
years, we are going to cut the costs of moving material, I will 
go out on a limb and say by one-half.
    We go out and do a dredge project, $7 million, $1.5 million 
is mob and demob. We come in, we go out 3 months later 100 
yards from there and do another project. The mob and demob, we 
are spending more money than moving material. So why do we not 
long-term lease these dredges and put them to work on a long-
term basis and get that cost down so we are moving material, 
building land, building protection?
    And I guess if you take all the projects we have done and 
look at the money we have spent putting that pipe in my 
parish--we have put the pipe in four times since I have been 
parish president at a cost of over $2 million, taking it out 
and putting it back in the same place. So we are securing 
right-of-ways and putting pipes in that we will leave there so 
the money can go out in the marsh.
    And, we got welding jobs. We do not need to pay these 
welders to put this pipe in place over and over again. And by 
putting these projects together in the long-term--and we are 
going to show it. By the first of the year, we will have a 
lease on a dredge for 3 years, and we are going to embarrass 
them, hopefully, into doing things in a smarter way and 
spending that money better.
    Senator Landrieu. Yes?
    Mr. Young. Senator, just real quick, I support your effort 
in that regard, and obviously the model is the Federal highway, 
the way we deal with the Federal highway through the State and 
local governments, and we get the highway projects done.
    But in the interim, we know that when COE is in emergency 
mode it can do a lot better than when it is in regular COE 
mode. And I will just point out the example being the western 
closure complex. That is the largest pump station in the world 
that COE got built since Hurricane Katrina, and it is 
operational today.
    So when there is a will, as Congressman Richmond said, 
there is a way.
    Senator Landrieu. And the money.
    Senator Vitter. Thank you.
    Representative Richmond. First of all, let me just thank 
the parish presidents. President Robottom, you came up to DC 
last week to express the needs of the residents of the Parish 
of St. John. John, you were up a couple of days before her, 
and, Billy, you and I have talked. And, Pat, I know what you 
are doing. So just thank you for, one, the coordinated effort 
to make sure that we are talking with one voice as much as 
possible. I think that that certainly helps.
    Garret, you mentioned earlier--and the analogy I always 
use, especially during football season, although this is a 
painful one, is that we spend too much time in the huddle, and 
we do not go run the plays. That is what we are going to have 
to do, and it seems like we are just stuck on planning and not 
executing.
    But one thing, Garret, we could do, and I think it would do 
a great service to Louisiana, is to make sure that we try as 
much as possible to speak with one voice. I will give Senator 
Landrieu a lot of credit, although I also introduced a bill to 
make sure that we did not have to pay-fors for disaster 
assistance in this country. It is the wrong way to go.
    But when we are fighting for that, it hurts us tremendously 
when the Governor comes out and endorses a pay-for for disaster 
assistance when I did not get a chance to ask Administrator 
Fugate. But I am sure that if there was a need for Democrats 
and Republicans to agree on what to cut before we help people 
in Louisiana, we would be so far behind where we are right now.
    So the need to speak with a consistent voice, I think is 
very important. And the ability for the State to use Federal 
resources and to ask for Federal resources to help the great 
citizens of Louisiana is also important.
    So we need to just be consistent with do we want Federal 
help, do we not want Federal help, do we need pay-fors for 
disaster assistance? So the more we can be coordinated on that, 
I think it would help us.
    Mr. Graves. Congressman, I could not agree with you more. 
And one of the greatest things about the job that I get to work 
on is everybody believes that our coasts need to be restored, 
and everybody believes we need hurricane protection. It is not 
a partisan issue, and it has been great being able to work on 
something that everybody believes in.
    In regard to the Governor's letter and the budget situation 
and everything else, I think there are a couple of points that 
are really important. These communities that are flooded, 
whether it is LaPlace, whether it is Braithwaithe, the north 
shore--these communities date back 300 years; they have been 
around. They did not flood like this. They would not exist if 
they flooded on a repetitive basis. Lafitte would not be around 
if they flooded four times every 6 years. Those folks would 
have moved.
    As a result of the 1,900 square miles of land we have lost, 
these communities have become more vulnerable. And as Senator 
Landrieu said, they are vulnerable because of COE's actions. 
And so I think there is some justification for asking that FEMA 
participate financially in some cases more than they do in 
other areas. But I agree with you that we need to look at this 
holistically. We need to take a better look at this.
    The State is the only one right now paying for the Morganza 
to the Gulf project, the Rose to Golden Meadow project, the 
work in Lafitte, the Louisiana Coastal Area project. And so I 
think we need to look at this holistically and figure out, 
instead of fighting about where money comes from and things 
like that, figure out who is going to do what. What is COE 
going to do, what is FEMA going to do, and what are the State, 
levee districts, and parishes going to do?
    One of the most dangerous things we can do is have these 
projects out there that are in limbo without being to tell 
these people, you are going to have your project in 10 years. 
The people in west shore for 40 years have thought they are 
going to have protection. That is not okay. They do not know if 
they should move, if they should elevate their home, move their 
business, make economic development investments. That limbo 
situation is more dangerous than anything else, and I think it 
is very important that we look at this holistically.
    The State has incurred billions of dollars in liability 
over the past few years in expenses that previously we did not 
cover. So, comments about the cost-sharing and things like 
that, I think it would be appropriate to look at it more 
holistically, including the increased vulnerability that our 
State experiences as a result of Federal action.
    Representative Richmond. I want to be clear. I agree with 
you 100 percent, and I think FEMA should pay, and I think they 
should pay more. But my point is still the same. They cannot 
pay more if the Governor's position is we should have a pay-for 
before FEMA can do anything because the Congress that I serve 
in, Democrats and Republicans are not agreeing on anything. And 
if they had to agree on where to cut around the country, cut 
other people's funding to give us money, I think that it would 
not happy. And it would certainly slow our progress.
    So when I say ``one voice in funding,'' it is the fact that 
we are a great State that provides a great service to this 
country, and for that I think that the Federal Government 
should help us, especially for damages that they cause. But at 
the same time, I think that we need to be consistent in our 
position in terms of what we need.
    And I say this privately, and I will say it publicly. Now, 
the needs of the State of Louisiana are great. And it is 
because of those needs and the fact that I think Congress 
people and our Senators are the best able to identify needs, 
which is why, in my opinion, you need to have congressionally 
directed spending, because you all get a chance to come and 
meet with us. You do not get the chance to meet with the 
President. You are going to have spending directed from 
somewhere. It is either going to be the White House that has a 
larger disconnect with you all, or it can us where you all can 
actually talk to us and tell us the needs to have closure 
complexes and to do those things.
    So, I would just caution that we do not have the luxury of 
being very partisan in Louisiana because our needs are too 
great, and our people are too vulnerable. And to that extent, 
the more we can talk with one voice and the more we can work in 
a bipartisan manner, the better we are going to be.
    And the best example is the RESTORE Act, in which the 
delegation came together--Senator Vitter, Senator Landrieu, and 
the congressional delegation--to do really almost an impossible 
task, is just the best example of what we can do when we decide 
to put the party labels and just put Louisiana first.
    So, Senator Landrieu, thank you for having this----
    Senator Landrieu. Excellent way to end. As you all know, I 
want to thank our witnesses again. I thank Administrator 
Fugate, General Peabody, all our parish presidents, and 
particularly, Mr. Graves, you and Mr. Malbrough for giving your 
views as well.

                     ADDITIONAL COMMITTEE QUESTIONS

    We will keep this record open for 2 weeks. I encourage the 
parish presidents to add to this record. Your statements and 
testimony were right on point. But you should submit your cost 
estimates and your requirements for your levees.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
    [Responses from the Louisiana Governor's Office to 
questions for the record were not made available to the 
subcommittee.]
                                 ______
                                 
     Questions Submitted to the Federal Emergency Management Agency
                        waterway debris removal
    Question. At least five different Federal agencies could have 
jurisdiction over waterway debris removal--FEMA, the Corps of 
Engineers, the Coast Guard, the Natural Resource Conservation Service 
(NRCS) at the Department of Agriculture, and the Environmental 
Protection Agency. There is no uniform Federal procedure to determine 
responsibility for waterway debris removal. Therefore, parishes might 
have to follow different rules for NRCS waterways, federally regulated 
navigation channels, ports and harbors, public drainage canals, and 
privately owned waterways.
    Administrator Fugate you agreed to look into designating a lead 
Federal agency for debris removal during disasters. Will this 
recommendation be implemented?
    Answer. After a disaster, local and State governments have primary 
responsibility for removing debris resulting from the disaster. If the 
local and State governments are overwhelmed, they may request direct 
assistance from the Federal Government, and FEMA will mission assign 
the U.S. Army Corps of Engineers (USACE) to remove the debris on behalf 
of the State and local jurisdictions. Generally after a disaster, FEMA 
Public Assistance (PA) assembles a debris management team for the size 
and scope of the disaster. This team is responsible for providing 
debris-related technical assistance to applicants for the timely, 
efficient, and accurate production of PA grants for debris operations. 
PA's major responsibilities in supporting debris operations include: 
identifying major debris issues and applicants with potential debris 
problems (based on PDAs and in conjunction with the State); developing 
and implementing a PA Debris Operations Strategy; reviewing applicants' 
debris management plans and contracts; coordinating debris-related 
mission assignments; and formulating, developing, and writing PA 
subgrants. This process is conducted through coordination with the 
State and applicants to identify needs and actions to be taken. During 
the process of identifying damage and scoping work, sometimes debris 
removal work is identified that falls under the authority of another 
Federal agency due to the location of the project. In these instances, 
FEMA coordinates with the other Federal agency, the State, and 
applicants to assess the scope of work and identify available 
resources. For example, when an applicant requests public assistance 
for work that FEMA considers to be within the authority of another 
Federal agency, FEMA will ask the specific Federal agency with 
responsibility to review the request and advise FEMA whether the work 
would be eligible under that agency's authority. If the work is outside 
of that agency's statutory authority, FEMA will evaluate the work for 
eligibility under the Stafford Act. FEMA's role is that of a lead 
coordinating agency for the response to and recovery from a major 
disaster.
    In that role, FEMA coordinates with other Federal agencies that 
have their own statutory authorities to implement and resources that 
they can bring to bear in support of State and local efforts to respond 
to a disaster incident.
    Question. What else can be done, specifically, to lessen the 
confusion and inefficiencies of dealing with each Federal agency's 
varying requirements and authorities?
    Answer. Memorandums of Understanding (MOUs) between agencies help 
to clarify roles and responsibilities for efficient response to 
disaster impacts. In September 2010, FEMA executed a MOU with USACE and 
the Environmental Protection Agency (EPA) to define the leadership and 
support roles and responsibilities in contaminated debris missions. 
FEMA is engaged with Natural Resources Conservation Service (NRCS) to 
develop a memorandum of understanding to delineate the authorities, 
roles, and responsibilities of FEMA and NRCS.
    Question. How is the debris removal effort being coordinated in 
Louisiana for Hurricane Isaac?
    Answer. FEMA established a debris operations cell at the Joint 
Field Office (JFO) for United States Army Corps of Engineers, NRCS, and 
FEMA. Currently, FEMA is funding debris operations in 52 parishes and 
has approved private property debris removal in four of those parishes. 
As of November 28, 2012, more than $61 million has been obligated for 
debris removal. NRCS has also prepared disaster survey reports as 
requested by several parishes and local governments for projects under 
the authority of the Emergency Watershed Program (EWP). FEMA and NRCS 
are working together to identify the projects that fall within each 
respective agency's authorities to maximize funding and avoid 
duplication. FEMA is also reviewing NRCS projects that exceed the 
funding available from the EWP and determining if FEMA's Stafford Act 
authorities can be applied to provide funding.
    Louisiana has estimated debris removal costs to be $4.6 million 
within the waterways under NRCS jurisdiction, but the agency has only 
made $1 million available to complete the work because it is so low on 
funding. Once the money runs out, FEMA will not step in to cover the 
unmet need. This issue is not specific to Louisiana. The Emergency 
Watershed Program is over-subscribed by $127 million, with 16 States on 
the wait list. I have written to the President urging him to request 
additional funding for the program.
    Question. As head of the Federal coordinating agency for this 
recovery, what is your plan to ensure timely removal of debris from 
NRCS waterways, so as not to exacerbate the threat of flooding and 
create more problems in the next disaster?
    Answer. FEMA is coordinating with NRCS to identify the most 
efficient means of removing debris from NRCS waterways within each 
agency's respective authorities. Additionally, FEMA is engaged with 
NRCS to develop a memorandum of understanding to delineate the 
authorities, roles, and responsibilities of FEMA and NRCS. For example, 
with regard to Hurricane Isaac, FEMA, in coordination with NRCS, the 
State of Louisiana, and Plaquemines Parish, was able to find a solution 
that will provide assistance to the parish to address threats posed by 
debris affecting the parish's drainage system.
                            case management
    Question. Case managers help connect disaster-affected families 
with resources like employment assistance, temporary housing, and food. 
Congress authorized Federal support for disaster case management in 
2006 after Katrina demonstrated the value of utilizing nonprofit 
organizations to help storm survivors locate the help they need to get 
back on their feet.
    Mr. Fugate, you testified that instead of activating the Federal 
contract, ``it was determined to utilize the State capabilities to do 
case management'' but that FEMA is working with the State to implement 
the program and to potentially provide FEMA funding for the services 
provided by the State.
    Paul Parsons, FEMA Disaster Case Management Lead and Program 
Specialist, along with other representatives from FEMA and the 
Administration of Children and Families, submitted a Disaster Case 
Management Program Assessment on September 16, 2012. The assessment 
covered 21 parishes designated for Individual Assistance and included 
interviews with State and local emergency managers, social service 
directors, and voluntary agencies. The report identified a need for 
immediate and long-term case management in numerous Louisiana parishes 
and demonstrating vulnerability risks of poverty, low literacy rates, 
high pre-disaster unemployment, and a large population of children in 
those areas.
    The assessment also identified: ``diminished capacity'' to 
``conduct immediate disaster case management'' in six parishes; 
``limitations with resources and funding'' and ``diminished capacity'' 
to ``conduct long-term disaster case management'' in seven parishes; 
low levels of ``community agency activity in disaster recovery'' in 
nine parishes; eight parishes without immediate resources available to 
conduct disaster case management; and across the entire disaster-
affected area it cited ``a high level of immediate needs including 
housing, counseling services, muckout/cleaning services and assistance 
with navigating the FEMA application process. . . a high level of long-
term disaster caused unmet needs. . . (and) limited resources to meet 
long-term disaster caused unmet needs.'' For example, it states that 
``In St. John the Baptist Parish, there is a demonstrated need for both 
immediate and long-term case management. . . according to data 
collected from the Parish Office of Emergency Management and United Way 
there are no local agencies with experience in disaster case 
management, limited staffing resources and no infrastructure in place 
to provide disaster case management. Additionally, the local social 
services office is currently closed due to flooding, school and 
childcare offices are closed. . . (and) voluntary agencies. . . are 
having challenges in organizing and distributing (resources). In the 
longer term, there are numerous identified needs--as of the date of 
this report there are over 11,000 Individual Assistance registrations 
with 46 max grants and high proportions of persons displaced (and) 
there is a high level of severely damaged or destroyed homes.'' The 
report concludes that ``based on the high level of disaster impacts, 
diminished capacity for disaster case management and the ability to 
connect disaster survivors to resources as well as increased 
vulnerability risks, an enhanced focus is recommended on Saint John the 
Baptist, Saint Bernard Parish, Saint Tammany Parish and Plaquemines 
Parishes.'' In addition to those four parishes, the report cited ``a 
moderate need for Federal Assistance in Disaster Case Management'' in 
another 12 parishes.
    In other words, the report painted a stark picture of significant 
unmet disaster-related needs and a demonstrated need for disaster case 
management on the ground. After reviewing the report, the State of 
Louisiana asked FEMA for help. Dr. Rhenda Hodnett, Child Welfare 
Administrator at the Louisiana Department of Children and Family 
Services, submitted a request to Mr. Parsons on September 19, 2012, 3 
days after the report was issued, specifically requesting six 
coordination specialists for a period of 30 days to help staff the 
State's 211 call centers and 35 case managers for a period of 90 days 
to work in eight affected parishes. The request indicates the exact 
number of case managers the State would like to allocate to each of 
those eight parishes. In her request, Dr. Hodnett references the 
contract that FEMA chose not to activate, in saying ``It is my 
understanding that ACF maintains a contract with Catholic Charities USA 
and through this means, has the ability to expand the number of case 
managers currently providing services in these parishes as the need 
dictates.''
    Based on the finding of a demonstrated need for Disaster Case 
Management that FEMA and ACF reported on September 16, and the State of 
Louisiana's request for case management support from the Federal 
Government on September 19, I cannot understand why FEMA and ACF did 
not activate the Catholic Charities contract?
    Answer. When a major disaster declaration is approved for 
Individual Assistance and it includes a request for Disaster Case 
Management (DCM) Services, FEMA automatically initiates a DCM 
assessment. This assessment is utilized to determine the level of need 
as well as the capability of partners at the State and local level. The 
assessment looks at the following factors: disaster impacts, case 
management capacity, vulnerability risk factors for certain 
populations, and FEMA registration information. Based on the DCM 
assessment completed for this event, it was determined that providing 
Immediate DCM Services through HHS ACF was not the most effective and 
cost-efficient method for providing DCM Services in Louisiana following 
Hurricane Isaac. The assessment revealed that there was a strong need 
for local resource coordination and the most efficient alternative for 
filling this resource gap was to mission assign AmeriCorps members to 
identify available local resources and connect localities in need with 
appropriate resources.
    Question. Who had responsibility for reviewing the September 16 
report and making the decision about whether and how to provide Federal 
assistance?
    Answer. FEMA had the responsibility, via the Robert T. Stafford 
Disaster Relief and Emergency Assistance Act, section 426.
    Question. Who made the final decision to rely exclusively on State 
and local capability and not the Federal contract?
    Answer. FEMA made the decision based on the results of the DCM 
Assessment, which considers the following factors: disaster impacts, 
case management capacity, vulnerability risk for certain populations, 
and FEMA registration information.
    Question. Has FEMA responded to the State of Louisiana's request 
for Federal disaster case management assistance dated September 19, 
2012? If so, please provide a copy of that response.
    Answer. [Copy provided separately.]
    Question. The FEMA/ACF needs assessment references a score of 162 
without explaining what data was used to develop that score or whether 
there are specific numerical thresholds to demonstrate a low, moderate, 
or high need for disaster case management. What were the specific data 
that resulted in this score?
    Answer. The following data is used to complete the assessment for 
DCM: the Preliminary Damage Assessment data provided by the State in 
support of the request for a Major Disaster Declaration, Census Data, 
Bureau of Labor Statistics, Department of Education Statistics, FEMA 
Disaster Data (i.e., registration, inspection, damage assessments, 
etc.), as well as survey information regarding the capacity of the 
State and local governments and voluntary sector. Once the assessment 
is completed, FEMA asks local voluntary organizations, through 
coordination with the identified lead State agency for case management, 
to complete a Capacity Survey to capture specific resources identified 
as lacking in the initial needs assessment. The results of the surveys 
revealed that there was a strong need for local resource coordination 
and the most efficient alternative for filling this resource gap was to 
mission assign AmeriCorps members to identify available local resources 
and connect localities in need with appropriate resources.
    Question. How many case managers have been deployed to Disaster 
Recovery Centers, and how many hours have they worked at each Center?
    Answer. FEMA does not provide case managers in DRCs; however, State 
and voluntary agency partners do provide these services in DRCs. FEMA 
does not track the number of case managers in DRCs.
    Question. How many case managers were deployed to shelters, and how 
many hours did they work at each one?
    Answer. The American Red Cross provided case workers in the 
shelters. FEMA does not track that information.
    Question. Has FEMA now funded a case management grant for the State 
of Louisiana? If so, for how much? If not, what do you need in order to 
proceed?
    Answer. FEMA received the State's revised application for a DCM 
Grant on November 30, 2012. FEMA is currently in the process of 
finalizing its review of the State DCM grant application, which 
requests a grant of over $6 million.
           rental housing--tracking proximity and placements
    Question. We don't know how many people are occupying FEMA-funded 
rental units, as a result of Hurricane Isaac, since FEMA tracks the 
number of people approved for rental assistance, but not how many 
placements there are. Further, despite an emphasis by FEMA on placing 
people in temporary housing closest to their permanent home, there is 
no information about the actual distances from their damaged home to 
their temporary housing unit for Hurricane Isaac survivors.
    Why doesn't FEMA measure the distance between damaged properties 
that FEMA inspects and the rental units these households eventually 
occupy?
    Answer. The Stafford Act provides FEMA the authority to provide 
financial assistance to applicants to rent alternate housing 
accommodations; which is further implemented in 44 CFR 206.117, which 
does not explicitly state that FEMA should or has the authority to 
limit the distance, or monitor the distance, from the damaged residence 
to the temporary rental unit. Although FEMA's authority or regulations 
do not require FEMA to measure the distance between the damaged 
residence and the temporary residence, FEMA does take into 
consideration the normal commuting patterns of the area and a 
reasonable commuting distance of the declared area when determining if 
a direct housing mission is needed.
    Question. Why doesn't FEMA track the number of people who have been 
placed in a rental unit, instead of simply tracking the number of 
people that qualify for rental assistance?
    Answer. The Individuals and Households Program provides assistance 
to a household, which includes all persons who lived in the pre-
disaster residence who request assistance, as well as any person who 
was not present at the time of the disaster, but who are expected to 
return during the assistance period (e.g., college student, infant, 
etc.). FEMA's application for disaster assistance (FEMA Form 009-0-1, 
OMB Collection 1660-0002) inquires about the occupants living in the 
primary residence at the time of the disaster. Since FEMA assists all 
persons residing in the pre-disaster residence on a single application, 
FEMA's assistance is provided to the household. However, FEMA does take 
into consideration the total number of occupants in the household when 
determining eligibility for continued financial temporary housing 
assistance (i.e., rental assistance).
  transition of responsibility to other federal agencies for recovery
    Question. No matter the size of the disaster, a smooth transition 
from response to recovery, and a coordinated Federal, State, and local 
effort is critical. In September 2011, FEMA published the National 
Disaster Recovery Framework in recognition that a coordinated effort is 
needed. It intends to lay out how Federal agencies will effectively 
organize and operate to promote effective recovery and support States.
    How exactly will the National Disaster Recovery Framework be 
executed to ensure a smooth transition that promotes a common sense and 
cost-effective recovery?
    Answer. To ensure a smooth transition, the National Disaster 
Recovery Framework Support Group for Hurricane Isaac in Louisiana was 
integrated into the joint field operations as early as September 19 
when the State of Louisiana appointed a State Disaster Recovery 
Coordinator (SDRC) and requested designation of a Federal Disaster 
Recovery Coordinator (FDRC), who was appointed by FEMA region 6 on 
September 21. By working closely with the SDRC and involving parish 
leadership from the heavily impacted parishes, who in turn appointed 
Local Disaster Recovery Managers, the joint NDRF Support Group was able 
to begin the process of leveraging existing Federal and private sector 
resources in order to build capacity and resilience at the State and 
local level. Currently, recovery support efforts are centered on St. 
John the Baptist, Plaquemines, New Orleans, St. Tammany, and Jefferson 
Parishes. In addition, six State agencies and three Non-Governmental 
Organizations (NGOs) have been approached and are taking part in these 
efforts.
    Question. Please provide an example of this framework in action and 
how it will be used specifically in Hurricane Isaac recovery?
    Answer. One of the first actions initiated by the FDRC was to 
execute mission assignments to the primary coordinating agencies 
responsible for implementing the recovery support functions (RSF). 
These agencies deployed field staff to the JFO and quickly began 
conducting initial mission scoping assessments, by sector, to identify 
opportunities to support the State and local officials and improve 
resiliency for future disasters. Currently, the Community Planning and 
Capacity Building (CPCB) RSF, whose lead agency is FEMA, is working 
with the Housing RSF and the State-Led Disaster Housing Task Force in 
four parishes: St. Tammany, Jefferson, Plaquemines, and St. John the 
Baptist. The CPCB RSF is helping to identity the housing needs of the 
parishes while also supporting the efforts of the State-Led Disaster 
Housing Task Force's specific housing plans. HUD is working with the 
State to provide resources and reallocate funds as necessary. 
Additionally, the CBCP, under the NDRF, will provide technical 
assistance to the parishes to help them implement existing recovery and 
rebuilding plans or proposed plans. The NDRF Support Group and the 
local recovery managers will jointly participate in community 
engagement efforts to identify potential recovery projects and 
initiatives, and identify a broad set of stakeholders for 
implementation. Additionally, the NDRF Support Group will identify 
performance measures, and metrics to track NDRF support implementation 
progress.
    Question. Who, specifically, should Congress hold accountable for 
it working?
    Answer. The signatory agencies and departments responsible for the 
implementation of the NDRF are accountable for it working. They are:
  --Department of Homeland Security, Federal Emergency Management 
        Agency;
  --Department of Housing and Urban Development;
  --Department of Interior;
  --Department of Commerce;
  --U.S. Army Corps of Engineers; and
  --Department of Health and Human Services, and other Recovery Support 
        Functions primary and support agencies.
                         state rainy day funds
    Question. Administrator Fugate, you have experience as an emergency 
manager in Florida. Of course now, in your role as the head of FEMA, 
you have seen how different States across the Nation finance disaster 
response and recovery efforts.
    Do many States establish special accounts to ensure funding is 
available to match the Federal support that is provided when a disaster 
strikes? If so, who does it best and why?
    Answer. States may establish reserve accounts or ``rainy-day'' 
funds to provide an additional resource when disasters occur. The 
establishment and management of such State rainy-day funds is at the 
discretion of each State.
    Question. In most disasters, the Federal share of disaster funding 
is 75 percent, and the non-Federal share is 25 percent. Does anything 
prevent the State from matching these costs, or is it wholly the 
responsibility of the parish to match the Federal contribution?
    Answer. How the non-Federal share of FEMA public assistance grant 
funding is distributed is at the discretion of each State.
                            food assistance
    Question. The Disaster-Supplemental Nutrition Program (D-SNAP) 
provides necessary food assistance to households that have been 
stricken by disaster. After the State bungled the D-SNAP registration 
process for Hurricane Gustav in 2008, it promised changes. 
Unfortunately, many of the same problems have returned in the wake of 
Isaac: confusing registration information, hours-long lines in the hot 
sun, and inconvenient opening and closing hours that make it difficult 
for many people to sign-up.
    The State has made attempts to fix these issues, and it is 
understandable that some delays are inevitable when so many people need 
help. However, it makes no sense that the sign-up process is not more 
customer-friendly.
    As the coordinator of disasters, what technical assistance is FEMA 
providing to both USDA and to the State to ensure that D-SNAP 
registration is coordinated with other disaster assistance services and 
this program is run as competently and efficiently as possible?
    I understand that the savings accounts of families are being 
counted as funds available for disaster needs, potentially 
disqualifying some from D-SNAP benefits. These savings are for their 
children's college, retirement, or to buy a home. Families should not 
be penalized because their savings are not in a tax-deferred account, 
or an investment portfolio. Exempting stockholdings but not savings is 
inconsistent.
    What solution can FEMA, in coordination with USDA, derive to make 
this disaster assistance fairer?
    Answer. The delivery of recovery assistance by FEMA and the U.S. 
Department of Agriculture Food and Nutrition Service (USDA-FNS) are 
distinct services authorized under unique statutory authorities. The 
primary responsibility for providing emergency food assistance rests 
with State and local governments and therefore the administration of D-
SNAP is governed by USDA-FNS and the respective States. Further 
questions on D-SNAP should be directed to USDA-FNS.
                          manufactured housing
    Question. FEMA is evaluating existing commercial sites in southeast 
Louisiana, also known as RV parks, for placement and installation of 
park model units for displaced storm survivors who can't reoccupy their 
homes.
    Can you update us on the status of this direct housing mission to 
provide manufactured housing units to Louisiana families in need?
    Answer. There were 72 families approved for a Temporary Housing 
Unit (THU). Of this number, 29 families have been housed, three 
families are pending lease-in, one has received an insurance settlement 
to replace their mobile home, and 39 families declined a THU for 
various reasons such as found a resource, staying with family or 
friends because repairs would be completed within a short timeframe, or 
they simply did not want to live in a THU or in a commercial park. In 
this disaster, we could not place units on private sites due to flood 
zones and size constraints.
    Question. Is FEMA also planning to provide park model homes for 
people at private sites, such as a driveway, so they can continue to 
live on their property while they work on repairing their home?
    Answer. No, FEMA does not plan to provide park model homes for 
people at private sites so that they can continue to live on their 
property while repairing their damaged dwelling. Our direct housing 
team has been able to locate enough commercial pads to house everyone 
that was approved for a THU. There currently are three families that 
are waiting to move into a THU in a commercial park. Those units are in 
the process of being installed and our goal is to have all three 
families licensed in by the end of the week. At that point, everyone 
who was approved for a THU for this disaster will be housed.
              remaining hurricanes katrina and rita issues
    Question. The State of Louisiana has made repeated requests to meet 
with FEMA officials in Washington to discuss the so called ``Global 
Summit'' issues, resulting from Hurricanes Katrina and Rita, which were 
first presented in Baton Rouge in July 2011. Kevin Davis, Director of 
the Governor's Office of Homeland Security and Government Affairs, 
wrote to you again on September 13, 2012, to reiterate his request for 
a dialogue on these issues, but FEMA has refused to schedule the 
meeting so far and denied the State a chance to clearly explain its 
decisions and to ask questions about the Agency's policy 
determinations. Thousands of applicants and billions in funding are 
affected by these decisions, and I'm confounded by FEMA's unwillingness 
to simply sit down and have a structured conversation with the State's 
officials who are managing the largest recovery effort in our country's 
history. There is absolutely a need for FEMA to act on the State's long 
outstanding and very reasonable request. What day and time will this 
meeting occur?
    Answer. FEMA will continue to work with the State of Louisiana to 
complete recovery efforts for Hurricanes Katrina and Rita, including 
continuing our meetings on the ``Global Summit,'' and will work with 
the State in finalizing a date and time for the next meeting.
                                 ______
                                 
           Questions Submitted to the Army Corps of Engineers
                              corps budget
    Question. What is the national backlog in authorized construction 
projects; and in operations and maintenance for Corps of Engineers 
projects?
    Answer. The national backlog in authorized construction projects is 
approximately $60 billion; for Operation and Maintenance (O&M), the 
national backlog is $2.8 billion for the O&M account and $122 million 
for the Mississippi River and Tributaries (MR&T) O&M program.
    Question. What is the Mississippi Valley Division backlog in 
authorized construction projects; and in operations and maintenance for 
Corps of Engineers projects?
    Answer. The Mississippi Valley Division (MVD) backlog in authorized 
construction projects is approximately $19 billion; for operation and 
maintenance the MVD backlog is $510 million for the O&M account. The 
full $122 million backlog in the MR&T O&M program is within MVD.
                      proven flood control success
    Question. Recently, I wrote the President encouraging him to seek 
additional funding for Corps flood prevention projects that would save 
lives, protect property, and reduce the costs of future floods.
    Can you give me five examples of Corps projects, built in the last 
25 years, that have subsequently saved lives and property during major 
disasters? Please provide estimated costs of those projects and 
estimated savings that were produced in subsequent disasters.
    Answer. The following Corps projects have contributed greatly to 
the protection of human life and defense from significant property 
damage during major disasters.
    Mississippi River and Tributaries Project.--Over the life of the 
project, which is still pending completion, approximately $612 billion 
in damages have been prevented, for an investment of $14 billion. Most 
recently, the system was severely tested during the floods of 2011. The 
system operated as designed, protecting approximately 4 million people 
and preventing approximately $230 billion in property damage and 
destruction.
    Red River of the North--Grand Forks, North Dakota and East Grand 
Forks, Minnesota.--The project consists of levees and floodwalls to 
protect a combined population of nearly 60,000 residents. The project 
was certified as substantially complete in July 2007. In spring 2011 
the cities protected by this project experienced their third largest 
flood of record. During this event, flood damages of more than $350 
million were estimated to have been prevented by the project. The total 
estimated project cost is $394 million.
    Mark Twain Lake and Clarence Cannon Dam--Ralls and Monroe Counties, 
Missouri.--This 55,000-acre multi-purpose project was completed in 1984 
at an estimated cost of $380 million. During the period of 1993-2011, 
over $1.7 billion in flood damages were estimated to have been 
prevented by this project.
    Muscatine Island, Iowa.--The project was completed in June 2000 at 
a cost of $7.85 million and reduces flood risk to 30,800 acres of 
commercial, residential and agricultural properties in Muscatine 
County, Iowa. The project was responsible for preventing disastrous 
flooding in 2001 and 2008. In 2001 the project prevented $223,536,100 
worth of damages and in 2008 the project prevented $333,542,000 in 
damages. This project protects approximately 43,000 residents in the 
county.
    Cedar Falls, Iowa.--The project was completed in 2003 at a cost of 
$6,430,000. The project reduces flood risk to downtown Cedar Falls and 
consists of 5,500 feet of levee and 1,400 feet of floodwalls and 
protects approximately 36,000 residents. The city's entire small 
business downtown would have been devastated by the Cedar River 2008 
Flood, but the Corps project provided full protection with record flood 
levels to the top of the levee with no flood damage or loss of life. 
This could be contrasted with downstream at Cedar Rapids with no Corps 
levee where the Cedar River devastated the entire downtown. In 1999 the 
project prevented $5,817,600 worth of damages. In 2004 the project 
prevented $4,308,700 worth of damages. In 2008 $34,838,700 worth of 
damages were prevented.
    New Bedford, Fox Point, and Stamford Hurricane Barriers.--New 
Bedford, Massachusetts; Providence, Rhode Island; Stamford, 
Connecticut. These three projects combined, prevented over $9.7 billion 
in damages from storms in 2011 and 2012:
  --The New Bedford Hurricane Protection Barrier lies across New 
        Bedford and Fairhaven Harbor. Completed in 1966, at a cost of 
        $18.6 million, it protects about 1,400 acres in New Bedford, 
        Fairhaven, and Acushnet, Massachusetts, from tidal flooding 
        associated with hurricanes and coastal storms.
  --The Fox Point project, completed in 1966 at a cost of $15 million, 
        provides virtually complete protection against tidal flooding 
        from hurricanes and other coastal storms to about 280 acres of 
        downtown Providence, Rhode Island.
  --The Stamford Hurricane Barrier, completed in 1969, at a cost of 
        $14.5 million, provides protection to about 600 acres, which 
        includes principal manufacturing plants, a portion of the main 
        commercial district, and residential sections.
                  corps benefit-to-cost ratio analysis
    Question. While the Federal Government has partnered with the State 
and local governments to construct vital, effective flood protection 
levees in Louisiana, there are far too many areas left unprotected, 
including the parishes represented on the second panel. This is in part 
because the Corps has determined that their protection projects do not 
have the positive benefit to cost ratios necessary to proceed with 
Federal involvement. However, as a result of the lack of investment in 
levees and flood protection, FEMA has been required to pay billions of 
dollars in response to storm events.
    Additionally, the contribution to the Nation in terms of oil and 
gas and seafood production--and the cost to the Nation if these could 
no longer produce these commodities--is not currently considered in 
determining the benefit-to-cost ratios. As I understand it, the ``first 
line of defense'' benefits that barrier island communities provide for 
larger inland metropolitan areas when a storm hits are also not 
considered.
    Does the Corps consider the amount of money FEMA has paid related 
to disaster damage in the area being studied for possible protection--
or the probability that they will incur expenses in the future?
    Answer. The Corps does consider emergency costs in the National 
Economic Development (NED) benefits calculations. However, these 
benefits are based on anticipated future expenditures, not historical 
expenditures. Emergency costs include those expenses resulting from a 
flood that would not otherwise be incurred, such as the costs of 
evacuation and reoccupation, flood fighting, cleanup including 
hazardous and toxic waste cleanup, and disaster relief; increased costs 
of normal operations during the flood; and increased costs of police, 
fire, or military patrol. Emergency costs do not include certain items, 
such as FEMA expenditures to reconstruct or repair damaged properties 
since these damages are already captured in the NED benefit analysis 
for all Flood Risk Management analyses.
    Question. Does the Corps consider insurance payouts?
    Answer. The Corps does not directly consider historical insurance 
payouts in the calculation of benefits. Nor does it include as a 
project benefit any effect that occurs prior to project initiation. 
Estimates of flood damages reduced (benefits) are calculated as the 
difference in estimated future economic damage (to structures, their 
contents, infrastructure, and other damages such as emergency costs) 
without a project and with a project. This is done using a risk based 
analysis considering both probability (likelihood of occurrence) and 
consequence (how bad is the damage). Historical damages, including FEMA 
flood claim payouts, represent data that are helpful in validating and 
calibrating estimates of future damage, but are not appropriate for 
inclusion as a project benefit. This framework for project benefit 
inclusion is established in ER 1105-2-100 in section 3-3 Flood Damage 
Reduction, and in Appendix D Economic and Social Considerations.
    Question. Does the Corps consider the economic impact of major 
refineries, petrochemical plants, and coal transfer facilities being 
shut down for days or weeks as a result of flooding?
    Answer. The Corps considers all NED impacts of flooding. 
Contributions to NED are increases in the net value of the national 
output of goods and services, expressed in monetary units. In addition, 
flooding will often also result in economic impacts that are not 
national impacts. These are called Regional Economic Development (RED) 
benefits and include benefits such as employment shifts from one region 
to another. RED benefits impact a region, not the Nation as a whole. 
The total economic impact of major refineries, petrochemical plants, 
and coal transfer facilities being shut down for days or weeks as a 
result of flooding requires very complex analyses to determine the 
various NED and RED impacts.
    Question. Can you describe the factors that are considered in 
determining a benefit-to-cost ratio and are these factors set by 
statute or Corps regulations?
    Answer. The Economic and Environmental Principles and Guidelines 
for Water and Land Related Resources Implementation Studies (P&G) 1983, 
are the rules that govern how Federal agencies evaluate proposed water 
resource development projects. Typically, Corps Flood Risk Management 
(FRM) analyses are based on NED benefits, although health and safety 
and loss of life are also important considerations. The objective of 
NED is to maximize increases in the net value of the national output of 
goods and services. Within the Corps, this is done by comparing the 
difference in the value (benefits) produced by the project to the value 
of the resources (costs) required to produce those goods and services 
or construct the project. Benefits are increases in the net value of 
national outputs (goods and services) and typically fall under the 
categories of physical damages, income losses, and emergency costs. The 
costs (opportunity costs) are the costs of the resources required or 
displaced to achieve the plan, such as concrete and steel for building 
a floodwall.
    Question. Are there any statutes that prevent the Corps from 
amending the factors that are considered?
    Answer. The Corps economic evaluation procedures have been 
developed to reflect and comply with the P&G, established pursuant to 
the Water Resources Planning Act of 1965 (Public Law 89-80), as amended 
(42 U.S.C. 1962a-2 and d-1). The P&G are comprised of two parts: The 
Economic and Environmental Principles for Water and Related Land 
Resources Implementation Studies and The Economic and Environmental 
Guidelines for Water and Related Land Resources Implementation Studies. 
Together both parts provide the framework for Corps of Engineers water 
resources planning studies. Additionally, independent review 
requirements (pursuant to the Information Quality Act and section 2034 
of WRDA 2007) establish transparent review processes to assure Corps 
analyses are policy compliant and reflect sound economic theory and 
practice.
 benefits/needs of new orleans metropolitan area hurricane protection 
                                 system
    Question. Last year's historic flooding along the Mississippi River 
provided a perfect example of how wise and timely investment in 
construction and maintenance can save lives, property, and resources. 
Analysis of benefits to cost for that system are still being analyzed 
but after decades of investment in the system, may be as high as 38-to-
1 after last year's flooding.
    Has the Corps done any comparable preliminary analysis on the 
benefits to cost of the post-Katrina New Orleans metropolitan area 
hurricane protection system?
    Answer. The Corps has collected some information on reported 
flooding that has occurred in the area since Hurricane Katrina. The 
Corps has not computed flood damages or damages prevented for the post-
Katrina greater New Orleans Hurricane and Storm Damage Risk Reduction 
System.
    Question. What construction needs still exist for the system? What 
are the estimated costs?
    Answer. As of September 2011 construction of the greater New 
Orleans Hurricane and Storm Damage Risk Reduction System (HSDRRS) had 
progressed to the point where the system is ready to defend against a 
100-year storm surge, a surge with a 1-percent annual probability of 
occurrence. Of the $14.6 billion program $11.0 billion has been 
obligated through October 2012.
    Major elements of the HSDRRS program remaining to be constructed 
and their approximate estimated costs are as follows:
  --Armoring.--$320 million;
  --Environmental Mitigation.--$250 million;
  --New Orleans to Venice and Plaquemines Parish Non-Federal Levees.--
        $1.0 billion;
  --West Bank and Vicinity--Mississippi River Co-located Levees.--$280 
        million;
  --Southeast LA (SELA) Urban Flood Damage Reduction.--$1.0 billion; 
        and
  --Permanent Canal Closures and Pump Stations.--$750 million.
    Question. What are the annual maintenance costs for the New Orleans 
protection system? What levee boards, drainage districts, and other 
local entities operate in this system and how is the Corps working with 
these entities to ensure that the system will operate as effectively 
and efficiently as possible in years to come?
    Answer. Average annual operation and maintenance costs for the 
greater New Orleans Hurricane and Storm Damage Risk Reduction System, 
including the Lake Pontchartrain and vicinity; West Bank and vicinity; 
and Southeast Louisiana flood damage reduction projects are estimated 
at $38.8 million.
    The Louisiana Coastal Protection and Restoration Authority (CPRA) 
served as the sole non-Federal sponsor for execution of the Project 
Partnership Agreements for the Lake Pontchartrain and vicinity; West 
Bank and vicinity; and Southeast Louisiana (SELA) projects. 
Accordingly, CPRA is the responsible agency for operation, maintenance, 
repair, rehabilitation and replacement of the projects and/or features 
thereof. In practice, the following subordinate and/or cooperative 
State and local agencies will carry out operations and maintenance 
activities on behalf of the non-Federal sponsor:
  --Southeast LA Flood Protection Authorities East and West;
  --Pontchartrain Levee District;
  --East Jefferson Levee District;
  --Orleans Levee District;
  --Lake Borgne Basin Levee District;
  --West Jefferson Levee District;
  --Sewerage and Water Board of New Orleans;
  --Jefferson Parish;
  --Plaquemines Parish Government;
  --St. Charles Parish; and
  --Algiers Levee District.
    Operations and Maintenance Cost Estimates.--To help prepare the 
non-Federal sponsor, flood protection authorities, levee districts and 
drainage districts for execution of their O&M responsibilities for the 
Lake Pontchartrain and Vicinity (LPV); West Bank and Vicinity (WBV); 
and Southeast Louisiana (SELA) flood risk reduction projects, the Corps 
commissioned the development of O&M cost estimates that may be used for 
planning to accomplish O&M in accordance with authorizing legislation, 
project partnership agreements, and operations manuals. The estimates 
have been provided to the non-Federal sponsor to assist them in 
estimating their annual O&M requirements/costs and to support their 
budgetary planning actions. The estimates provide a basis to determine 
annual variations in funding requirements and a basis for staffing and 
identifying required equipment. The estimates can also be easily 
expanded to include additional features with similar characteristics 
and can be viewed by individual category and task costs such as mowing, 
fuel requirements, periodic inspections, etc. The estimate model 
provides the ability to readily accommodate adjustments in labor rates, 
overhead rates, crew makeup, and/or other cost factors.
    Strategic Partnership.--To facilitate an integrated approach to 
flood risk management in the greater New Orleans and southeast 
Louisiana region, the Corps, and the State and local agencies have for 
several years maintained regular dialog through participation in 
monthly strategic partnership meetings at which all manner of issues 
are discussed.
    System Management Plan.--The Corps has drafted a System Management 
Plan to facilitate the effective governance and long-term 
sustainability of the HSDRRS. The primary objectives of the System 
Management Plan are to:
  --Promote long-term sustainability;
  --Ensure that senior executives and decisionmakers are aware of 
        system readiness;
  --Provide training opportunities for staff;
  --Improve communications;
  --Promote public awareness of risk and reliability;
  --Periodically compare system performance with IPET recommendations;
  --Provide for integration of State plans, Federal studies and 
        projects with the HSDRRS; and
  --Define long-term resource requirements for system sustainability.
                               mitigation
    Question. A barrier in moving forward with vital flood protection 
efforts is that the current system for mitigating damage to wetlands is 
not working in coastal Louisiana. I understand that we have to 
mitigate, but we simply cannot complete projects that double in costs 
with each mitigation effort.
    Instead, a more collaborative link between mitigation and 
restoration efforts should be fostered. I understand that parish 
governments have proposed restoration projects through two programs 
with Federal oversight given to them by the Coastal Wetlands Planning 
Protection and Restoration Act and the Coastal Zone Management Act. 
Those projects have been rejected for meeting mitigation requirements.
    Can you explain why these types of projects are rejected for 
meeting mitigation projects?
    Answer. Under the Coastal Wetlands Planning Protection and 
Restoration Act (CWPPRA), a task force composed of Federal and State 
partners evaluates numerous coastal restoration projects proposed by a 
variety of sources, including parishes. The task force must rank 
proposed projects based solely on which provide greatest environmental 
benefit relative to cost, and select those projects yielding the most 
benefit for cost expended for inclusion on annual priority project 
lists. Funds to construct selected projects are appropriated upon 
availability.
    The Federal Mitigation Rule states that aquatic resources that are 
restored, established, enhanced or preserved to satisfy the 
requirements of other Federal programs may not also be used for 
compensatory mitigation for Department of the Army (DA) permits, 
although district engineers may evaluate and approve on a case-by-case 
basis situations where a consolidated project is used to satisfy more 
than one set of requirements, provided the same resource is not 
``double counted.'' For example, if 10 acres of wetlands were needed as 
compensatory mitigation for a DA permit, and 10 acres were needed for 
some other Federal program, a 20-acre project could be authorized to 
fulfill the requirements of both, but the same 10-acre project could 
not.
    A coastal zone consistency determination from the State of 
Louisiana pursuant to the Coastal Zone Management Act (CZMA) is 
required for any project occurring in the coastal zone. If the project 
requires DA permit authorization and the State denies CZMA approval, 
then the Corps cannot issue a DA permit. Proposed projects must comply 
with the State's coastal zone management program.
    Question. What can the Corps do to pursue a more comprehensive, 
system-wide approach to mitigation, in order to move away from 
seemingly impossible regulations for small scale projects that are 
perhaps not as effective?
    Answer. The Corps must comply with implementing regulations of the 
Mitigation Rule. The Corps is obligated to ensure that each and every 
permit decision complies with the Clean Water Act, including the 
requirement to adequately compensate for unavoidable impacts to aquatic 
resources using a watershed approach. The Corps recognizes the 
importance of balancing program flexibility with consistency and the 
need to better serve the public and protect important aquatic 
resources. Therefore, the Corps, in collaboration with other Federal 
and State agencies, also considers the landscape context and amount and 
quality of the proposed impacts that may be authorized to determine the 
appropriate compensatory mitigation.
    Question. What can the Corps do to make mitigation more affordable 
and to ensure that vital flood protection projects can move forward?
    Answer. The Corps cannot and does not regulate the costs of 
mitigation; applicants for DA permits have several options for meeting 
compensatory mitigation requirements, including use of mitigation 
banks, in-lieu fee programs, and permittee responsible mitigation. The 
cost of mitigation is not determined by the Corps but does include the 
total costs for providing the ecologically successful mitigation for 
the long term. The Corps, in coordination with other Federal agencies, 
strives to review and approve mitigation bank proposals in an 
expeditious manner, to provide the mitigation banking industry with the 
approvals needed to afford this mitigation option to the regulated 
community. However, the best way to reduce mitigation cost is to 
propose projects that avoid and minimize impacts to aquatic resources 
to reduce the requirements for compensatory mitigation.
                           plaquemines levees
    Question. After Hurricane Katrina, Congress appropriated $1.4 
billion for the incorporation of Plaquemines Parish non-Federal levees 
into the Federal system to elevate all 34 miles of back levee on the 
West Bank of the parish. However, following publication ofpost-Katrina 
levee design guidelines, the Corps decided that all new construction, 
including this project, must comply with the new standards. This 
doubled the cost to complete the project, which means that if the Corps 
decision is upheld, the available funds will not be sufficient.
    Recognizing the budget climate in Washington, local officials have 
advocated for the Corps to use the original design standards to achieve 
a 50-year level of protection. If the Corps agrees, completion of the 
project as originally designed with available funding could be 
possible.
    Please describe the issues and the benefits with both approaches 
from your view.
    Answer. An overarching principle of the Hurricane HSDRRS (post-
Katrina) Design Guidelines is to construct a project using a system-
wide risk-based approach. However, in the case of Plaquemines Parish 
there are multiple existing authorizations (100-year and 50-year 
HSDRRS, as well as Mississippi River and tributaries) and funding/
authority requirements are insufficient to complete an integrated 
system and implement the HSDRRS Design Guidelines in all of Plaquemines 
Parish. These complexities prevent the closing of three polders 
(westbank Non-Federal Levees (NFL) from Oakville to St. Jude, westbank 
New Orleans to Venice (NOV) from St. Jude to Venice, and eastbank NOV 
from Phoenix to Bohemia), thereby preventing the levees from 
functioning as an integrated system, or meet the congressional intent 
to reduce the risk to the affected region.
    The Corps will perform a risk-based analysis on the NFL to be 
incorporated into the New Orleans to Venice (NOV) project (from 
Oakville to St. Jude), with an objective of ``closing the gap'' on the 
westbank and tie into the existing NOV back levees at St. Jude, if 
possible.
    Additionally, a risk-based analysis will be performed on the 
existing westbank NOV polder from St. Jude to Venice, with an objective 
of identifying priority reaches for construction within available 
funds. These analyses will include consideration of application of the 
Engineering Manual (EM 1110-2-1913) criteria, as requested by 
Plaquemines Parish. These analyses will inform possible adjustments to 
the HSDRRS criteria for application to the levee systems in Plaquemines 
Parish, which could allow greater levee lengths to be completed with 
available funds.
    Question. When will the Corps make a final decision?
    Answer. The Corps Risk Management Center has developed a scope and 
schedule, in consultation with the local Corps district and the non-
Federal sponsors, to complete these risk-based analyses for NFL from 
Oakville to St. Jude and NOV from St. Jude to Venice. The goal is to 
have the results of the analysis by mid May 2013 and make a decision on 
path forward by end of May 2013.
    Question. Does the Corps have any plans or pending applications to 
upgrade flood protection on the East Bank of Plaquemines Parish?
    Answer. On the East Bank of the Mississippi River between Phoenix 
and Bohemia, the existing NOV Federal levee is deficient to the 50-year 
level of risk reduction elevation. The Corps does not have any plans or 
pending applications to upgrade flood protection on the East Bank of 
Plaquemines Parish, except in two areas for which funding is currently 
available. These two areas are the Pointe a la Hache and Bellevue Pump 
stations fronting protection projects.
    Between Caernarvon to Whites Ditch, there are 18 miles of existing 
non-Federal back levee that are approximately 17-feet deficient to the 
50-year design grade. Authorization and appropriations do not exist to 
provide improvements in this area.
    The Mississippi River levees on the East Bank of Plaquemines Parish 
are not deficient to the HSDRRS design grade, and no upgrades for that 
purpose are required.
                                 ______
                                 
                Questions Submitted to Jefferson Parish
                            rainy day funds
    Question. Most of the parishes that have Presidents testifying in 
the hearing have been declared eligible for Federal disaster assistance 
six times in the past 7 years (after Hurricanes Katrina, Rita, Gustav, 
and Ike, Tropical Storm Lee, and now Hurricane Isaac). In all of these 
disasters, FEMA authorized public assistance for Louisiana communities 
with a cost-share. Congress waived that cost-share for Hurricanes 
Katrina and Rita after 2 years of foot-dragging by the previous 
administration, but the current earmark ban prohibits Congress from 
taking similar action now.
    The Governor has asked the Federal Government to pick up 100 
percent of emergency response costs from Hurricane Isaac by eliminating 
the normal 25 percent match. My colleague, Senator Vitter, has written 
to the President in support of that request.
    State Representative Jared Brossett recently raised the issue of 
State budgeting for disasters as Chairman of the Hurricane Recovery 
Committee in the legislature, and he sent a letter on Friday to the 
Governor and Commissioner of Administration that I will include in the 
hearing record. According to information provided to my office by the 
legislature, the State of Louisiana has five separate reserve funds 
which could be tapped to assist parishes with their cost-share for 
Isaac recovery:
  --The State Emergency Response Fund (SERF) has a balance of $16.5 
        million;
  --The FEMA Reimbursement Fund has a balance of $35,000;
  --The Interim Emergency Board fund has a balance of $4.6 million;
  --The Budget Stabilization Fund, also known as the Rainy Day Fund, 
        has a balance of $443 million; and
  --And last week, the State declared a surplus of more than $130 
        million.
    That comes to $499 million in Baton Rouge that the Governor has 
authority to use for the purpose of assisting local governments with 
their cost-share for this event. It's my understanding that parishes 
did not receive any assistance from the State to split or defray their 
cost-share requirements in Gustav or Ike and that the Governor has not 
offered to help parishes with their cost-share for this disaster 
either.
    Have each of you now asked the Governor and/or the legislature to 
provide a portion of those State funds to help cover your 25 percent 
cost-share for Hurricane Isaac?
    Answer. Jefferson Parish is in discussions with the Governor's 
office regarding this issue.
    Question. If you have already made such a request to the State, 
what response, if any, have you received? If not, are you still 
inclined to do so?
    Answer. As stated above, Jefferson Parish is in discussions with 
the Governor's office in this regard.
    Question. Does your parish have money in its regular budget for 
disaster response and recovery efforts, including funding to satisfy 
Federal cost-share requirements and leverage Federal dollars under the 
FEMA public assistance program?
    Answer. Jefferson Parish has in the past necessitated the borrowing 
of Special Community Disaster Loans to fund disaster recovery 
approximating $54 million.
    Question. Do you have emergency legal authority to borrow or raise 
these funds when recovery priorities demand it?
    Answer. Jefferson Parish has legal authority to borrow funds.
                 local use of hazard mitigation funding
    Question. Each of the parish presidents represented in the hearing 
has to make choices about flood protection projects to reduce 
vulnerability to future flood events through drainage improvements, 
levee repairs, home elevations, and other measures.
    What are highest priority flood protection projects in your 
parishes and what are the costs associated with them?
    Answer. Jefferson Parish has prioritized improvements to our pump 
stations, canals, and subsurface drainage system to bring them up to a 
level of service that will prevent property damage in the event of the 
``10-year storm'' recurrence event. Once projects that will prevent 
property damage are identified, priority is placed on improving the 
pump stations first, then the outfall canals that drain to the pump 
stations, followed by the subsurface drainage system. To get the full 
benefit of an improvement, the downstream elements must also meet the 
required standard. Under the Southeast Louisiana Flood Control Program 
(SELA) and the Jefferson Parish Capital Improvement Program, over $1 
billion will have been spent in the last 30 years upgrading the 
drainage system. At this time, we will continue our focus on home 
elevation and providing increased levels of protection to those 
communities in Jefferson Parish which are located outside the present 
hurricane protection system.
    [Please see attachment A as follows:]

        ATTACHMENT A--PUBLIC WORKS PROFESSIONAL SERVICE CONTRACTS
------------------------------------------------------------------------
          Project name/PW No.               Brief project description
------------------------------------------------------------------------
Lake Cataouatche.......................  Replacing the pump diesel
                                          engines. Replacing the pumps
                                          and pump controls.
Old Bayou Segnette.....................  Replacing the pump diesel
                                          engines. Replacing the pumps
                                          and pump controls.
Westwego 1.............................  Purchase and installation of
                                          three 100 cfs vertical pumps
                                          to increase the current
                                          existing capacity.
Bainbridge Canal PW No. 2009-15-dr.....  Provide design engineering,
                                          field assessment to include
                                          surveying and geotechnical
                                          investigations and
                                          engineering, construction
                                          management services related to
                                          the design and construction of
                                          drainage improvements to the
                                          Bainbridge Canal from Canal
                                          No. 14 to Veterans Boulevard,
                                          including the crossing under
                                          Veterans Boulevard.
Bannerwood PW No. 2008-23-dr...........  Installation of 54'' rcp on
                                          Willowbrood from Penwood to
                                          Surfwood.
Bonnabel Canal PW No. 2008-50-dr.......  Provide design engineering,
                                          field assessment to include
                                          surveying and geotechnical
                                          investigations and
                                          engineering, construction
                                          management services related to
                                          design and construction of
                                          drainage improvements to the
                                          Bonnabel Canal from the south
                                          side of Veterans Blvd. to the
                                          south side of West Esplanade
                                          Avenue.
Butler Ditch PW No. 2008-56-dr.........  Improvements from Airline Drive
                                          to the I.C. Railroad
                                          consisting of the installation
                                          of a 10' x 8' u channel.
Canal 10 @ West Esplanade..............  Upgrading the existing culvert
                                          crossing along West Esplanade
                                          Avenue at Canal No. 10 from a
                                          72'' RCPA to a double 6'x6'
                                          box culvert, or hydraulic
                                          equivalent, as identified in
                                          Hartman Engineering's January
                                          2011 report entitled
                                          Evaluation of District 4 Canal
                                          Constrictions.
Canal 13 PW No. 2008-55-dr.............  Concrete slope paving of Canal
                                          13 between Butler and Loyola.
Clearview and Mounes PW No. 2009-30-dr.  Installation of new 54'' x 88''
                                          RCPA and 45'' x 73.5'' RCPA on
                                          Mounes between Clearview and
                                          Camp Plauche Ditch.
Cousins 1 Pump Station.................  Replacing all the Waukesha
                                          Engines for pump Nos. 2, 3 and
                                          4.
Elise Avenue PW No. 2009-9-dr..........  Drainage improvements in the
                                          Elise Avenue/Camphor Street
                                          area consisting of the
                                          installation of a 140 cfs pump
                                          station in the area
                                          immediately north of West
                                          Metairie Avenue at Elise
                                          Avenue, including generator
                                          and discharge control
                                          structure installation, the
                                          reconstruction of the drainage
                                          structures at West Metairie
                                          and Parkaire Drive, and the
                                          upgrade of subsurface drainage
                                          along Elise Avenue between
                                          Ruth Street and Camphor
                                          Street.
Manson Ditch...........................  Hydraulic study of the Manson
                                          Ditch Drainage Area. Defined
                                          as the combined drainage
                                          contributory areas of Camilla
                                          Gardens Ditch, Manson Ditch,
                                          Arnoult Ditch and Shrewsbury
                                          Ditch between the Mississippi
                                          River and IC Railroad Ditch
                                          and the Manson Ditch
                                          contributory area between the
                                          IC Railroad Ditch and West
                                          Metairie Canal.
Parish Line PW No. 2007-23-ps..........  A short term solution to
                                          increase the pumping capacity
                                          to 200 cfs. A long-term
                                          solution to increase the
                                          pumping capacity to 1400 cfs.
Planters Pump Station..................  Replacing all the Waukesha
                                          Engines for pump Nos. 1, 2, 3,
                                          and 4.
Westwego 1 + 2.........................  Engineering improvements to
                                          Canal D between Westwego 1 and
                                          2 by adding a box culvert
                                          between the stations. The
                                          design of a new pump equipment
                                          platform and shelter, designed
                                          for three pumps, and the
                                          installation of one variable
                                          speed 100 cfs pump.
------------------------------------------------------------------------

    Question. There are three main sources of funding to meet this 
need, Federal, State, and local.
    First, what parish-wide or other localized taxes do residents pay 
toward construction of flood protection and drainage projects and how 
much funding does this generate on an annual basis?
    Answer. Jefferson Parish receives in excess of $56 million per year 
in taxes relative to drainage projects to maintain and operate the 
drainage pump systems and canal/pipe infrastructure so as to ensure the 
maximum drainage protection possible for Jefferson Parish given 
budgetary constraints.
    Question. Second, what does the State provide to support the known 
need? State revenue sharing generates approximately $700,000 per year.
    Finally, after Hurricanes Katrina, Rita, Gustav, and Ike, parishes 
have millions in Federal funds for mitigation from FEMA. Much of these 
funds have not yet been obligated. Please provide how much your parish 
has received through Hazard Mitigation Grant Program funds and explain 
how you plan to use such funds within your parish to meet your 
priorities. When will these funds be obligated?
    Answer. To our knowledge the only funding at this time that has not 
been obligated is the additional $15.5 million that has been allocated 
to Jefferson Parish for 1786 (Gustav, scope of work limited to 
elevations of Severe Repetitive Loss (SRL) and Repetitive Loss (RL) 
structures) and the $4.7 million for the Manson Ditch drainage project. 
The parish is in the process of submitting fundable applications for 
these two projects to GOHSEP/FEMA for approval/award/obligation. 
Additional funding may soon be allocated for Hurricane Isaac, but 
official documentation has not yet been seen.
    [Please see attachment B as follows:]

                                                   ATTACHMENT B--JEFFERSON PARISH MITIGATION PROJECTS
                                                                 (As of April 10, 2013)
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                         Federal share of     Number of
           Project ID                   Program            Project type        Project status     Total project award          award          structures
--------------------------------------------------------------------------------------------------------------------------------------------------------
1603-051-0006...................  HMGP Katrina/Rita..  Residential          Active.............        $25,236,229.00        $22,478,271.00          185
                                                        Elevation.
1603-051-0007...................  HMGP Katrina/Rita..  Residential          Active.............          4,820,259.00          3,052,991.00           16
                                                        Reconstruction.
1603c-051-0013..................  HMGP Katrina/Rita..  Residential          Active.............          7,457,453.00          7,030,737.00           44
                                                        Elevation &
                                                        Reconstruction.
1603c-051-0020..................  HMGP Katrina/Rita..  Drainage             Active.............         10,250,789.00         10,250,789.00  ...........
                                                        Improvement.
1603c-051-0026..................  HMGP Katrina/Rita..  Drainage             Active.............          6,472,054.00          5,131,685.00  ...........
                                                        Improvement.
1603n-051-0016..................  HMGP Katrina/Rita..  Drainage             Active.............          3,164,202.00          3,164,202.00  ...........
                                                        Improvement.
1603n-051-0027..................  HMGP Katrina/Rita..  Drainage             Active.............         31,950,586.00         20,000,000.00  ...........
                                                        Improvement.
1607-051-0001...................  HMGP Katrina/Rita..  Residential          Active.............          6,002,704.00          5,688,765.00           39
                                                        Elevation &
                                                        Reconstruction.
1607-051-0002...................  HMGP Katrina/Rita..  Residential          Active.............         10,800,135.00          7,744,429.00           45
                                                        Elevation &
                                                        Reconstruction.
1607-051-0004...................  HMGP Katrina/Rita..  Residential          Active.............          4,048,442.00          4,048,442.00           31
                                                        Elevation.
1607-051-0006...................  HMGP Katrina/Rita..  Residential          Active.............          9,198,235.00          6,176,066.00           36
                                                        Elevation &
                                                        Reconstruction.
1607-051-0007...................  HMGP Katrina/Rita..  Residential          Active.............          3,877,203.00          3,877,203.00           29
                                                        Elevation.
1607-051-0008...................  HMGP Katrina/Rita..  Residential          Active.............          6,027,395.00          4,248,445.00           26
                                                        Elevation &
                                                        Reconstruction.
1607-051-0009...................  HMGP Katrina/Rita..  Residential          Active.............          3,491,562.00          3,491,562.00           29
                                                        Elevation.
SRL-PJ-06-LA-2008-005...........  SRL 2008...........  Residential          Active.............          8,682,660.00          7,814,394.00           51
                                                        Elevation.
SRL-PJ-06-LA-2008-006...........  SRL 2008...........  Residential          Pending Closeout...          1,471,689.44          1,106,404.33            6
                                                        Reconstruction.
SRL-PJ-06-LA-2008-007...........  SRL 2008...........  Residential          Active.............          6,563,644.00          5,909,979.60           42
                                                        Elevation.
SRL-PJ-06-LA-2008-008...........  SRL 2008...........  Residential          Active.............          8,735,580.00          7,862,022.00           52
                                                        Elevation.
SRL-PJ-06-LA-2009-003...........  SRL 2009...........  Residential          Pending Closeout...            928,913.00            714,533.00            4
                                                        Reconstruction.
SRL-PJ-06-LA-2009-004...........  SRL 2009...........  Residential          Active.............          5,734,575.00          5,161,117.00           35
                                                        Elevation.
SRL-PJ-06-LA-2009-005...........  SRL 2009...........  Residential          Active.............          5,382,956.00          4,844,659.40           35
                                                        Elevation.
SRL-PJ-06-LA-2009-013...........  SRL 2009...........  Residential          Active.............          1,691,943.75          1,522,749.37           11
                                                        Elevation.
SRL-PJ-06-LA-2009-015...........  SRL 2009...........  Residential          Active.............          1,297,563.75          1,167,807.37            8
                                                        Elevation.
SRL-PJ-06-LA-2009-019...........  SRL 2009...........  Residential          Active.............            811,187.50            730,068.75            4
                                                        Elevation.
SRL-PJ-06-LA-2009-022...........  SRL 2009...........  Residential          Active.............            401,136.25            361,022.62            3
                                                        Elevation.
SRL-PJ-06-LA-2010-004...........  SRL 2010...........  Residential          Active.............          4,384,536.25          3,946,082.62           31
                                                        Elevation.
SRL-PJ-06-LA-2010-010...........  SRL 2010...........  Presidential         Active.............          7,839,411.85          7,055,470.67           46
                                                        Elevation.
SRL-PJ-06-LA-2011-003...........  SRL 2011...........  Residential          Active.............          3,906,768.75          3,516,091.88           24
                                                        Elevation.
SRL-PJ-06-LA-2012-0001..........  SRL 2012...........  Residential          Active.............          4,289,525.00          3,860,572.50           26
                                                        Elevation.
1786-051-0001...................  HMGP Gustav/Ike....  Residential          Active.............          7,709,899.00          5,782,424.00           45
                                                        Elevation.
FMA-PJ-06-1A-2008-002...........  FMA 2008...........  Drainage             Active.............          3,787,167.00          2,840,375.25  ...........
                                                        Improvement.
                                                                                                --------------------------------------------------------
                                                                                                       206,416,404.54        170,579,361.36          903
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ For a more in-depth explanation of these projects, please contact the program management consultant, Solutient.


------------------------------------------------------------------------
 
------------------------------------------------------------------------
      Total Awarded from HMGP........................    $140,507,147.00
                                                      ==================
      Total Awarded from FMA.........................       3,787,167.00
                                                      ==================
      Total Awarded from SRL.........................      62,122,090.54
                                                      ==================
      Total Awarded for Drainage.....................      55,624,798.00
                                                      ==================
      Total Awarded for Residential..................     150,791,606.54
                                                      ==================
HMGP properties......................................                525
FMA properties.......................................  .................
SRL properties.......................................                378
                                                      ------------------
      Total properties...............................                903
------------------------------------------------------------------------

                             debris removal
    Question. Please describe your efforts so far to assess and remove 
storm-related debris--whether from roadways, neighborhoods, or 
waterways.
    Answer. Jefferson Parish had two pre-event contracts for removal, 
processing and disposal of storm debris from right-of ways. The 
contracts are for unincorporated Jefferson Parish with the option for 
the towns of Lafitte and Grand Isle to, on a case-by-case basis, choose 
to be part of Jefferson Parish for debris removal purposes. In the case 
of Hurricane Isaac, both towns opted to be a part of Jefferson Parish 
for debris removal purposes. The contracts include prices for removing 
sand from roads and removal of debris from roadside ditches and 
drainage canals, although these tasks were not necessary following 
Hurricane Isaac.
    The contract with Ceres Environmental Services, Inc. was used to 
collect, process and dispose of storm debris on the East Bank of 
Jefferson Parish. The contract with DRC Emergency Services, Inc. was 
used to collect storm debris on the West Bank of Jefferson Parish, 
including Lafitte and Grand Isle. Ceres also performed leaner and 
hanger removal from trees on the rights-of-way and the vegetative 
debris removal in Lafreniere and LaSalle Parks.
    In accordance with LA R.S. 30:2413.1, vegetative debris on the East 
Bank was reduced by 50 percent volume and weight by bringing it to Wood 
Materials, 6148 River Road, Harahan, where it was chipped and used in 
compost.
    Vegetative debris on the West Bank was reduced by 50 percent volume 
and weight by bringing it to Hwy. 90 C&D Landfill, 5000 Hwy. 90 W, 
Waggaman, where it was chipped and beneficially re-used as ground 
cover/roadbed material at the landfill.
    Jefferson Parish collected 280,560 cu. yds. of storm debris 
(218,007 cu. yds. vegetative debris and 62,553 cu. yds. construction 
and demolition debris). We also collected 2,200 tons of bagged waste.
    Jefferson Parish prepared an RFP for storm debris removal 
monitoring and management. Nine proposals were received, and an 
Evaluation Committee met on 8-21-12 and scored the proposals. The 
parish council was to select a firm at the 8-29-12 parish council 
meeting, which was canceled as Hurricane Isaac made landfall on 8-29-
12. The parish president executed an emergency contract with SAIC, 
which had the highest overall score considering both technical 
capabilities and cost, to monitor Isaac debris removal activities. SAIC 
monitored all debris removal activities, including right-of-way 
collection, residential storm debris drop-off sites, debris management 
sites, right-of-way leaner/hanger removal, park cleanup, emergency 
street sweeping, PPDR activities, and will also be monitoring 
demolition work.
    The contractors were placed on standby prior to the event, and the 
contracts were activated immediately after the event. Jefferson Parish 
employees and the contractors began assessing the amount and type of 
debris as soon as they could safely go outside. Jefferson Parish began 
right of way debris removal within 24 hours after the hurricane's 
passage and was finished with right-of-way debris removal by the end of 
September 2012. Private Property Debris Removal (PPDR) work was 
authorized by FEMA for the Laffite, Barataria, and Crown Point areas in 
lower Jefferson Parish, which was hardest hit and experienced some 
flooding of homes. PPDR work will be complete next week, with 
vegetative debris to be reduced by 50 percent volume and weight by a 
controlled open burn in a remote area of Parc des Families. FEMA also 
authorized demolition of some storm damaged residential properties in 
the Laffite, Barataria, and Crown Point areas. We anticipate 
demolitions in the Lafitte area to be completed by early June 2013. The 
parish will use an existing contract that the Dept. of Inspection and 
Code Enforcement has with Durr Heavy Construction, Inc. to conduct 
demolitions. The contract is typically used for dangerous building 
abatement, and FEMA has approved its use for Isaac demolitions.
    Hurricane Isaac generated a large amount of bagged debris, mostly 
leaves, due to persistent and long-lasting winds and spoiled food due 
to unpowered refrigerators. Jefferson Parish has a provision in its 
garbage contract to collect additional garbage/trash due to a disaster 
with a pre-contracted price. IESI was used to collect the extremely 
large amount of bagged waste generated by Hurricane Isaac. IESI 
disposed of all bagged waste at the Jefferson Parish landfill. In 
addition, due to the huge volume of bagged waste, the parish suspended 
IESI curbside recycling collection services for one week, and used the 
recycling trucks to collect bagged storm debris. Jefferson Parish also 
had the Public Works Department crews assist in bagged storm debris 
collection.
    Orphaned containers were identified by the Jefferson Parish 
Department of Environmental Affairs, and removed by the U.S. Coast 
Guard and LDEQ in October/November 2012.
    Question. Did your parish have a debris management plan in place 
before Isaac, including identified contractors and storage sites? How 
has the development of a plan, or lack thereof, impacted your success?
    Answer. Yes, Jefferson Parish had a Debris Management Plan, which 
was approved by FEMA in November 2008, and has been used as a model by 
several other parishes. Our success in disaster debris removal is 
enhanced by:
  --having a debris management plan;
  --having pre-event contracts in place;
  --having several sites throughout the parish designated and permitted 
        by LDEQ as emergency debris sites;
  --having residential storm debris drop-off sites available to our 
        residents, as this quickens the debris removal process;
  --knowledge and compliance with LA R.S. 30:2413.1 and the State 
        Debris Management Plan;
  --knowledge and compliance with FEMA and GOHSEP regulations; and
  --seeking guidance from GOHSEP and FEMA throughout post-event 
        activities.
    Jefferson Parish anticipates receiving the maximum allowed 
reimbursement for all Hurricane Isaac debris removal operations.
                          responsible building
    Question. Construction permitting, building code enforcement, and 
floodplain management are all local responsibilities.
    Please describe your parish's efforts leading up to Hurricane Isaac 
to strengthen and enforce codes, promote responsible construction, and 
reduce disaster-related property damage.
    Answer. Jefferson Parish strictly adheres to the technical codes 
proscribed by the Louisiana State Uniform Code Construction Council 
(LSUCCC) when reviewing and permitting development application and when 
inspecting sites for compliance. It is through a competent inspection 
process that our Parish promotes responsible construction and 
effectively reduces disaster-related property damage.
    Question. Have you considered any new initiatives related to 
building codes or floodplain management since the storm?
    Answer. With regard to the technical codes, the LSUCCC does not 
provide Jefferson Parish with any authority to modify these codes. 
However, we continually consider and occasionally amend the 
administrative sections to achieve optimal compliance. Hurricane Isaac 
did not present any new challenges, and therefore no new initiatives 
have been considered.
    Question. Do you have a parish-wide drainage and rainwater control 
planning process?
    Answer. Jefferson Parish's code of ordinances addresses the various 
requirements for new developments and existing properties for detaining 
rainwater and/or routing to the established drainage system as well as 
the maintenance of drainage right of ways, catch basins, and subsurface 
piping.
                                 ______
                                 
               Questions Submitted to Plaquemines Parish
                            rainy day funds
    Question. Most of the parishes that have Presidents testifying in 
the hearing have been declared eligible for Federal disaster assistance 
six times in the past 7 years (after Hurricanes Katrina, Rita, Gustav, 
and Ike, Tropical Storm Lee, and now Hurricane Isaac). In all of these 
disasters, FEMA authorized public assistance for Louisiana communities 
with a cost-share. Congress waived that cost-share for Hurricanes 
Katrina and Rita after 2 years of foot-dragging by the previous 
administration, but the current earmark ban prohibits Congress from 
taking similar action now.
    The Governor has asked the Federal Government to pick up 100 
percent of emergency response costs from Hurricane Isaac by eliminating 
the normal 25 percent match. My colleague, Senator Vitter, has written 
to the President in support of that request.
    State Representative Jared Brossett recently raised the issue of 
State budgeting for disasters as Chairman of the Hurricane Recovery 
Committee in the legislature, and he sent a letter on Friday to the 
Governor and Commissioner of Administration that I will include in the 
hearing record. According to information provided to my office by the 
legislature, the State of Louisiana has five separate reserve funds 
which could be tapped to assist parishes with their cost-share for 
Isaac recovery:
  --The State Emergency Response Fund (SERF) has a balance of $16.5 
        million;
  --The FEMA Reimbursement Fund has a balance of $35,000;
  --The Interim Emergency Board fund has a balance of $4.6 million;
  --The Budget Stabilization Fund, also known as the Rainy Day Fund, 
        has a balance of $443 million; and
  --And last week, the State declared a surplus of more than $130 
        million.
    That comes to $499 million in Baton Rouge that the Governor has 
authority to use for the purpose of assisting local governments with 
their cost-share for this event. It's my understanding that parishes 
did not receive any assistance from the State to split or defray their 
cost-share requirements in Gustav or Ike and that the Governor has not 
offered to help parishes with their cost-share for this disaster 
either.
    Have each of you now asked the Governor and/or the legislature to 
provide a portion of those State funds to help cover your 25 percent 
cost-share for Hurricane Isaac?
    Answer. Yes for Plaquemines Parish.
    Question. If you have already made such a request to the State, 
what response, if any, have you received? If not, are you still 
inclined to do so?
    Answer. The Governor says funding is unavailable at this time.
    Question. Does your parish have money in its regular budget for 
disaster response and recovery efforts, including funding to satisfy 
Federal cost-share requirements and leverage Federal dollars under the 
FEMA public assistance program?
    Answer. No.
    Question. Do you have emergency legal authority to borrow or raise 
these funds when recovery priorities demand it?
    Answer. No.
                 local use of hazard mitigation funding
    Question. Each of the parish presidents represented in the hearing 
has to make choices about flood protection projects to reduce 
vulnerability to future flood events through drainage improvements, 
levee repairs, home elevations, and other measures.
    What are highest priority flood protection projects in your 
parishes and what are the costs associated with them?
    Answer. (1) Coastal Restoration Plan construction; (2) drainage 
improvements in Belle Chasse; and (3) federalized 1 percent levees in 
lower and East Bank regions that are 100 percent federally funded.
    Question. There are three main sources of funding to meet this 
need, Federal, State, and local.
    First, what parish-wide or other localized taxes do residents pay 
toward construction of flood protection and drainage projects and how 
much funding does this generate on an annual basis?
    Answer. There are no parish-wide or other localized taxed leveed 
specifically toward construction of flood protection and drainage 
projects. Needed local funds are generated through bonding future 
general tax revenues as required and available. The parish has bonded 
out $50 million recently to try and address as many of these issues as 
possible.
    Question. Second, what does the State provide to support the known 
need?
    Answer. CDBG, HMGP, and LGAP funding opportunities although most 
are competitive.
    Question. Finally, after Hurricanes Katrina, Rita, Gustav, and Ike, 
parishes have millions in Federal funds for mitigation from FEMA. Much 
of these funds have not yet been obligated. Please provide how much 
your parish has received through Hazard Mitigation Grant Program funds 
and explain how you plan to use such funds within your parish to meet 
your priorities.
    Answer. Even though Plaquemines Parish was heavily damaged we 
received relatively little HMGP funding after Katrina, Rita, Gustav, 
and Ike.
    Question. When will these funds be obligated?
    Answer. These funds are all currently obligated and either under 
construction or completed. We have recently learned that an additional 
$64 million has been obligated in CDBG funding for Plaquemines and St. 
Johns Parishes. Plaquemines Parish hopes to receive at least 50 percent 
of that allocation.
                             debris removal
    Question. Please describe your efforts so far to assess and remove 
storm-related debris--whether from roadways, neighborhoods, or 
waterways.
    Answer. PWs are written and activity underway for roadways and 
neighborhoods. Waterways are still being evaluated by FEMA for 
approval. Levee debris removal is currently underway. Neighborhoods 
that are unimproved and are without residents along with waterways have 
not yet been deemed reimbursable by FEMA and the parish does not have 
the funds to remove debris.
    Question. Did your parish have a debris management plan in place 
before Isaac, including identified contractors and storage sites?
    Answer. Yes. Emergency response contracts were in place and debris 
removal locations and timeframes were mapped out.
    Question. How has the development of a plan, or lack thereof, 
impacted your success?
    Answer. Positive impact has been minimal due to the FEMA PW 
approval process. Work cannot be started until approved and approval 
has taken longer than expected. We do have a good working relationship 
with FEMA however and have every expectation for a positive outcome in 
the end.
                          responsible building
    Question. Construction permitting, building code enforcement and 
floodplain management are all local responsibilities.
    Please describe your parish's efforts leading up to Hurricane Isaac 
to strengthen and enforce codes, promote responsible construction, and 
reduce disaster-related property damage.
    Answer. The parish adheres to the National Building Code for 
construction and has code enforcement officers to inspect work in 
progress. New FIRMs are being reviewed for BFE requirements. The parish 
was thrown a significant curve to overcome with the Biggert-Waters Act 
which was passed by Congress. The impact on the homeowners and the 
economy of this parish cannot be overstated. We must get Congress to 
amend or repeal at least portions of the act. For instance, we have 
homes that were elevated using Federal dollars to bring them into 
compliance with the current BFEs. Those same homes will now need to be 
raised again as a result of doing away with the grandfathering of 
rates. We have homes which were constructed as much as 4 feet above 
current BFEs in order to provide additional safety from rising water. 
Those homes will now be required to be 6 to 8 feet higher just to meet 
the new BFEs required by the new FIRMs or the homeowners will see their 
NFIP rates skyrocket or see their homes lose their value. East coast 
residents impacted by Hurricane Sandy are experiencing the same issues. 
Something must be done to correct this injustice.
    Question. Have you considered any new initiatives related to 
building codes or floodplain management since the storm?
    Answer. We are considering new FIRMs for elevations and 
construction requirements. We constantly consider ways and new 
initiatives to improve building codes and floodplain management. We 
have a floodplain manager on staff who is tasked with insuring we 
adhere to best practices and latest available information.
    Question. Do you have a parish-wide drainage and rainwater control 
planning process?
    Answer. Yes. We have a drainage master plan and a comprehensive 
master plan which address these issues.
                                 ______
                                 
           Questions Submitted to St. John the Baptist Parish
                            rainy day funds
    Question. Most of the parishes that have Presidents testifying in 
the hearing have been declared eligible for Federal disaster assistance 
six times in the past 7 years (after Hurricanes Katrina, Rita, Gustav, 
and Ike, Tropical Storm Lee, and now Hurricane Isaac). In all of these 
disasters, FEMA authorized public assistance for Louisiana communities 
with a cost-share. Congress waived that cost-share for Hurricanes 
Katrina and Rita after 2 years of foot-dragging by the previous 
administration, but the current earmark ban prohibits Congress from 
taking similar action now.
    The Governor has asked the Federal Government to pick up 100 
percent of emergency response costs from Hurricane Isaac by eliminating 
the normal 25 percent match. My colleague, Senator Vitter, has written 
to the President in support of that request.
    State Representative Jared Brossett recently raised the issue of 
State budgeting for disasters as Chairman of the Hurricane Recovery 
Committee in the legislature, and he sent a letter on Friday to the 
Governor and Commissioner of Administration that I will include in the 
hearing record. According to information provided to my office by the 
legislature, the State of Louisiana has five separate reserve funds 
which could be tapped to assist parishes with their cost-share for 
Isaac recovery:
  --The State Emergency Response Fund (SERF) has a balance of $16.5 
        million;
  --The FEMA Reimbursement Fund has a balance of $35,000;
  --The Interim Emergency Board fund has a balance of $4.6 million;
  --The Budget Stabilization Fund, also known as the Rainy Day Fund, 
        has a balance of $443 million; and
  --And last week, the State declared a surplus of more than $130 
        million.
    That comes to $499 million in Baton Rouge that the Governor has 
authority to use for the purpose of assisting local governments with 
their cost-share for this event. It's my understanding that parishes 
did not receive any assistance from the State to split or defray their 
cost-share requirements in Gustav or Ike and that the Governor has not 
offered to help parishes with their cost-share for this disaster 
either.
    Have each of you now asked the Governor and/or the legislature to 
provide a portion of those State funds to help cover your 25 percent 
cost-share for Hurricane Isaac?
    Answer. Yes, a request has been made to the Governor for assistance 
with the local match.
    Question. If you have already made such a request to the State, 
what response, if any, have you received? If not, are you still 
inclined to do so?
    Answer. I was informed that funds are not available to assist with 
the match.
    Question. Does your parish have money in its regular budget for 
disaster response and recovery efforts, including funding to satisfy 
Federal cost-share requirements and leverage Federal dollars under the 
FEMA public assistance program?
    Answer. St. John the Baptist Parish does not have adequate funds 
within our budget to support disaster response and recovery or to 
satisfy the local cost-share.
    Question. Do you have emergency legal authority to borrow or raise 
these funds when recovery priorities demand it?
    Answer. Yes, the parish has legal authority to borrow funds to 
address recovery priorities.
                 local use of hazard mitigation funding
    Question. Each of the parish presidents represented in the hearing 
has to make choices about flood protection projects to reduce 
vulnerability to future flood events through drainage improvements, 
levee repairs, home elevations, and other measures.
    What are highest priority flood protection projects in your 
parishes and what are the costs associated with them?
    Answer. The Westshore Lake Pontchartrain Levee Protection Project 
is the highest priority need relative to flood protection for St. John 
the Baptist Parish. The Corps of Engineers needs $1 million to complete 
an ongoing Feasibility Study for this project. An additional $550 
million is required for construction of the ``Locally Preferred 
Alignment'' from the Upper Guide Levee to the Marvin Braud Pump 
Station, encompassing St. Charles, St. John, St. James, and Ascension 
Parishes.
    Question. First, what parish-wide or other localized taxes do 
residents pay toward construction of flood protection and drainage 
projects and how much funding does this generate on an annual basis?
    Answer. St. John the Baptist Parish supports all Public Works 
functions through a .375 percent sales tax that generates $4 million 
annually. These funds are supplemented by one-third of a 1-percent 
sales tax that generates $11 million annually; however, these funds are 
used for personnel, service and maintenance of roads, bridges and 
drainage. There is no dedicated tax for flood protection and major 
drainage projects are funded through bond issues and grant funds. 
Approximately $10 million in drainage projects have been completed in 
the last 3 years with another $7 million in design.
    Question. Second, what does the State provide to support the known 
need?
    Answer. There is no direct State support for drainage projects, 
however St. John has benefited from grant funds through the Office of 
Community Development--Disaster Recovery Unit. There have also been 
capital outlay requests to support levee construction through the 
Pontchartrain Levee District. Funding through the Coastal Protection 
and Restoration Authority is also anticipated for future projects.
    Question. Finally, after Hurricanes Katrina, Rita, Gustav, and Ike, 
parishes have millions in Federal funds for mitigation from FEMA. Much 
of these funds have not yet been obligated. Please provide how much 
your parish has received through Hazard Mitigation Grant Program funds 
and explain how you plan to use such funds within your parish to meet 
your priorities. When will these funds be obligated?
    Answer. In 2009, the Louisiana Recovery Authority in conjunction 
with the Office of Community Development, the Disaster Recovery Unit 
and HUD obligated $10.4 million to St. John the Baptist Parish for 
Mitigation and Hazard Mitigation projects for infrastructure recovery, 
home repairs, and community resiliency.

               PROJECTS IN ST. JOHN THE BAPTIST PARISH \1\
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Reserve Drainage Project--(GOSEPH/FEMA-sponsored).......      $3,400,000
Foxwood Levee--(CDBG Mitigation)........................       1,700,000
Home Repairs--(Housing Mitigation)......................       2,200,000
Emergency Generators--(Mitigation)......................       1,100,000
Canal Clearing--(Mitigation)............................       1,200,000
Peavine Boat Launch--(Mitigation).......................         300,000
Community Resiliency & Land Use--(CDBG).................         500,000
------------------------------------------------------------------------
The parish received no HM funding for Katrina.

                             debris removal
    Question. Please describe your efforts so far to assess and remove 
storm-related debris--whether from roadways, neighborhoods, or 
waterways.
    Answer. The parish has focused on removing construction and 
demolition (C&D) debris and vegetative debris from roadways and 
neighborhoods for the past 6 months. During that time, in excess of 
221,000 cubic yards of debris has been removed. Assessment of canals, 
storm drains and culverts is ongoing, but we anticipate additional 
removal efforts.
    Question. Did your parish have a debris management plan in place 
before Isaac, including identified contractors and storage sites? How 
has the development of a plan, or lack thereof, impacted your success?
    Answer. The parish's debris management plan was in place and was 
included in the Emergency Operations Plan before Isaac. Contracts were 
in place for both debris removal and monitoring prior to hurricane 
season, along with identified and permitted storage sites. Flooding of 
one of the permitted storage sites briefly delayed debris removal, but 
the situation was quickly remedied. This prior planning greatly 
enhanced the success of the debris removal process and allowed the 
parish to seamlessly move into debris removal once the storm water 
subsided.
                          responsible building
    Question. Construction permitting, building code enforcement, and 
floodplain management are all local responsibilities.
    Please describe your parish's efforts leading up to Hurricane Isaac 
to strengthen and enforce codes, promote responsible construction, and 
reduce disaster-related property damage.
    Answer. St. John the Baptist Parish is a member of the National 
Flood Insurance Program (NFIP) and has participated in the Community 
Rating System Program (CRS) since 1991. The parish undertakes a series 
of activities to protect its citizens from losses caused by flooding 
and has significantly exceeded the requirements for NFIP participation 
and effective floodplain management.
    In May 2010, St. John was awarded a CRS class 8 grade due to 
upgraded building codes and adherence to stronger State requirements 
for building. The Department of Planning and Zoning maintains elevation 
certificates, provides flood insurance rate maps to our citizens, 
conducts citizen outreach projects throughout the year, makes flood 
information literature available throughout the parish, i.e., library, 
Home Depot, etc. A digitized mapping system (GIS) is maintained and 
updated, annual notifications are provided to our repetitive loss 
property owners, and flood information is provided to insurance and 
real estate agents throughout the parish.
    In June 2010, St. John was awarded a grant through the LRA's 
Comprehensive Resiliency Program. This grant focuses on community 
resiliency, as well as the capability to anticipate risk, limit impact, 
and bounce back in the face of turbulent changes. Also included in the 
grant is completion of phase IV of a comprehensive land use plan and 
revisions to existing zoning and subdivision ordinances.
    In October 2010, St. John the Baptist Parish adopted FEMA's updated 
Flood Maps.
    St. John Parish currently has an agreement with the South Central 
Planning and Development Commission to serve as the parish's third-
party building official to assist with implementation of the Louisiana 
State Uniform Construction Code. Pursuant to La. R.S. 40:1730.21 et 
seq., the Louisiana State Uniform Construction Code and any amendment 
adopted thereto are hereby adopted as the regulations for governing the 
construction or placement of buildings and structures within the 
parish.
    In March 2011, an updated Hazard Mitigation Plan (HMP) was adopted.
    In June 2011, St. John the Baptist Parish became an active member 
of a Community Rating System User Group involving five-area parishes. 
The group is known as FLOAT (Flood Loss Outreach and Awareness 
Taskforce) and meets monthly to brainstorm ideas relative to mitigation 
and raising the bar toward higher flood regulations.
    Have you considered any new initiatives related to building codes 
or floodplain management since the storm?
    Answer. As of yet, St. John the Baptist Parish has not considered 
any new initiatives related to building codes or floodplain management 
other than possible acquisitions/elevations for Repetitive and Severe 
Repetitive Loss properties.
    Question. Do you have a parish-wide drainage and rainwater control 
planning process?
    Answer. St. John the Baptist Parish has parish-wide drainage which 
includes gravity flow from the Mississippi River to Lake Pontchartrain 
and numerous pumping stations. Drainage plans for new subdivisions and 
developments include a drainage study as well as possible retention 
ponds. Drainage for new construction is the responsibility of the 
developer. All drainage plans are reviewed by the Department of Public 
Works and the parish engineer prior to issuing a permit.
                                 ______
                                 
               Questions Submitted to St. Tammany Parish
                            rainy day funds
    Question. Most of the parishes that have Presidents testifying in 
the hearing have been declared eligible for Federal disaster assistance 
six times in the past 7 years (after Hurricanes Katrina, Rita, Gustav, 
and Ike, Tropical Storm Lee, and now Hurricane Isaac). In all of these 
disasters, FEMA authorized public assistance for Louisiana communities 
with a cost-share. Congress waived that cost-share for Hurricanes 
Katrina and Rita after 2 years of foot-dragging by the previous 
administration, but the current earmark ban prohibits Congress from 
taking similar action now.
    The Governor has asked the Federal Government to pick up 100 
percent of emergency response costs from Hurricane Isaac by eliminating 
the normal 25 percent match. My colleague, Senator Vitter, has written 
to the President in support of that request.
    State Representative Jared Brossett recently raised the issue of 
State budgeting for disasters as Chairman of the Hurricane Recovery 
Committee in the legislature, and he sent a letter on Friday to the 
Governor and Commissioner of Administration that I will include in the 
hearing record. According to information provided to my office by the 
legislature, the State of Louisiana has five separate reserve funds 
which could be tapped to assist parishes with their cost-share for 
Isaac recovery:
  --The State Emergency Response Fund (SERF) has a balance of $16.5 
        million;
  --The FEMA Reimbursement Fund has a balance of $35,000;
  --The Interim Emergency Board fund has a balance of $4.6 million;
  --The Budget Stabilization Fund, also known as the Rainy Day Fund, 
        has a balance of $443 million; and
  --And last week, the State declared a surplus of more than $130 
        million.
    That comes to $499 million in Baton Rouge that the Governor has 
authority to use for the purpose of assisting local governments with 
their cost-share for this event. Its my understanding that parishes did 
not receive any assistance from the State to split or defray their 
cost-share requirements in Gustav or Ike and that the Governor has not 
offered to help parishes with their cost-share for this disaster 
either.
    Have each of you now asked the Governor and/or the legislature to 
provide a portion of those State funds to help cover your 25-percent 
cost-share for Hurricane Isaac?
    Answer. Yes.
    Question. If you have already made such a request to the State, 
what response, if any, have you received? If not, are you still 
inclined to do so?
    Answer. I have not received any response.
    Question. Does your parish have money in its regular budget for 
disaster response and recovery efforts, including funding to satisfy 
Federal cost-share requirements and leverage Federal dollars under the 
FEMA public assistance program?
    Answer. No.
    Question. Do you have emergency legal authority to borrow or raise 
these funds when recovery priorities demand it?
    Answer. Yes.
                 local use of hazard mitigation funding
    Question. Each of the parish presidents represented in the hearing 
has to make choices about flood protection projects to reduce 
vulnerability to future flood events through drainage improvements, 
levee repairs, home elevations, and other measures.
    What are highest priority flood protection projects in your 
parishes and what are the costs associated with them?
    Answer. A high priority project is the elevation of Highway 11 in 
the Slidell area. This project is estimated to cost $2 million. The 
parish has other high priority flood protection projects within its 
boundaries, including the Slidell levee system. Portions of this levee 
system have been or are in the process of being built by the parish. 
The majority of the system is yet to be constructed pending 
identification of funding. The estimated cost to complete the system is 
over $100 million.
    There are three main sources of funding to meet this need, Federal, 
State and local.
    Question. First, what parish-wide or other localized taxes do 
residents pay toward construction of flood protection and drainage 
projects and how much funding does this generate on an annual basis?
    Answer. We have no funds for flood protection. Our drainage tax 
generates $3 million parish-wide of which $800,000 is used for 
maintenance activities and the balance of $2.2 million is used for 
capital projects.
    Question. Second, what does the State provide to support the known 
need?
    Answer. The State has provided partial funding to St. Tammany for 
our Slidell levee project via the Capital Outlay process. This is the 
only State funding that has been received.
    Question. Finally, after Hurricanes Katrina, Rita, Gustav, and Ike, 
parishes have millions in Federal funds for mitigation from FEMA. Much 
of these funds have not yet been obligated. Please provide how much 
your parish has received through Hazard Mitigation Grant Program funds 
and explain how you plan to use such funds within your parish to meet 
your priorities. When will these funds be obligated?
    Answer. St. Tammany has received over $30 million in residential 
mitigation grants to elevate or acquire flood prone structures. With 
respect to FEMA mitigation funding for drainage projects, we have just 
received notice of award on three projects totaling approximately $17 
million. We have previously been awarded three other drainage projects 
totaling about $2 million.
                             debris removal
    Question. Please describe your efforts so far to assess and remove 
storm-related debris--whether from roadways, neighborhoods, or 
waterways.
    Answer. St. Tammany Parish immediately after Isaac assessed all 
storm-related debris and activated its pre-storm contracts for right of 
way debris removal and monitoring. These efforts have continued and are 
almost complete pending a pass to remove household hazardous waste, 
white goods and other regulated debris streams.
    Did your parish have a debris management plan in place before 
Isaac, including identified contractors and storage sites? How has the 
development of a plan, or lack thereof, impacted your success?
    Answer. Yes, we had a plan in place prior to Isaac.
                          responsible building
    Question. Construction permitting, building code enforcement, and 
floodplain management are all local responsibilities.
    Please describe your parish's efforts leading up to Hurricane Isaac 
to strengthen and enforce codes, promote responsible construction, and 
reduce disaster-related property damage.
    Answer. St. Tammany Parish strictly enforces all State adopted 
construction codes and all required NFU guidelines. We have multiple 
flood plain managers on staff which are integral parts to our 
permitting process. We have an active hazard mitigation section which 
counsels those in flood prone areas on options for mitigating against 
future flooding.
    Question. Have you considered any new initiatives related to 
building codes or floodplain management since the storm?
    Answer. St. Tammany Parish has applied for planning grants to 
assist in identifying and prioritizing residential and commercial 
structures in flood prone areas. Such an effort is needed in order to 
proactively address the over 2,000 repetitive loss structures (and 
other non-listed flood prone structures) with the available funding.
    Question. you have a parish-wide drainage and rainwater control 
planning process?
    Answer. Yes.
                                 ______
                                 
Questions Submitted to the Coastal Protection and Restoration Authority 
                              of Louisiana
                  state resources for flood protection
    Question. The Federal Government has authorized programs that 
provide billions of dollars to the State of Louisiana for flood 
protection and coastal restoration efforts. When all dollars are 
obligated, the Coastal Impact Assistance Program (CIAP) will have 
provided $500 million to the State of Louisiana, the Coastal Wetlands 
Planning Protection and Restoration Act (CWPPRA) has provided over $720 
million in the last 10 years, and the RESTORE Act is expected to bring 
$2 to $6 billion to Louisiana. By way of supplemental appropriations, 
the Federal Government also committed $14.5 billion to the New Orleans 
metropolitan hurricane protection system.
    What is the average annual investment in flood protection and 
coastal restoration by the State, not including Federal ``pass 
through'' dollars? What is the total investment by the State since 
Hurricane Katrina, and what will the State invest in the next 5 years?
    What are the sources of that revenue?
    What are the costs associated with developing and maintaining the 
State Coastal Master Plan for the last 7 years and for the upcoming 5 
years? How much in State funding has the State of Louisiana obligated 
to development and maintenance of the Plan over the last 7 years and 
for the future 5 years?
    Answer. [Responses were not provided.]
                obstacles from the corps on master plan
    Question. From the State's perspective, what Corps issues must 
still be resolved in order for the State to move forward as efficiently 
and cost-effectively as possible with the Coastal Master Plan?
    Answer. [A response was not provided.]
                   beneficial use of dredged material
    Question. We have regular dredging activity from the lower 
Mississippi River. What can the State do to augment the beneficial use 
of the dredged material to replenish our wetlands?
    Answer. [A response was not provided.]
                                 ______
                                 
               Questions Submitted to Shaw Coastal, Inc.
    Question. Can you speak to the impacts of the Modified Charleston 
Method for calculating mitigation requirements for some of the projects 
with which you're familiar?
    Answer. In short, the Modified Charleston Method is an ``arbitrary 
and capricious'' process and has ``double or tripled'' our mitigation 
cost which are primarily public projects. It is a ``black box'' 
approach with no method of contesting the results. This method has 
increased mitigation cost by two or three times and has not relaxed the 
``maintaining for 20 years'' requirement: which over a 20-year period 
could extend the cost five to ten times greater due to severe storm 
events. The method is not flexible. For example, the analyst has a 
spreadsheet that has very limited range of categories to classify 
wetlands such as either low-quality wetlands or medium-quality wetlands 
or high-quality wetlands. If in doubt, and an analyst classifies a low-
quality as a medium-quality area, the results on required mitigation 
can be greatly impacted by this simple classification error.
    Question. What are the top three changes that could be made in the 
Corps process for planning, engineering, and designing (and 
construction) that would expedite projects and make the process faster 
and more cost-effective?
    Answer. [Follows:]
    (1) The decision process for water resources projects, hurricane 
protection, waterway improvements, and port development and 
improvements is not a functional process. The time it takes to 
authorize a study, appropriate the study funds, go thru a 5- to 8-year 
study process as outlined in the Corps Principles and Guidelines, 
authorize a plan and then appropriate the funds to build the project is 
so long that in most cases the needs and requirements of the projects 
have changed before it is finished. In the private sector, decisions 
and funding has to be made in a manner that is driven by the needs and 
requirements of the project or the project is guaranteed to fail before 
it starts.
  --(A) Hurricane Protection.--If after 30 years of construction, a 
        project that should have taken 5 to 8 years to complete is not 
        finished, then the needs and requirements for that project in 
        year 31 would certainly have changed and therefore the project 
        is not functional to the intent it was built, and is probably 
        doomed to fail.
  --(B) Waterway Improvements.--If the requirements of a existing 
        waterway or channel take to 10+ years to plan, engineer, and 
        design, and then 5 to 8 years to construct, then the planners, 
        decisionmakers, engineers, appropriators, and builders need to 
        either shorten their decisionmaking process or make sure they 
        are at least 15 to 18 years ahead of the actual needs of the 
        waterway system to deliver the benefits for which the waterway 
        has been constructed.
    A good example would be that the Mississippi River, the Gulf 
        Intracoastal Waterway and the Nation's Inland Waterway Systems 
        cannot function properly in 2013, based on a design of a 
        waterway transportation plan produced in the 1930s. Imagine how 
        our Nation's highway system would function if we were still 
        only using our 1930 roads and bridges and we didn't have such a 
        sophisticated Interstate Highway System. One of the main 
        differences in our Federal Interstate System and our Federal 
        Water Resources Program is the there is a dedicated 
        transportation funding source (should be growing with inflation 
        but it's not) and the improvements are planned and engineered 
        in a timely manner and construction is funded in 5-year 
        increments.
  --(C) Port Development and Improvements.--Publicly funded port 
        improvements problems are somewhat similar to the problems in 
        (1) and (2) above, but the main difference is that the 
        timeframe between identifying the needs and when the 
        improvements are required are even shorter. The increased 
        domestic port capacities required to support the ``new'' Panama 
        Canal Expansion Project is a good example of this problem. 
        Everybody knows that the funds and construction of the domestic 
        improvements to this major navigation project should have 
        already be started and that we be not be able to reap the 
        benefits associated by this project until later and we might 
        lose them altogether to other Caribbean ports.
    (2) Construction ``in-the-wet'' should become the normal not the 
exception. It has been our experience that when time and money are the 
driving forces for the Decision Makers constructing the project ``in-
the-wet'' greatly reduces the construction time, therefore getting the 
project benefits earlier, and greatly reduces the cost of cofferdams, 
de-watering systems, by-pass channel, temporary navigation fendering 
and lighting systems and many other cost that don't have anything to do 
with the completed structure. In addition to the time and cost savings 
with proper O&M the structure life can be made to be similar to 
``poured-in-place'' concrete structures.
    (3) Making everybody involved in the planning, engineering and 
design, bidding, construction and construction management responsible 
and accountable for their cost and delivery dates. It is also key to 
the program's success that the funding streams for the five functions 
listed above be implemented in a timely manner with project outcomes 
and benefits as the driving forces toward decisions and 
implementations.
                         true costs of projects
    Question. Can you speak about this and provide specific examples?
    Answer. [Follows:]
  --Houma Navigation Canal Complex.--a 250'W x 24'D x 18'H movable 
        barge-type floodgate with 750' of floodwalls built for $49.0 
        million compared to an estimated $85 million earthen dam.
  --Bayou Grand Caillou.--a 196'W x 12'D x 18'H movable barge-type 
        floodgate with 450' of floodwalls built for $25.5 million.
  --Bush Canal Floodgate.--a 56'W x 10'D x 18'H movable barge-type 
        floodgate with 350' of floodwalls built for $15.1 million.
  --Reach F Levee, Reach H2 Levee and Reach H3 Levee Projects.--Built 
        for $11.97 per cubic yard and $8.98 per cubic yard 
        respectively. (H2 included a significant amount of rock bank 
        stabilization along a portion of the borrow canal.)
    Question. Why do you believe Shaw's estimates are so much lower? 
Give examples.
    Answer. Shaw's recent projects (Houma Navigation Canal Complex, the 
Bayou Grand Caillou, the Bush Canal Floodgate, and the Reach F levee 
projects) have been within budget and successful partly for the 
following reasons:
  --Use of ``in-the-wet'' construction techniques as discussed above 
        that greatly shorten construction schedules and equipment, 
        material, and labor requirements.
  --Decentralization and Flexibility of the Decisionmaking Process.--
        The local levee districts and the Louisiana Office of Coastal 
        Protection and Restoration (OCPR) often employ the same 
        professional consultants that the Corps use, but the local 
        board and OCPR allow the professional engineers to design the 
        projects without using overly cumbersome guidelines and 
        engineering manuals that don't provide the flexibility that 
        novel designs require.
    For example on the structure projects, there is no engineering 
manual that the Corps can consult to build a steel sheet pile wall 
braced with steel piles that is the key component to these projects. 
There is no manual so the Corps cannot build it.
    For example on the levee projects, the Corps requires the use of 
borrow pits that the Corps certifies. This limits competition and can 
increase hauling distance. On the Reach F1, Reach H2, and Reach H3, the 
land adjacent to the project was tested and met Corps requirements for 
clay. Therefore it was dredged using an excavator and placed directly 
on the levee alignment without requiring hauling from a remote borrow 
pit.
    Question. Would the projects in question still be built to ``Corps 
standards?''
    Answer. Yes, with certain qualifications.

                         CONCLUSION OF HEARING

    Senator Landrieu. We are really going to try to push the 
envelope. We do not have an answer, but we can promise you we 
are going to give it our best effort.
    Thank you, and the meeting is adjourned. The subcommittee 
staff will close this on October 9. Thank you so much.
    Mr. Graves. Thank you, Madam Chair. I appreciate it. Thank 
you to your staff as well.
    Senator Landrieu. Thank you.
    [Whereupon, at 12:35 p.m., Tuesday, September 25, the 
hearing was concluded, and the subcommittee was recessed, to 
reconvene subject to the call of the Chair.]


              MATERIAL SUBMITTED SUBSEQUENT TO THE HEARING

    [Clerk's Note.--The following outside witness testimony was 
received subsequent to the hearing for inclusion in the 
record.]
  Prepared Statement of Hon. Freddy Drennan, Mayor, City of Slidell, 
                               Louisiana
    Chairwoman Landrieu and members of the committee: Thank you for 
allowing me to submit a statement for the record on behalf of the city 
of Slidell, Louisiana.
    Hurricane Isaac has caused severe damage to the State of Louisiana. 
The city of Slidell had more than 200 flooded households within its Old 
Town area, many of which are just getting back to pre-Katrina 
conditions. Alleviation of flooding threats is crucial to long-term 
confidence and economic recovery as well as the emotional wellbeing of 
residents. Fortunately, the source of flooding from Isaac has been 
identified and a remedial action, which is cost effective and 
expedient, is possible.
    Bayou Pattasat drains a large basin comprised of much of the old 
section of Slidell and serves as a vital outlet for storm water runoff. 
Unfortunately, the areas surrounding the pump station at the end of 
this canal are lower in elevation than the adjacent railroad tracks 
under which the bayou passes. As lake levels rise, this area is 
overtopped allowing flood waters to flow up the canal, under the 
tracks, and into the residential areas as happened during Katrina and 
now Isaac. The protection system would be 2,000 feet in length with an 
average height of approximately 5-6 feet above the current grade.
    The cost of gutting and debris hauling from the affected homes 
alone should be at least $2,500,000. This cost does not take into 
account the economic impact to families or the interruption of service. 
Conversely, the project cost for construction of the proposed 
protection project is estimated at a mere $985,000.
    While the economic cost to the citizens of Slidell can be 
quantified and cataloged, the emotional and long-term impacts on a 
community caused by a flooding event are difficult, if not impossible, 
to fully capture. This project provides a prompt and cost-effective 
solution to a problem, which, unabated, will remain a certain risk each 
storm season. We hope that this letter will provide the impetus to move 
forward with a project sure to serve the community of Slidell well in 
the near future and many storm seasons to come.
    Again, thank you Madam Chair and members of the committee for 
allowing this statement to be entered into the record.
            Prepared Statement of Greater New Orleans, Inc.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       Prepared Statement of New Orleans Sewerage and Water Board
    Chairwoman Landrieu and members of the committee: Thank you for 
allowing me to submit a statement for the record on behalf of the New 
Orleans Sewerage and Water Board (S&WB).
    Hurricane Isaac was a large, slow-moving storm that produced more 
rainfall than Hurricane Katrina. It produced over 20 inches of total 
rainfall in New Orleans, which was the highest in the metro area. The 
S&WB drainage system relies on 24 pump stations to empty the city of 
rainwater. Since Hurricane Katrina, about $1 billion has been spent 
repairing and modernizing the system; however, the system can only 
remove an inch of water on the streets within the first hour after the 
pumps are activated and half an inch per hour thereafter. While we did 
have street flooding in many of the usual, low-lying areas, overall the 
S&WB's drainage system performed very well. Our system benefited from 
on-site power and, despite battling power outages, it pumped at full 
capacity throughout the storm. The system also benefited from 
redundancies, which provided multiple layers of back up, and much 
improved coordination and communication with the Corps of Engineers and 
other government entities.
    However, we did face challenges when an issue arose with several of 
the Corps' pumps located at the Interim Control Structure on the 17th 
Street Canal. This matter is of great concern to both New Orleans and 
Jefferson Parish. As you know, our systems frequently must work in 
tandem to properly drain areas within the Hurricane Storm Damage Risk 
Reduction System (HSDRRS). This ability was hampered by the Corps 
inability to remotely trigger their pumps at the 17th Street Canal. 
Because the Corps was unable to remotely start their pumps, the S&WB 
was forced to slow down pumping operations at Pump Station 6 in order 
to avoid overtopping at the 17th Street Canal. The Canal was not full 
at the time so this pumping lull did not worsen street flooding. 
However, this scenario could be avoided if the Corps would allow us to 
decommission Pump Station 6 and our other two interior drainage pumping 
stations, which are located on the Orleans and London Avenue canals, 
and not rely on tandem pumping.
    The improved pump stations are significant features of the 
Southeast Louisiana Urban Flood Control Program (SELA). While there are 
hiccups, overall SELA is a good model of a coordinated, multi-
jurisdictional drainage and flood damage reduction program. 
Construction of SELA projects has been ongoing since 1997. The S&WB and 
the Corps have set an aggressive construction schedule to complete the 
remaining nine SELA projects in Orleans Parish and are committed to 
completing them by 2016. The current estimate to construct these 
projects is $600 million. Pursuant to the Project Partnership 
Agreement, the S&WB will be required to fund approximately $40 million 
of this cost immediately. SELA must be fully funded and work expedited 
for New Orleans and Jefferson Parish to reap the maximum benefits. To 
that end, it is paramount that the financing of land, easements, rights 
of way, relocation of utilities and disposal of soil area (LERRDs) be 
allowed to move forward with the 30-year repayment plan outlined in 
Public Law 110-329.
    Lastly, the S&WB sustained approximately $60 million in damages 
from Hurricane Isaac alone. Flying debris damaged facilities and caused 
a fire, fallen trees ruptured underground pipes, winds tore roofs off 
our buildings, and drainage canals were littered with trash, which had 
to be cleared. In an effort to mitigate destruction from future storms, 
it is imperative that continued storm proofing and fortification be 
expedited and funded.
    Due to numerous improvements in the last 7 years, the S&WB's 
drainage system performed well and helped prevent major flooding within 
Orleans Parish. Moreover, as work continues on SELA projects, it is 
anticipated that our system will perform even better in future storm 
events. The importance of all SELA projects cannot be overstated. 
Because these projects aid in the drainage of the entire area within 
the HSDRRS, it is vital that they be completed as soon as possible and 
allowing the non-Federal partners to finance LERRDs over 30 years will 
ensure this happens. Furthermore, while there was much improved 
coordination and communication with the Corps, issues with the 17th 
Street Canal and tandem pumping need to be re-examined and addressed as 
soon as possible.
    Again, thank you Madam Chair and members of the committee for 
allowing this statement to be entered into the record.
    [This prepared statement was submitted by Marcia St. Martin, 
Executive Director, New Orleans Sewerage and Water Board.]

                                  [all]
                                  
                                  
                                  
</pre></body></html>
